<html>
<title> - DHS: THE PATH FORWARD</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                         DHS: THE PATH FORWARD

=======================================================================



                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2009

                               __________

                            Serial No. 111-1

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
49-373                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Emanuel Cleaver, a Representative in Congress From 
  the State of Missouri:
  Prepared Statement.............................................     4

                               Witnesses

The Honorable Janet Napolitano, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                             For the Record

The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania:
  Photo..........................................................    22
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas:
  Photos.........................................................    29

                                Appendix

Questions From Chairman Bennie G. Thompson.......................    51
Questions From Honorable Peter A. DeFazio........................    52
Questions From Honorable Henry Cuellar...........................    53
Questions From Honorable Bill Pascrell, Jr.......................    56
Questions From Honorable James A. Himes..........................    62
Questions From Honorable Lamar Smith.............................    62
Questions From Honorable Gus M. Bilirakis........................    78
Questions From Honorable Steve Austria...........................    78


                         DHS: THE PATH FORWARD

                              ----------                              


                      Wednesday, February 25, 2009

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Harman, 
DeFazio, Lofgren, Jackson Lee, Cuellar, Carney, Clarke, 
Richardson, Kirkpatrick, Lujan, Pascrell, Cleaver, Green, 
Himes, Titus, King, Souder, Lungren, Rogers, McCaul, Dent, 
Bilirakis, Broun, Miller, Olson and Cao.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony from Secretary Janet Napolitano on ``DHS: The Path 
Forward''.
    I would like to, first of all, welcome Madam Secretary to 
the Homeland Security Committee. We coordinated with your 
office, as you know, this opportunity for our first hearing to 
get an idea on where you see the Department going from this 
point forward. So we appreciate you accommodating the committee 
and we look forward to your testimony also.
    Although you have been here in office for about a month, 
you made yourself available to me and other Members of this 
committee to discuss critical issues affecting the Department 
and we thank you. Given the demands on your time, the interest 
you have demonstrated in hearing congressional concerns is 
commendable. I hope this dialog continues throughout your 
tenure and that you tackle the challenges of moving DHS 
forward.
    However, I would be remiss, Madam Secretary, if I did not 
point out that in the last 2 years, this committee's oversight 
work has played a major role in developing the public record on 
the shortcomings of the Department. Those shortcomings were not 
exposed to play a Washington game of gotcha. On the contrary, 
we raised questions about real problems and endeavored to work 
with DHS to develop real solutions. Rest assured, we will 
continue to have questions and look to your leadership for 
answers.
    We called this hearing this morning ``DHS: The Path 
Forward'' because this Department cannot afford to remain stuck 
in the same place doing things the same way and somehow 
expecting a different outcome. But before moving forward, one 
must first assess the condition of the road in one location on 
the road. You now oversee a Department that has an annual 
budget of over $40 billion and a work force of over 200,000 
people. DHS is on the GAO high-risk list because of challenges 
it faces in implementing and transforming 22 separate agencies 
into 1 fully functional Department.
    The Department's mission can be summed up as the duty to 
keep dangerous people and dangerous things out of this country. 
To fulfill this mission, it shoulders the responsibility for a 
wide range of activities, including securing the borders; 
responding to natural disasters and catastrophic events; 
ensuring the capacity of passengers and cargo that rely on air, 
surface and maritime transportation; safeguarding critical 
infrastructure; and administering grants. Unlike many 
Departments, at each step along the way this Department must 
work closely with State and local and tribal governments to 
accomplish its critical mission.
    Your actions in the last month have indicated that you 
understand the wide-ranging nature of the Department's 
activities and the need to map a course to take this Department 
forward. In your short tenure, Madam Secretary, you have 
ordered an agency-wide efficiency review to eliminate wasteful 
spending and required policy and program reviews in nine key 
areas, including State and local intelligence sharing, 
cybersecurity, risk analysis, national planning scenarios, and 
Gulf Coast rebuilding efforts. After you complete your 
assessment of DHS's performance in these three areas, I look 
forward to hearing from you again about the Department's 
response plan.
    In closing, while you are in the process of charting a path 
forward, be mindful that every path has some rough spots and 
potholes. I hope you keep in mind the only way to achieve 
progress is to keep moving forward despite obstacles. If you 
forget, this committee will be here to remind you.
    Again, thank you for the hearing here today, and I look 
forward to your testimony.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman. Thank you for your 
courtesy. Thank you for your work with the Secretary to have 
her here this morning.
    Secretary Napolitano, we want to congratulate you on your 
appointment. We look forward to your service in office. I know 
when I was Chairman of the committee, we had you testifying 
here on border security. You did an outstanding job on that, 
and I want to thank you for the meeting that you and I had. Not 
that I want to get any of the other States or communities 
jealous, but I want to thank you for being in New York last 
weekend with Mayor Bloomberg and Commissioner Kelly. It was a 
very worthwhile meeting for them, and I want to thank you for 
that.
    As the Chairman said, the Department faces many problems. 
This is a Department which is comprised of 22 former 
departments, agencies, and 200,000 employees. I think much has 
been achieved, but obviously more has to be done. I want to 
assure you that on this side of the aisle we will work with you 
in addressing the issues that you confront as you move the 
Department forward.
    Certainly we have the whole issue of FEMA, how that will be 
run. Most of us on this side would support it staying within 
the Department. You will be evaluating all of that, and again, 
we look forward to working with you.
    The issue of border security you have a particular interest 
in and expertise in. That is a major issue which also has to be 
dealt with. It is on-going and will go many years in the 
future. We also look forward to working with you on that.
    On the whole issue regarding terrorism, there is the issue 
of visa waivers which really grows with each year as the list 
of countries expands, also the threat expands. I know Secretary 
Chertoff had concerns about that. Some of us on the committee 
had maybe more concerns--maybe more than Secretary Chertoff 
did. So we again want to work with you on the whole issue of 
visa waivers.
    The UASI funding and other homeland security funding. I 
believe the Department has over the last 2 years reached a 
level which I think is consistent with our national needs. 
Obviously that will be reviewed by you, and I just ask that you 
work with us on that.
    We had several bad years with a lot of conflicts between 
the committee and the Department. I think again over the last 2 
years significant progress has been made, but again, I would 
just ask that you work with us on that. In particular, probably 
the worst problem the Department had on that was when they 
dramatically changed the formula without advising anyone in the 
Congress, without discussing it with us at all. It really 
created some heated hearings, and I thank Chairman Thompson, 
who at that time was the Ranking Member. We worked together on 
that, and I think we were able to bring about considerable 
progress.
    The issue of Guantanamo, there is obviously different views 
on that. The President has made his decision. I know, speaking 
for myself and most on this side of aisle, we disagree with the 
decision to close Guantanamo, but if it is going to be closed, 
that is what is going to be happening. I know you will be on 
the review committee, deciding on what is going to be 
happening, what is going to happen with the detainees, how it 
will be processed. I think it is a very significant homeland 
security issue. We would again ask to be able to work with you 
on that so we can be apprised, have our input as it goes along. 
Especially with you being on that committee, it gives us direct 
access to a key player in that final decision.
    One final thing. I am not trying to get into semantics, but 
I do notice in your prepared testimony the word ``terrorism'' 
is not even used. I know your absolute commitment to fighting 
terrorism, and I know the President's commitment to that, the 
Chairman's as well.
    One concern I have had, and maybe Congressman Pascrell and 
Congresswoman Clarke, coming from areas which have been hit so 
hard, each day we go past September 11, it resets it into 
people's memories. The terrible impact of that day, if not 
forgotten, it is pushing it back.
    I think it is important for us in positions of leadership 
to constantly remind people how real that threat is and how it 
is an on-going threat, and if we don't do it, it is going to be 
harder to get legislative support for the measures that we 
think have to be taken.
    So I would just urge that on you and again assure you, as I 
assured the President, we will not use this issue for partisan 
purposes. It is too important. I think the Chairman and I have 
worked very well together. As a committee we want to work 
together. There will be specific differences we will have, but 
this is one issue overall that we agree on, and that is to 
protect our Nation from terrorism, to do all we can to avert 
another situation like Katrina that becomes a natural disaster, 
and also to secure our borders.
    With that, Madam Secretary, I thank you for your career in 
public service, and the best is yet to come.
    With that, I yield back the balance of my time.
    Chairman Thompson. Other Members of the committee are 
reminded that under the committee rules, opening statements may 
be submitted for the record.
    [The statement of Hon. Cleaver follows:]
          Prepared Statement of the Honorable Emanuel Cleaver
                           February 25, 2009
    Chairman Thompson, Ranking Member King, subcommittee Chairs, and 
Ranking Members; I would like to begin by expressing my great 
excitement in joining the Committee on Homeland Security. I look 
forward to working with my colleagues on both sides of the aisle as we 
come together to pursue the admirable goal of protecting our Nation. 
Today, I am looking forward to hearing the testimony from Secretary 
Napolitano. Secretary Napolitano has extensive background in the field 
of homeland security, and I believe that her testimony today will give 
this committee the much-needed overview on the direction that the 
Department of Homeland Security will be taking in this new 
administration.
    The Department of Homeland Security was formed in 2003 by combining 
resources from 22 agencies within the Federal Government. 
Organizational shortcomings have clearly dampened the effectiveness of 
this Department, and we can no longer allow this to occur. I am hopeful 
that today this committee will have the opportunity for a frank 
discussion with Secretary Napolitano where we can discuss the 
challenges faced by DHS, as well as the steps that the Department is 
taking the fix mistakes of the past. I am eager to hear how her newly 
issued directives will pave the way for the Department's future, and as 
a new Member of this committee, I am eager to work with the Secretary 
to carry out our core mission of keeping Americans safe from harm.

    Chairman Thompson. Again I welcome our witness today. Janet 
Napolitano was sworn in on January 21, 2009, as the third 
Secretary of Department of Homeland Security. Prior to joining 
the Obama administration, Secretary Napolitano was midway 
through her second term as Governor of Arizona. As Governor she 
implemented one of the first State homeland security strategies 
in the Nation, opened the first State counterterrorism center, 
and spearheaded efforts to transform immigration enforcement.
    Secretary Napolitano previously served as attorney general 
of Arizona and U.S. Attorney for the District of Arizona.
    Madam Secretary, I thank you for your service, for 
appearing before the committee today. Without objection, the 
witness's full statement will be inserted into the record.
    Secretary Napolitano, I now recognize you to summarize your 
statement for 5 minutes, thereabout, but since this is your 
first time, we will allow you to come in your own way.

    STATEMENT OF THE HONORABLE JANET NAPOLITANO, SECRETARY, 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Thank you, Mr. Chairman, Ranking 
Member King, Members of the committee. I appreciate the 
invitation to be with you today to share with you my initial 
thoughts on how we take a relatively new Department that you 
have been an integral part of building and supporting and move 
it forward to confront and prepare for threats that face this 
Nation, be they man-caused--and terrorism, Representative King, 
I believe, falls in that category and is central to that 
category--or be they caused by nature. Then if a threat is to 
develop, how do we respond and recover with efficiency and 
resiliency?
    Those issues really cover the broad continuum of this 
Department. It is the protection of our borders. It is the 
protection of our coasts. It is the protection of our 
infrastructure, with all that entails, from pipelines and 
electric power grids to the cyber infrastructure of this 
country. It is the protection of our people, and it is the 
ability to, as I said earlier, respond, recover with the 
efficiency and resiliency the American people have demonstrated 
time and time again.
    Now, to do that requires lots of subsets and lots of 
different areas of expertise within the Department of Homeland 
Security. One of the things I have overall been pleased with is 
the quality of the men and women who have been serving there. 
Many of them came to the Department because of the events of 9/
11, and that is really the central motivating factor of the 
Department every day. What I have encouraged our people to do 
is to say to themselves when they wake up in the morning, what 
are they going to do that day to improve the safety and 
security of Americans, and, when they leave work that evening, 
what did they accomplish that day to improve the safety and 
security of Americans?
    For my part, what we are doing is kicking the tires, 
looking at some issues fresh, with a fresh set of eyes, and 
thinking about, as you said, Mr. Chairman, as I title my 
testimony, how we move forward. What should our immigration 
enforcement policy be, and how will we carry it out? How will 
FEMA interact with first responders, cities and States in the 
event of a natural disaster?
    By the way, let me just pause there and say one of the 
things we need to do is to remind people that FEMA is not a 
first responder. I think that is one of the myths perhaps that 
grew out of Katrina-Rita. But emergency response starts with 
cities, localities that have the police and the fire. They 
bring in States when the circumstances require, and then FEMA 
is there to back up and provide overall support. So lots of 
issues there.
    Third, intelligence and analysis: A very, very important 
part of the overall work of this Department; how that occurs, 
and, more importantly, how do we make sure that we have an 
integrated intel ability that integrates with State and local 
officials and that we are sharing information adequately and on 
a real-time basis and getting information back adequately and 
on a real-time basis. I believe that is one area that will be a 
major focus of my tenure as the Secretary of the Department.
    I could go on. I won't because I want to invite the time 
for questions. But those are a few of the things that we are 
doing.
    Now, let me, if I might, pause with the committee and our 
relations. My hope is that we have a very strong relationship. 
I view this committee as a committee to help us accomplish 
these myriad goals and the myriad tasks for the protection of 
our people that the Department of Homeland Security is 
assigned. We will be open. We will do everything in human power 
to be timely, but I hope that we can have a relationship that 
allows us to exchange information, ideas, and, as you said, Mr. 
Chairman, move the Department forward. So that is my goal with 
respect to congressional relations, as it were. So protection 
of our people; protection of our lands; protection of our 
property; and the ability to respond with efficiency, 
resiliency; that is the umbrella goal with many subsets, but 
that is what we in the Department are going to be focused on 
every day.
    Thank you.
    Chairman Thompson. I thank you, Madam Secretary, for your 
testimony.
    [The statement of Secretary Napolitano follows:]
                 Prepared Statement of Janet Napolitano
                           February 25, 2009
    Chairman Thompson, Ranking Member King, and Members of the 
committee: I am pleased to appear before the committee for the first 
time as Secretary of the Department of Homeland Security, and I thank 
you for this opportunity to discuss how DHS will work in the future to 
keep Americans safe.
    At its core, I believe DHS has a straightforward mission: to 
protect the American people from threats both foreign and domestic, 
both natural and manmade--to do all that we can to prevent threats from 
materializing, respond to them if they do, and recover with resiliency. 
Government does nothing more fundamental than protecting its citizens. 
But the execution of this mission can be very complex.
    In a little more than a month as Secretary, I have found a 
Department facing a number of challenges, many of which have been 
documented by the committee. But I have also found a Department filled 
with committed public servants. DHS faces the challenges of a young 
Department, but this youth is also an advantage in undertaking the 
changes needed to best achieve the DHS mission. My message to you today 
is that I am confident that DHS--with the support and participation of 
Congress--can make those changes, meet those challenges, and move down 
``the path forward'' to build a more secure Nation.
                           action directives
    Improving a Department as large and new as DHS requires a broad 
look at the current state of its programs. As you know, the DHS 
portfolio is extremely diverse. During my short term as Secretary, DHS 
has helped respond to ice storms in the Midwest, rescued ice fishermen 
on Lake Erie, helped secure the Super Bowl, and even assisted in 
capturing pirates off the coast of Somalia--all since January 21.
    In undertaking the leadership of the Department, I am setting 
priorities that will be important to me as Secretary. We need to hold 
people accountable, uphold professionalism across DHS, and act wisely 
with taxpayer money. We have to dedicate ourselves to doing what works, 
and frequently reassess the Department to make sure that we are 
responding to threats as best as possible and making the kind of 
progress that Americans expect and deserve. I promise to lead the 
Department in a way that focuses intently on achieving results that 
make Americans safer. To me, the process of producing results begins 
with a prompt assessment of the state of DHS's programs.
    We are performing that kind of review right now. In the several 
weeks after I took office as Secretary, I issued a series of action 
directives to assess the current functions of the Department and help 
target areas for improvement. As part of this process, the different 
components of DHS are reporting on their current operations and 
detailing ways that we could improve programs in the future.
    The committee and I have similar views of the Nation's homeland 
security needs. I have reviewed the committee's eight platform 
points,\1\ and the action directives I issued address all of those 
areas. I agree with the need to prioritize each of the areas the 
committee listed, and I see the action directives as the start of a 
process by which the work of DHS and the committee will improve them.
---------------------------------------------------------------------------
    \1\ The Committee's platform items: (1) Improving the governance, 
functionality, and accountability of the Department of Homeland 
Security; (2) enhancing security for all modes of transportation; (3) 
strengthening our Nation: response, resilience, and recovery; (4) 
shielding the Nation's critical infrastructure from attacks; (5) 
securing the homeland and preserving privacy, civil rights, and civil 
liberties; (6) connecting the dots: intelligence, information sharing, 
and interoperability; (7) implementing common-sense border and port 
security; and (8) inspiring minds and developing technology--the future 
of homeland security.
---------------------------------------------------------------------------
    The action directives required DHS components to report back to me 
in a short time frame, and I want to update the committee on the status 
of the directives:
  <bullet> Efficiency Review.--Last week, I issued an action directive 
        calling for an Efficiency Review across DHS. In a young 
        Department that combines many processes previously scattered 
        across the Federal Government, this review will be critical to 
        improving the governance, functionality, and accountability of 
        DHS. Components will provide information on actions they are 
        taking to reduce costs, increase transparency, streamline 
        processes, eliminate duplication, and improve customer service.
  <bullet> State and Local Intelligence Sharing and Integration.--I 
        issued two action directives concerned with the Department's 
        partnerships and intelligence-sharing activities with State, 
        local, tribal, and territorial partners. As a result of the 
        directives, the Department is considering a possible future 
        assessment of all intelligence-sharing efforts within DHS with 
        an eye toward reducing duplication. DHS is also considering 
        ways to improve intelligence sharing by involving State and 
        local partners during the formulation of intelligence-sharing 
        policies and programs. The Department is looking to improve the 
        coordination of activities involving State and local partners 
        across DHS. I issued a separate action directive on FEMA 
        integration with State and local governments; FEMA presented 
        feedback based on 75 recommendations emerging from the candid 
        assessments of State and local homeland security and emergency 
        management officials.
  <bullet> Hurricanes Katrina and Rita.--I issued an action directive 
        regarding the Department's continued efforts in recovery from 
        Hurricane Katrina and Hurricane Rita. As a result, FEMA will 
        establish and field a senior-level team to identify issues 
        related to--and review, assess, and identify--efficiencies that 
        will improve Hurricane Katrina and Rita recovery efforts. FEMA 
        will work to clarify and enhance the Government's role as a 
        more active and engaged facilitator of long-term community 
        recovery working across agencies, and will move quickly to 
        provide arbitration as an additional dispute resolution 
        mechanism, as per the direction of Congress.
  <bullet> Border Security, Immigration, Employment Verification, and 
        Enforcement.--I issued a number of directives related to border 
        security and immigration. Among the directives, I requested an 
        assessment of past border security assistance by National Guard 
        and Department of Defense assets. I issued a directive to 
        measure employer compliance and participation with the 
        Department's E-Verify program and ways that DHS has worked both 
        to reduce false negatives in order to protect the rights of 
        Americans and to strengthen the system against identity fraud. 
        I issued directives to assess the status of the Department's 
        work site enforcement programs, fugitive alien operations, 
        immigration detention facilities, removal programs, and the 
        287(g) program. I asked for an assessment of the situation of 
        widows and widowers of U.S. citizens who had petitioned for the 
        alien spouse's immigration, but whose petitions were not 
        adjudicated before the citizen spouse's death. I issued a 
        directive to assess Department programs to combat border 
        violence and drug smuggling, and as a result, DHS is 
        considering ways to better engage partners and increase the 
        effectiveness of these programs. I also issued a directive that 
        assessed our northern border strategy. Through that directive, 
        DHS is considering cases where, because of climate and 
        geography, some specialized technology may need to be developed 
        or modified in order to protect the northern border while 
        mitigating unnecessary impacts on our extensive trade with 
        Canada.
  <bullet> Transportation Security.--In an effort to assess security 
        across all forms of transportation, I directed the review of 
        transportation security in the surface, maritime and aviation 
        sectors. The review identified a number of areas where risks to 
        transportation security could be reduced. Resources such as 
        explosives detection systems and transit, rail, and port 
        security personnel contained in the recently passed American 
        Recovery and Reinvestment Act of 2009 will enable the 
        Department to accelerate the mitigation of risk in these areas.
  <bullet> Critical Infrastructure Protection.--I issued an action 
        directive to assess the status of the Department's efforts to 
        shield the Nation's critical infrastructure from attacks. The 
        response contained several steps DHS would take to inspect the 
        security of chemical plants and efforts DHS would participate 
        in to limit the availability of dangerous materials. I issued a 
        separate directive for an assessment of DHS's critical role in 
        cybersecurity.
  <bullet> Healthcare Surge Capacity.--I issued an action directive 
        that evaluated DHS's role in building capacity for a ``health 
        care surge''--the increase in people who might need medical 
        attention after an incident--including DHS's supporting role in 
        coordinating response to such an incident, and how the 
        Department's preparedness and public communications efforts 
        could better facilitate existing health care surge capacities. 
        This directive will help us move forward on a critical element 
        of our Nation's response capability.
  <bullet> Planning and Risk Management.--I issued an action directive 
        asking for a report on DHS's lead role in the interagency 
        effort to develop Federal operational plans for prevention, 
        protection, response, and recovery activities for the National 
        Planning Scenarios. The report will also discuss how DHS will 
        work with law enforcement partners inside and outside the 
        Federal Government in an integrated planning effort. I issued a 
        separate directive to assess DHS's uses of risk analysis. As a 
        result, several steps were identified that will assure DHS 
        provides risk-analysis information to a full range of 
        decisionmakers, and assure that the Department's strategies are 
        risk-based.
    In addition to the action directives, I have also begun the process 
of reaching out to new Cabinet officers. I have already met with 
several of my fellow Cabinet officials about areas where our 
Departments will cooperate and coordinate. We in the Cabinet work in 
one administration, and we address problems together. In particular, I 
am conducting this kind of outreach vis-a-vis the Department's 
important role in the intelligence community. We are one of several 
agencies that work together to identify security threats, and the 
ability to cooperate and coordinate across departmental lines is 
paramount.
                               priorities
    The action directives process will help determine many of DHS's 
particular priorities as we look to move forward. But there are a few 
broad areas I can easily identify where DHS should focus in order to 
better protect Americans.
State and Local Partnerships
    First among these areas is the Department's relationship with State 
and local governments. State and local law enforcement agencies are the 
forces on the ground that represent, inhabit, and patrol America's 
communities--the communities that DHS protects. We need strong 
relationships with our State and local partners, and I am committed to 
building them.
    Partnerships with State, local, tribal, and territorial agencies 
affect DHS's ability to identify threats and bolster preparedness 
before an incident; they also affect our ability to work with first 
responders and assist a community's recovery after an incident. The 
information we gather, the funding we grant, and the training and 
assistance we provide are all more valuable in securing our Nation if 
DHS's relationships with the involved State and local agencies are 
strong.
    Information sharing between DHS and State and local governments is 
particularly critical to our security. Over time, this topic has proven 
easy to talk about and difficult to act upon--but we must move forward 
on it if we are to strengthen our State and local partnerships. The 
fusion of information between the Federal, State and local levels is 
what makes the intelligence-gathering process critically valuable to 
preventing threats from materializing. Information sharing is also what 
makes response efforts effective. The creation of a seamless network we 
can use to share this information among these levels of government is a 
critical part of improving our partnerships.
    Already in my time as Secretary, I have traveled to four different 
States and met with State, local, and community leaders in each of them 
about how DHS will continue to work with them. The range of topics we 
met about--disaster response, community assistance, the development of 
new technological capabilities for DHS, and preparedness--speaks to the 
extent to which DHS must partner with State and local governments to 
work effectively on any front.
    When considering the action directives and the committee's eight-
point platform, it is also clear that many critical priorities--from 
transit security to border security to infrastructure protection--can 
only be achieved with strong State and local partnerships. Building 
these partnerships will be an on-going priority throughout my time as 
Secretary.
Science and Technology
    Second, DHS should build on its science and technology portfolio. 
Better science helps us understand emerging threats and how to 
identify, counter and mitigate them. Better technology can expand our 
capabilities and free our agents to spend their time where it is most 
valuable, while at the same time protecting the interests of private 
citizens by minimizing law enforcement's impact on lawful activities. 
Technology can also aid us in consequence management, so that we are 
better prepared to respond to any type of disaster.
    It is difficult to think of an area of DHS operation where a 
greater use of cutting-edge technology would not improve capabilities. 
Our border security efforts, port screening, transportation security, 
customs processes, immigration programs, and preparedness and 
interoperability efforts could all benefit from a strong push to 
develop new technologies and implement them in the field.
    A good example of better technology leading to greater capability 
is going live this week in San Diego. The port of entry at San Ysidro, 
the largest land port in the Nation, is now equipped with radio 
frequency identification (RFID) infrastructure--including software, 
hardware, and vicinity technology--that allows Customs and Border 
Protection Officers to identify travelers faster than ever. The 
technology expedites the travel of law-abiding border crossers and 
allows agents to focus on where they are most needed. The high-tech 
RFID system works in tandem with RFID-enabled documents such as 
passport cards, Customs and Border Protection's trusted traveler 
programs, and enhanced driver's licenses. An RFID tag embedded in these 
documents transmits a unique number to a secure CBP database as the 
traveler approaches the border, allowing agents to identify the crosser 
quickly. The high-tech system expands law enforcement capabilities 
while improving the process for Americans.
    Of course, amid the implementation of new technology, we will 
continue to be diligent in honoring the rights of Americans and 
addressing concerns raised about privacy. To this end, last week I 
appointed an experienced new Chief Privacy Officer for the Department, 
who will bolster a Privacy Office already recognized as a leader in the 
Federal Government. homeland security and privacy need not be 
exclusive, and the Department will look to include privacy in 
everything we do.
    Technologies such as the RFID system at San Ysidro are examples of 
the potential of science and technology to make a great impact across 
DHS. Especially as DHS works to stay ahead of developing threats, the 
forward-thinking application of new technologies will be critical to 
enhancing the protection of our country. That is a broad-reaching 
priority I plan to pursue, and I look forward to working with the 
committee on this effort.
Unifying DHS
    To achieve its mission more effectively, DHS must not just operate 
better as one Department--it must identify as one Department, where 
many different people contribute in diverse ways to one paramount goal: 
Securing our Nation. I am committed to building a unified DHS that is 
better able to achieve its mission.
    The unification of the Department is an issue deeply related to 
DHS's operational capacity. It is important that we develop an identity 
for DHS that is centered on the Department's mission and that we build 
a ``one-DHS'' culture among the different components of the Department. 
We also must uphold the morale of DHS workers, an effort that a unified 
Department identity would support. Employees across the many DHS 
components perform difficult work that, day in and day out, upholds the 
security of our Nation. DHS employees should be proud of the public 
service they perform, and we should help them in their work by building 
a strong Department to support them. Low morale can lessen the ability 
of an organization to achieve its goals--something that we cannot let 
happen in homeland security.
    The Department headquarters building will support our unification 
efforts, and I am grateful for the funds for the St. Elizabeths 
headquarters included in the American Recovery and Reinvestment Act. 
But ultimately, our Department is not a building; it is the people in 
the Department who will determine its success.
    Achieving the goal of a unified Department will take time, but I am 
dedicated to making progress on this goal, and I look forward to 
working with the committee on furthering it.
                               conclusion
    Chairman Thompson, Ranking Member King, and Members of the 
committee--thank you again for inviting me to testify. I am honored to 
serve in my new role as Secretary. I am eager to become even further 
immersed in the work of protecting our country. And I look forward to a 
long, productive relationship with the committee as we work together to 
improve homeland security in our Nation. I am happy now to answer any 
questions you have.

    Chairman Thompson. I will remind each Member that he or she 
will have 5 minutes to question the Secretary. I will now 
recognize myself to begin questioning.
    Again, thank you, Madam Secretary, for your testimony. I am 
glad to learn that you requested a review of the continuing 
hurricane recovery efforts on the Gulf Coast. As you know, many 
people in my home State of Mississippi, Louisiana, Alabama, and 
Texas are still displaced. Recently FEMA reported to this 
committee that only one-half of the $2.8 billion in Federal 
disaster funds provided to Mississippi had been spent 3\1/2\ 
years after Katrina.
    I would like for you to have your people report back to the 
committee on why it is taking so long to spend the money for 
those Katrina-affected areas. Some of us think it is a long 
time. After you provide that information, if you can provide to 
us how you think we can do a better job in helping citizens who 
are impacted with any natural disaster, I would appreciate it.
    Secretary Napolitano. Mr. Chairman, thank you. We would be 
happy to provide that information. But I think as important is 
how we are going to unclog these recovery efforts so that we 
can begin to move those issues forward and close some of the 
chapters out of Katrina/Rita and the Gulf Coast.
    The Secretary of HUD and I are going there next week to do 
not only site visits, but to look at what we need to do to 
unclog some of the issues about housing. I have also directed 
my staff to give me a process by which we can begin to resolve 
the claims, the public assistance claims, that have been at 
issue between the Federal Government and State and local 
governments in the Gulf Coast for these many years. So that is 
well under way, and I look forward to reporting back to you. 
Actually I look forward to reporting back to you and saying 
that we have a process to begin closing some of these claims 
out.
    Chairman Thompson. Thank you.
    In light of that also, Madam Secretary, there is some 
concern of no-bid contracts and other things that the 
Department has been criticized for. If you can expand that to 
see how we can limit the number of no-bid contracts, that also 
would be appreciated for the committee.
    Secretary Napolitano. Yes, Mr. Chairman, absolutely. In 
fact, earlier this week President Obama held a fiscal summit. 
Some of you were present. I actually was in the breakout group 
on procurement, and I don't know how I got that assignment, but 
it turns out that that is the nuts and bolts of how you make 
Government more competitive, more efficient, how you make sure 
that every vendor has a chance to compete for Federal tax 
dollars. So that is an area of keen interest, and we are 
looking at that and look forward to working with the committee 
on that.
    Chairman Thompson. Thank you.
    Border violence. As you know, having been the Governor of a 
border State, you have firsthand knowledge of so many of the 
things that occur. One of the things we have as a committee and 
as a Congress been very supportive of is providing resources. 
Secretary Chertoff talked about a surge potential if violence 
started moving in the wrong direction. Can you share with the 
committee what efforts are under way or you think should be 
under way to address this escalating border violence?
    Secretary Napolitano. Yes, Mr. Chairman. I only have 37 
seconds left, but it may take me a little longer.
    I have actually found a situation in Mexico, one of the top 
priority items on my desk. It was on my desk when I was 
Governor of Arizona, but as the Secretary of Homeland Security 
I see it in a much broader way.
    I believe our country has a vital relationship with Mexico, 
and I believe that Mexico right now has issues of violence that 
are of a different degree and level than we have ever seen 
before. That is primarily the product of the President of 
Mexico and his government going after these large drug cartels 
so that we never run the risk, never run the risk, of Mexico 
descending into, say, where Colombia was 15 years ago. As those 
efforts have been on-going, it has increased the level of 
violence within Mexico. Last year there were 6,000 drug-related 
homicides in Mexico; since January, there have already been 
1,000. They have been targeting in some of those homicides 
public officials, law enforcement officers as a process of 
intimidation.
    We are working to support President Calderon in his 
efforts. I believe this is going to require more than the 
Department of Homeland Security, so that we are reaching out to 
the National Security Adviser, to the Attorney General and 
others about how we within the United States are making sure we 
are doing all we can in a coordinated way to support the 
President of Mexico. I have met with the Attorney General of 
Mexico and the Ambassador already.
    One of the things that I particularly am focused on is 
southbound traffic and guns, specifically assault weapons and 
cash. They are being used to funnel and fund these very, very 
violent cartels. So working with Customs, working with ATF, we 
are looking at ways we can help suppress that traffic. In my 
view, from a Homeland Security standpoint, this is going to be 
an issue working with Mexico that is going to be of real 
priority interest over these coming months.
    Chairman Thompson. Thank you. I want to just put a footnote 
there that the committee has real concern about this issue, and 
to the extent that we can be helpful in addressing it, I want 
you as Secretary to feel free to work with us.
    I now recognize the Ranking Member of the full committee, 
the gentleman from New York, Mr. King for questions.
    Mr. King. Mr. Chairman, Madam Secretary, you said you 
looked forward to working with Congress. I don't know if you 
will change your opinion over the next few years on that. We do 
enjoy this level of cooperation. I think it is important, 
though, and this is probably more our problem than yours that 
you could end up testifying before 80, 90, 95 House and Senate 
committees. So we want to do whatever we can to consolidate 
that. We believe that the Committee on Homeland Security should 
be the central committee not for any position of gaining turf, 
but because I think it should be coordinated similar to the 
Armed Forces relationship with the Defense Department. That 
will be an on-going issue on Capitol Hill; any moral support 
you can give us in that we would appreciate.
    On the issue of UASI funding, Homeland Security funding, 
one of the main recommendations of the 9/11 Commission is that 
funding be risk-based. As I mentioned in my opening statement, 
that has been an issue of some controversy over the last 
several years. You have been in office less than 5 weeks. Do 
you have any thoughts as to what can be done to ensure that we 
do at least as good a job, if not a better job, in determining 
how risk-based funding should be implemented?
    Secretary Napolitano. Yes. To your first point I asked the 
question how many hearings the Department had with the House in 
the last session, and the answer, within the last session there 
were 269 hearings involving the Department of Homeland 
Security, 126 involving this committee or its subcommittees, 
111 involving other authorizing committees, 32 involving 
Appropriations Committee or its subcommittees. So while it 
would be presumptuous of me to recommend to Congress how it be 
organized, I think that it is a fact that is relevant, and 
indeed one of the recommendations of the 
9/11 Commission, the only one that hasn't been acted on, is the 
need to now streamline and focus on the Department of Homeland 
Security from a congressional oversight perspective.
    With respect to UASI and risk base, we have now 
consolidated 99 percent of the grants and grant funding. That 
99 percent all comes under FEMA. What I have said is the way we 
are approaching it is everywhere in the country has some sort 
of risk. It can be interruption of the food chain supply by an 
event happening in Kansas, it can be interruption of the 
gasoline supply to the country because of the refineries 
located in the Gulf Coast. It can be, as we tragically saw on 
9/11, interruption of our markets and stock exchanges by a 
terrorist act in New York City. So we have all kinds of risk. 
So some base level of funding needs to accommodate that.
    But above and beyond, there are areas of particular risk 
and would have particular broader impacts on the country, and 
that is where I think we need to focus our analysis and sharpen 
what are those risks and what are the impacts to the country if 
something untoward were to happen. So as we move forward, I 
would be happy to work with and inform the committee about 
this, but that is where I believe the analysis of the risk-
based work needs to be done. It is beyond kind of a base level 
of risk that every area shares, although they are different. 
There is a base level there. But beyond that, we know there are 
certain areas where if risks were to materialize, there would 
be an undue impact on the rest of the country.
    Mr. King. Thank you, Madam Secretary.
    Another issue raised by the 9/11 Commission was the sharing 
of intelligence at the Federal level, and, of course, part of 
your response was to share that down to the local level. At the 
Federal level itself, though, it was my impression the first 
several years at the Department that DHS was sort of excluded, 
or the other power players tried to keep DHS out of the 
intelligence gathering and didn't share as much as they should 
have with them. I think when Mr. Charlie Allen came on board, 
that improved somewhat.
    I ask that you do what you can to make sure that DHS does 
get the intelligence it should be getting. You are in a better 
position then to get that to the local governments. If you need 
assistance, we would agree that the Department would have a 
role to play as far as receiving the intelligence gathered from 
the other intelligence agencies.
    Secretary Napolitano. Thank you.
    I think one of the perhaps advantages I have is that this 
is the first time there has actually been a transition of 
administrations where you have a Department of Homeland 
Security from Day 1 and indeed a Secretary from Day 1. I think 
that helps with some of those issues that Secretary Ridge and 
perhaps Secretary Chertoff experienced.
    I believe that the Department right now is fully a partner 
in intelligence sharing, and if it is not, I will be fighting 
for that. I think at this point the key challenge we have, as I 
said in my opening statement, is how do we better share with 
State and locals and also get their information back, because 
they have, quite frankly, more eyes and ears than the Federal 
Government will ever have.
    Mr. King. Thank you, Madam Secretary.
    Chairman Thompson. The Chair will now recognize other 
Members for questions they may wish to ask the Secretary. Again 
I urge Members to be mindful of the 5-minute rule and the 
Secretary's limited time with the committee. In accordance with 
our committee rules, I recognize Members who were present at 
the start of the hearing based on seniority on the committee, 
alternating between Majority and Minority. Those Members coming 
in later will be recognized in the order of their arrival.
    The Chair now recognizes the gentlewoman from California 
for 5 minutes, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you, Madam 
Secretary, for being before us.
    I actually really look forward to this change in 
administration and having you head our Department. Why? 
Because, first of all, I am the Vice Chair of this committee, 
and second, I chair the subcommittee that has much of what has 
been happening in Homeland, which means that I have had to 
oversee the TWIC program, Project 28, SBInet, Deepwater, US-
VISIT, Western Hemisphere, all of which have had major, major 
problems. I look forward to talking to you about that and 
figuring out how to get things under way at the Department.
    In addition to that, I have the global counterterrorism or 
the international aspect of all the intelligence gathering and 
information, and I look forward to talking in a separate 
meeting with you with respect to how we might incorporate that 
better into the Department of Homeland Security.
    Of course, the border violence, the drug trafficking, I am 
not going to talk much about that, because I have a feeling 
that my Ranking Member Mr. Souder, who has worked on these 
issues for a long time, will probably ask you many questions 
with respect to that.
    Cybersecurity is--as a Californian, I think that will be 
one of the biggest areas that we will have to look at. I also 
sit on that subcommittee.
    My first question is that in the last Congress I introduced 
House Resolution 6869, which is the Border Security Search 
Accountability Act. This has to do with being stopped entry 
into the country and taking people's laptops and BlackBerrys or 
what have you and not have a good policy with respect to why we 
take them, how long they are gone, will we return them to 
whomever, et cetera. It poses a lot of issues. You can imagine 
if you had your work on your laptop, and you went to a country 
and they took it away from you and might never return it.
    Madam Secretary, during your Department's review of the 
Bush-era policies, are you open to updating the border search 
electronic seizure policies and working with me to adding 
accountability to that process?
    Secretary Napolitano. Yes. Let me share with you on the 
issue of laptops and laptop searches. The law here is very 
straightforward and, quite frankly, very broad that at the 
border the Federal Government possesses the ability to search. 
But that doesn't answer the question should it search, and what 
are the elements that should be incorporated into a decision to 
search, and then what do you do after a search is complete with 
respect to return of material?
    We have now appointed a Chief Privacy Officer for the 
Department, and there are a number of issues that we handle, 
including the laptop issue, that have really key privacy 
concerns, such as the ones you raised, inherent in them. So I 
look forward--she reports to work in a week or 2--to putting 
her to work and helping us develop further refinement of what 
we are doing, and, of course, working with the committee about 
what we are doing.
    Ms. Sanchez. We intend to reintroduce some type of 
legislation with respect to that, so I would like to work with 
you to ensure that we know what we are doing and getting it 
through the Congress.
    The second issue I have is this April I plan to hold my 
fourth hearing on the Transportation Worker Identification 
Credential, or the TWIC card. What plans do you have in place 
to help workers obtain TWIC cards during these last 7 weeks 
before the April 15 deadline? I just have a feeling a lot of 
people haven't pulled them; there is going to be a mad rush to 
try to get them. How will you ensure that people aren't out of 
work after April 15 if they don't have this card to get on the 
port system, et cetera? Would you consider temporary measures 
like allowing unescorted access for 30 days for vehicles who 
maybe did not get them or maybe had part of a background check 
done? This is a train wreck waiting to happen, I believe.
    Secretary Napolitano. Well, here is the status of TWIC 
right now. It has been implemented in all but about seven or 
eight ports. There are about 1.1 million workers who need a 
TWIC card. Around 920,000 already have their cards, or their 
cards are just about ready to be issued. So that process is 
well under way. The ports that are left are some of our larger 
ports, New York, Houston, Los Angeles, Long Beach, and so we 
want to make very sure that the process goes smoothly at all 
our ports, but particularly those that haven't yet fully 
implemented TWIC.
    All I can say is that it is not only on our radar, but the 
subject of daily questions from me about how we are doing, who 
has the cards, what problems we are experiencing, how we are 
resolving those problems. But the point of fact is that TWIC 
card and having identify about those who are getting into 
secure areas at our ports I believe is a very important part of 
homeland security and securing our country. So we want to move 
this process along and move it and enforce it.
    If there need to be exceptions, that is something I prefer 
not to talk about in the committee because I don't want people 
thinking that the deadline is going to move or something is 
going to change. TWIC is where we are going; it is well under 
way. The problems we have encountered so far have been dealt 
with, and we are moving forward.
    Ms. Sanchez. Thank you, Madam Chair, and thank you, Mr. 
Chairman.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from California for 
5 minutes, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Congratulations on your appointment, and it is nice to see 
another former attorney general making good.
    First of all, let me just say that I was not here serving 
when Secretary Ridge was heading the Department. I have been 
here for 4 years while Secretary Chertoff was here. I happen to 
think he did a very good job in trying to amalgamate all of 
those agencies and departments. I think there was much progress 
made, but we all know a lot more needs to be done, and I 
appreciate your dedication to doing that.
    If I could just follow up on what Mr. King said about us 
talking at least about the issue of terrorism. One of the 
things that has struck me over the last 4-plus years is that it 
is awfully easy to lose our sense of urgency in terms of the 
public and this Congress. As a fellow westerner, since we were 
so far away from 9/11, sometimes it is difficult to keep that 
image in the minds of our people so that they understand that 
it could happen anywhere. You and I know the potential for an 
uncontrolled border for soft spots for terrorists to come 
across, so I appreciate your dedication, and I particularly 
appreciate what you said about Mexico.
    I think there is misunderstanding about Mexico sometimes in 
this body, and that is I think the current administration there 
is doing precisely what we want them to do to fight 
narcoterrorism. The increase in violence is not an indication 
that they are not doing something, it is an indication that the 
bad guys are pushing back, and that could very well spill over 
into our sovereign territory, and that is why we need to work 
so closely with that country. So I appreciate what you have 
said, and I think your experience as Governor at one of the 
border States will help us bring that issue to the fore even 
more. So I thank you for that.
    Let me just bring up a couple of things. One is now we are 
doing a number of full-body imaging scans at a number of 
different airports. I see that some in the privacy community 
have raised issues. So let me throw out a very simple thing, 
and I happen to be someone who has an artificial hip. It is 
less an invasion of my privacy to go through full-body imaging 
than it is to have people placing their hands on my body all 
over the place.
    I would say that if you run into a problem with respect to 
privacy questions, think about creating an ``I don't care'' 
line. I happen to think--no, I am very serious about this--I 
think if you had an ``I don't care'' line, many of us would 
rather go through that. I think you would find some of the 
privacy issues that might otherwise bubble up might be 
alleviated by making it very clear that you can go through that 
line, you are going to go through a full-body scanner, fully 
knowing what is happening. I would just hope that you would 
consider that, because I don't think we should lose that 
technology. I see some articles coming up about some concerns 
about that.
    Second, cybersecurity. If I were to review all of the areas 
that we have worked on, that is both the Congress and the 
Department, over the last 4 years, the one area I think we have 
done the least in is cybersecurity. I think that is a 
reflection of our society at large. I know that you have 
indicated that it is one of your concerns or top 12 or 20 or 
whatever that list was. Could you talk a little bit about that 
and what you think we need to do both as a governmental entity 
and also to work with the private sector in that regard?
    Secretary Napolitano. Certainly. With respect to the full-
body scans, we are piloting them. We began in Tulsa, I believe, 
last week. There are four or five other airports, Albuquerque, 
Salt Lake City, and so forth. We will be using them as a pilot 
as well. We don't have an ``I don't care'' line. We actually 
have an ``I care deeply'' line. There is always an option to 
use a regular magnetometer for a passenger who doesn't want a 
full-body scanner. I believe, as you do, it is less intrusive 
to use the full-body scanner. I think the key question for us 
is going to be can we make it more rapid so we don't develop 
lines at the airports. So that is moving forward, and that 
technology seems to be very, very good, very promising at the 
least.
    In terms of cybersecurity, the National Director of 
Intelligence has begun a 60-day review of what we are doing 
Federal Government-wide on cyber, and in particular what we are 
doing to reduce portals of entry into the system, what we are 
doing to respond to intrusions, but, more importantly, what we 
are doing to implement technologies that would prevent 
intrusions.
    I believe, as you do, that the private sector has to be not 
only our partner in that, but they are actually in a way key 
consumers of what we are doing. So while I can't tell you right 
now what the actual operative structure is going to be to make 
sure the private sector is included, I have instructed our 
cyber folks to make sure that we are reaching out to the 
various private-sector groups.
    Mr. Lungren. I think you will find that the Members of this 
committee want to work very closely with you on that as a 
priority. Thank you.
    Chairman Thompson. The Chair recognizes the gentlelady from 
California. It must be a California day today, Ms. Harman.
    Ms. Harman. Mr. Chairman, every day is a California day.
    Mr. Chairman, I am pleased that President Obama has 
selected a good personal friend and an able woman to head the 
Department, and I would just point out to the Secretary that 
this committee wants to be your partner. I know the Chairman 
said that. We want to be your partner, and we have a strong 
history of bipartisanship in this committee. We may be 
jurisdictionally challenged, but we try to punch above our 
weight. This issue couldn't be more critical.
    Let me just put out a few things because time is very short 
and invite your comment to all of them. First of all, I applaud 
the new tone of the Department. As I have told you personally, 
I think your role is to prepare, not scare the American public. 
Yes, terrorism is a challenge; yes, we have more to do and much 
to fear since 9/11. But if people are personally prepared for 
what might come their way, first they will know what to look 
for, but second of all, they will have that resilience that you 
just talked about and not be terrorized. So appreciate what you 
are doing.
    No. 2, on the intelligence function, which is of keen 
interest to me, I applaud your comment that your challenge is: 
How do we share with the State and locals and get their 
information back? I think that the INA function at Homeland 
unfortunately, at least up to this point, is more of a 
stovepipe than an information-sharing vehicle, and that is why 
I have urged you and will continue to urge you to appoint a cop 
to be the head of INA, because I think that that expertise is 
critical.
    I don't think the problem is getting information from the 
Federal Government. I think the problem is forcing that 
information down to the person who will actually uncover and 
prevent, hopefully, or disrupt the next terror attack on our 
soil.
    Third, the National Application Office, which was stood up 
by your predecessor and, I gather, still operating at some weak 
level inside the Homeland Department, I think it is a mistake 
to have an office at Homeland Security that could task military 
satellites to conduct homeland security functions over the 
United States. I think there is a posse comitatus problem. I 
think existing law is adequate, and that is why Congressman 
Norm Dicks, a former Member of this committee, and I sent you a 
letter recently urging you to shut it down. I really think that 
would be in our national interest.
    Finally, I mentioned we are jurisdictionally challenged 
here. I would just welcome any comments you have and invite 
them for the record about how hard it is for Homeland Security 
officials, especially the Secretary, to appear at 88 committees 
and subcommittees in the U.S. Congress, and why it might make 
more sense to put most of the jurisdiction in this committee.
    Secretary Napolitano. Well, thank you.
    A few points, on the State and local information sharing. 
Obviously as a former Governor and State attorney general, I 
really appreciate that need. I will be giving an address in 2 
weeks at the National Conference for Fusion Centers. We really 
need to pump up that effort and make them a vital part of our 
national security network in terms of information sharing. So 
look for those comments.
    With respect to the National Applications Office, that is 
one of the issues that I am reviewing. They do have an 
appropriation actually from the Congress, and so what I have 
said is, look, I want to know what we are doing, what are the 
issues impacting privacy and expectations of privacy that 
should be taken into account, and I will be happy to report 
back to you, to the committee and Congressman Dicks as we go 
forward. So we have lots of issues to work on jointly, but I 
look forward to that partnership.
    Ms. Harman. Mr. Chairman, I have 51 seconds remaining, so I 
would invite the Secretary to put on the record how many 
appearances her predecessor had to make before the Congress, 
because I think it is useful for the audience tuning in to hear 
about this.
    Secretary Napolitano. Thank you. I should have done that in 
response to your question. Last session it was 269 hearings in 
the House, 126 before this committee or its subcommittees, 111 
from other authorizing committees, 32 from the appropriations 
side.
    I would say Secretary Chertoff was a great partner to work 
on on the transition from one administration to the next on 
homeland security. It is a nonpartisan issue, it is a very 
functional operational issue, it is nuts and bolts. But I think 
one of his comments and strong feelings was work of the 
Department was sometimes interrupted, unduly delayed, and lots 
of hours spent on preparing for hearings and so forth, when, in 
fact, better answers could have been prepared if more work 
could have actually been done prior to a hearing.
    Ms. Harman. Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair recognizes for 5 minutes the gentleman from 
Alabama, Mr. Rogers.
    Mr. Rogers. Mr. Chairman.
    Thank you, Madam Secretary, for being here.
    First there is talk in the last couple of years about 
pulling FEMA out of the Department. What are your thoughts? I 
will be up front; I am very opposed to that. This has become a 
well-organized Department. It has taken several years to get 
that way. We had some real rough spots when initially putting 
the 22 agencies together, and things are starting to work 
better now. I think it would be very disruptive. I am of the 
opinion of given how well FEMA has performed over the last 
couple of years, it is evidence that it is working. But what 
are your thoughts on the effort to remove FEMA from the 
Department?
    Secretary Napolitano. Thank you. Several things. One is I 
have not yet had the opportunity to speak about this with 
President Obama, and should he wish to seek that statutory 
change, he needs the space with which to do that. There are, 
though, as you know, many efficiencies to be encountered where 
FEMA is now. The issue, to me, is one of leadership and 
operations. If FEMA is working well, responding well, backing 
up State and locals--and again, the expectation that it is a 
first responder, that is a public perception that is 
inaccurate, and historically inaccurate. We need some help 
changing that expectation. But if it is doing its job working 
with State and locals in preparing and responding, if there is 
good leadership and management, where it fits in the Federal 
organizational chart becomes less of an acute issue.
    So right now it is within the Department of Homeland 
Security, it is part of my charter. I look forward to when the 
President nominates an Administrator, but in the mean time we 
keep working with the men and women in that Department, and 
again, kind of a parallel of the State and local intel sharing 
I talked about earlier, working with our first responders and 
our State and locals. I will be speaking to the national NIMA 
conference in the future, also an important part of FEMA's 
work.
    Mr. Rogers. Thank you. We put quite an effort into raising 
the number of Border Patrol agents from roughly 12,000 to now a 
little over 18,000, which was the goal. I still think it is too 
few. I think we should be over 20,000, but we hit that goal. 
But I am concerned that we haven't done anything on the ICE 
side; the number of agents has been flat for years. Do you have 
any opinion as to when that is going to change, or have you 
looked at that? Are you aware of any efforts to try to grow the 
number of ICE agents to be more compatible with the growth that 
we put on Customs?
    Secretary Napolitano. Thank you. We are looking at staffing 
levels across the Department, but also between Departments. 
Immigration is a system. It begins with the apprehension of 
someone illegal in our country and works not only through DHS, 
but also through the Department of Justice; you have to have 
marshals to transport detainees, because you have to have 
facilities, you have to have courtrooms. So the Attorney 
General and I have begun if I could say almost a joint review 
of the immigration system and what the Federal Government needs 
to do to support it.
    Mr. Rogers. Okay. Last I have the Center for Domestic 
Preparedness in my district. It is a wonderful facility, only 
one like it in the world to train first responders from all 
over the world. It is a facility where they offered the 
training free, they have to come. A fireman or -woman or police 
officer or rescue department, they come and spend 2 weeks of 
training. It is free.
    The problem is my district is very rural, and most of the 
first responders are volunteers, and they work during the day, 
and they can't take 2 weeks and go to the center. So I have 
been an advocate for the center to try to package more of that 
training and take it out in increments, 3- and 4-hour training 
for regional departments to come together. I would like to see 
you push that some more, because most of us, if you look at our 
districts, most of the first responders are, in fact, 
volunteers, and their neighborhood will be able to take 
advantage of the state-of-the-art training that we have at CDP.
    Secretary Napolitano. Thank you. It is a wonderful 
facility. I look forward to actually doing a site visit at some 
time. That is an interesting idea. Let me pursue it, and we 
will get back to you.
    Mr. Rogers. Thank you very much, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We have some votes.
    Mr. DeFazio. Ten minutes; could I do any of my set of 
questions?
    Chairman Thompson. Just as soon as I finish, I would be 
happy to. The plan is to recess the hearing, take the three 
votes and come back.
    The Chair now recognizes the gentleman from Oregon, Mr. 
DeFazio for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman. Madam Secretary, 
welcome.
    When we created the Transportation Security Administration 
at the insistence of the then Republican majority, there was a 
provision that at the discretion of the then Secretary, which 
would have been Secretary Mineta, that the employees could be 
precluded from collective bargaining rights and unionization if 
it was in the national interest. Unfortunately, Secretary 
Mineta made that decision.
    As you know from the surveys of the employees in Homeland 
Security, there are morale problems. A lot of it goes to the 
management of the Bush administration, the misdirection, but 
some of it goes to the fact that they are denied these rights 
which are made commonly available.
    Do you have the authority to reverse that decision by then 
Secretary Mineta, since it is now under your jurisdiction? I 
was asked by a TSA employee on my way through 2 weeks ago 
reminding me that we may have an administration now that might 
be receptive to restoring their rights. If you don't have that 
authority will you ask for it from this committee and Congress?
    Secretary Napolitano. The answer to your question is that I 
have asked our General Counsel's Office exactly that question, 
and I don't have a response yet. But obviously, I appreciate 
the valuable men and women who work and some of these jobs are 
very difficult jobs in difficult settings and I appreciate what 
they are doing.
    So we are looking at this right now from both a legal and a 
policy standpoint.
    Mr. DeFazio. Right. They have to deal with grumpy Members 
of Congress and others traveling through their checkpoints.
    The second point would be on the equipment that they are 
utilizing. I believe that the so-called stimulus package had 
some equipment acquisition in there, and I believe some of it 
was going to be dedicated to replacing the equipment at the 
checkpoint. Because even though you would not have had to go 
through it, everyone else in here went through superior 
equipment that guards our buildings and all the other Federal 
buildings in terms of having multidimensional capabilities so 
they don't have to say can I take your bag and turn it and run 
it through again, slowing down the line and trying to get a 
look at something suspicious. Is that going to happen? Are we 
going to get them the same equipment that is readily available 
that we have here, or better?
    Secretary Napolitano. I can't speak to precisely the 
equipment that is going to be purchased, but the stimulus 
package did include a generous share for TSA. So we will be 
looking I am sure at a variety of different types of scanning 
equipment.
    The goal is obviously to be able to identify something that 
requires a second look and to do it with a lot of speed and 
accuracy. That is what we are asking the scanning--that is what 
we are looking for in our scanning process. So that is what the 
equipment needs to be purchased in order to accomplish.
    Mr. DeFazio. I am glad that you recognize that. We had 
trouble with the last administration on that issue.
    Switching from aviation over to ports, I think that the 
greatest single threat of a nuclear weapon is not someone 
launching something at us; it is someone secreting it in a 
container with a GPS or trigger device attached. We put 
through, over the objections of the last administration, 
shippers, and everybody else, a requirement that by 2012 that 
everything be screened overseas. The last administration made 
clear to us that they did not think this was doable and they 
weren't going to really push for it.
    What is the attitude of this administration regarding this 
threat and the possibility of meeting the deadline in 2012 of 
scanning all the containers before they depart foreign ports? 
The last administration--they assured us they would scan all 
the containers before they left our ports to go to the interior 
in case they contained threats. I guess that made our ports 
sacrifice zones. I never understood that position. Are we going 
to do it overseas?
    Secretary Napolitano. That is something that we have been 
looking at. I must share with the committee my initial view is 
that the 2012 deadline is not going to work and we are going to 
have to work on what we do beyond that.
    To do 100 percent scanning requires, for example, 
agreements with many, many countries. There are lots of issues 
with that. There is a difference between screening and scanning 
in the lexicon of the cargo world.
    Mr. DeFazio. I know.
    Secretary Napolitano. I believe that we are close to 100 
percent screening.
    Mr. DeFazio. Which sometimes can be meaningless with the C-
TPAT program deficiencies and others.
    Secretary Napolitano. That is right. That is something that 
I am looking at right now more deeply. But my initial review is 
that 2012 is a deadline that may not be reached under the 
current state of the program.
    Mr. DeFazio. We would love--and I think the Chairman 
shares--we would love to discuss this issue further and see if 
we could help move that along. Thank you.
    Secretary Napolitano. Thank you.
    Chairman Thompson. I now recognize the gentleman from 
Pennsylvania, Mr. Dent, for 5 minutes and that will be our last 
questioner for this series, Madam Secretary. We plan to come 
back around 20 minutes.
    Mr. Dent. Thank you, Mr. Chairman. Madam Secretary, thank 
you for coming before this committee today. I would like to 
start by first saying how appreciative I am of your efforts and 
your staff's efforts and your prompt response to two recent 
constituent inquiries from my office. Thank you for that.
    The first one involved a constituent named George Boujadi, 
a lawful permanent resident of Lebanese descent currently 
living in my district and currently working in Iraq in support 
of the U.S. Government. George is a bilingual security adviser 
who has worked for the United States Department of State for 20 
years, most of which has been overseas. Specifically he oversaw 
the protective detail of Ambassador Ryan Crocker in both 
Lebanon and now in Iraq. However, because his Government job 
requires him to reside overseas it may take him another 5 years 
to become a U.S. citizen. In fact, George has been working 4-
month deployments in Iraq with 20 days respite at home in 
Bethlehem, Pennsylvania since 2004 as a legal permanent 
resident. I suspect that George's case may or may not be unique 
but he is certainly deserving of citizenship.
    What processes or procedures does the Department have in 
place to assist or expedite citizenship applications from these 
patriotic individuals serving U.S. security interests abroad 
and in this case in a combat zone?
    Secretary Napolitano. Well, thank you, and that is 
something that goes to a department called Citizenship and 
Immigration Services. One of the things we need to have the 
flexibility to do is to deal with special cases, perhaps ones 
such as the gentleman you reference.
    So I don't know that a statutory or procedural change is 
necessary. I think it needs to be a sensitivity change, if a 
particular case comes forward that we could expedite it.
    Mr. Dent. That would be appreciated. Would you oppose 
making targeted amendments to the Immigration and Nationality 
Act? You mentioned statutory changes may or may not be 
necessary, but I would like to at least give you some 
discretion with respect to citizenship requirements under 
circumstances like this. In fact, I have a letter from 
Ambassador Crocker urging that this man be made a citizen, even 
stating that on more than a few occasions this individual 
probably saved his life as well as others. So I would like to 
give you that type of authority. How would you feel about that 
type of discretion?
    Secretary Napolitano. I am always glad to have discretion, 
I think any Secretary would say the same on any matter but I 
would be glad to work with you on that.
    Mr. Dent. The second case, I recently brought to your 
Department's attention, this involved a transportation worker's 
identification credential, the TWIC card, and as the new 
Ranking Member on the Transportation Security and 
Infrastructure Protection Subcommittee, this is an issue that I 
look forward to exploring further in this Congress. There is 
going to be a photo on the screen. I don't see it. There it is. 
Okay.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Dent. I wanted you to see that. It is a boat called the 
Josiah White II, being pulled by Hank and George along a canal. 
To be very clear, Hank and George are the mules. This is part 
of an exhibit at the National Canal Museum in my district in 
eastern Pennsylvania. Now, Hank and George, while sometimes are 
ornery, they are not terrorists. This much we are certain. 
However, the current TWIC statute requires that the individuals 
in colonial garb have TWIC cards.
    While the photo is funny, the unintended consequences of 
this particular statute are not. I have two questions: First, 
Madam Secretary, do you believe that the mule tenders in this 
photograph should be required to have terrorist watch list 
background checks and TWIC cards? I know it is sort of 
facetious but the at same time it is serious. They are 
required.
    Secretary Napolitano. Well, let me just say this. Obviously 
this is a picture designed to say, hey, isn't this absurd that 
they be required to have TWIC cards. Let's work with you on 
this particular case if we might.
    Mr. Dent. I would like to work with you on a more common-
sense approach to this, a risk-based approach to requiring TWIC 
cards under circumstances like this. It is costly and obviously 
it is common sense. It just does not involve this situation, 
but it could involve a fishing boat and others who are taking a 
few people off the coast for a few hours.
    Finally, one other issue on which I have been working. 
There are 139,000 people in this country awaiting removal, they 
have removal orders against them. They come from about eight 
countries, China, India, Vietnam, Laos, Jamaica and a few 
others. Those countries will not repatriate their citizens. We 
are trying to send them back but they will not accept them.
    I have introduced legislation, and Senator Specter, Mike 
Castle and others, to hold up visas from these countries until 
those countries repatriate their citizens. Many of these 
citizens are criminals--a large number of them are criminals 
but they have removal orders against them and we would like to 
have them sent back.
    Thank you.
    Chairman Thompson. Madam Secretary, you can hold that. We 
have to vote. The committee stands in recess for about 20 
minutes.
    [Recess.]
    Chairman Thompson. We would like to reconvene the recessed 
meeting.
    The next person to be recognized, the gentlewoman from 
Texas, Ms. Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Again, Madam Secretary, let me welcome you 
and thank you so very much for the breath of fresh air in our 
committee. I would like to echo some of the comments about 
jurisdiction. I think it is enormously important. I know it 
falls a lot to our resolution, this Congress. But I think it is 
enormously important for this very important department to have 
a focused jurisdiction.
    I might offer as well a consideration on FEMA. No, I don't 
believe it should be moved. I know the administration is 
considering it. But an option may be if you look at the 
schematic map of the Department, and I am sure you have, you 
will find FEMA way down on the stair steps, maybe two steps 
from the basement in terms of how it is framed. Possibly the 
opportunity for it to be put where it is a direct report to the 
Secretary at a level somewhat similar to the way USAID is in 
the State Department. I only refer that to you for reference.
    But I do believe that although FEMA is not a first 
responder, as you well know, it is a lifeline for communities. 
It is the direct contact that we have.
    I am just going to put a number of things quickly on the 
record and try and move as quickly as possible. I have been a 
strong advocate for the rehabilitation of areas because of 
Hurricane Katrina and Rita. We now have Hurricane Ike and we 
were doubly collapsed because of the economic markets, the 
attention to that area just did not continue. So we have a 
charity hospital that is now closed, University of Texas MB 
wondering where the money is. We have an issue of ineligibility 
that is one of the highest when our applicants have not been 
able to get FEMA recovery. Our contractors have not been paid. 
Our housing director has just had a press conference yesterday. 
He can't get any housing on the ground because of environmental 
impact statements.
    I would like to invite you to the region. I welcome what 
you are doing in the Gulf region with the Secretary of HUD. I 
would like to welcome you to the region to come with the same 
package or team, because we are desperately in need of a fix. I 
just want to know, can I welcome you to work with me on these 
issues?
    Secretary Napolitano. Yes, and with respect to the 
schematic of the Department, you know the Department has seven 
big operational components, FEMA, TSA, CIS, CBP, ICE, the 
Secret Service, and the Coast Guard. The schematic, if you 
actually trace it back, they do come right up into the 
Secretary's office. I meet with the head of those components at 
least once a week. We are closely involved there.
    With respect to your invitation, I look forward to meeting 
with you. I look forward to seeing what FEMA funds have already 
gone into the Ike recovery and what we need to do to move that 
process along.
    Ms. Jackson Lee. I appreciate that it may require waivers 
from your office. The housing issue is really at a crisis. We 
have got the manufactured housing on the ground all ready to go 
and can't move and people don't have housing.
    Let me quickly put two other questions out. I am excited 
about the Transportation Security Committee that I chair. The 
importance of critical infrastructure I think is going to be 
one of our greatest challenges, but I do want to just ask the 
question dealing with the chemical facility security program 
which has been a success. Can we--do you believe the program 
could include wastewater, water, and I think maritime 
facilities? I am just going to give you these questions.
    Other one is we had a commitment from the administration to 
train our employees, 9/11 included specific training mandates. 
They never made them. So my question is whether we will see 
security training mandates for our rail and bus workers and 
transit workers, our port workers. Very important issue. I 
really join in the professional development needs of our TSA 
employees.
    Last, I visited Guantanamo Bay. I said I was going to keep 
an open mind. I am very glad that you on are the team to review 
it. I believe it can be closed at the same time that we can 
protect our national security.
    If you could answer the questions dealing with training and 
the chemical security issue.
    Secretary Napolitano. Yes, we are obviously in the process 
now of beginning to issue the categorization of chemical 
facilities under the CFAS rules and that process will continue 
through this spring. We will keep the committee apprised of our 
progress there. We are now looking at the whole issue of waste 
and wastewater treatment facilities with respect to their 
coverage under the law and what needs to be done.
    With respect to training, obviously training is a passion 
with me. I believe for emergency preparedness and response and 
for people just to know what they need to do under any 
different type of circumstance, training is so very key. So, 
yes, we are going to be reinvigorating our efforts in that 
area.
    Ms. Jackson Lee. Key issues. My subcommittee and this 
committee looks forward to really working closely with you on 
these issues. Thank you very much, Madam Secretary. I think my 
time has expired.
    Chairman Thompson. Thank you very much. We now recognize 
Mrs. Miller for 5 minutes.
    Mrs. Miller. Thank you very much, Mr. Chairman. Madam 
Secretary, we certainly welcome you to the committee as all of 
my colleagues have said as well. We appreciate your service to 
your State and looking forward to your service now of our 
entire Nation. We certainly need it. It is a very challenging 
time of course for our Nation and as you are being introduced, 
your introductory meeting to the committee, I am going to take 
most of my time to tell you a little bit about my region of the 
world and how we look forward to working with you if I could.
    I come from Michigan, which is a northern border State. I 
am not minimizing all of the dynamics and the challenges that 
we face on our southern border in our country, but on the 
northern border we have some similar issues and dynamics as 
well as some unique things as well. In my region in southeast 
Michigan, just as an example, we have the Ambassador Bridge, 
which is the biggest border crossing on the northern tier. The 
tunnel from Windsor runs under the Detroit River there. 
Incredibly busy artery as well.
    The Blue Water Bridge in my district, 30 minutes to the 
north of the Ambassador Bridge, is the second busiest border 
commercial crossing on the northern tier, and of the two it is 
the only one you can transit HAZMAT. We have some of those 
issues. The CN rail runs under the St. Clair River.
    I keep holding this up because in Michigan you have the map 
of our State at the end of your arm. Here we have----
    Secretary Napolitano. Which finger is it?
    Mrs. Miller. The CN rail tunnel is the busiest rail entry 
into the entire Nation. It runs under the St. Clair River 
there. On the other side of the long liquid border that we 
share with our wonderful neighbors of Canada in the immediate 
area is something we call Chemical Valley, which I believe is 
if not the largest, the second-largest concentration of 
petrochemical plants in our hemisphere. Of course we have the 
Great Lakes there, one-fifth of the fresh water drinking supply 
of the entire Nation.
    So there has been quite a bit more attention from the 
previous administration and I certainly have followed closely 
your comments about northern border security as we try to sort 
of beef up. As we speak we are standing up with Customs and 
Border Patrol a northern border wing at our Air National Guard 
base there. They have got additional personnel, air assets, 
both fixed and some Blackhawks--fixed-wing and Blackhawks. They 
have some water assets that are coming there, too. We are 
looking forward in 2010 to a UAV mission. I have some questions 
and maybe we can follow up later about that on how that might 
all work along the northern border. We obviously are not going 
to put a fence around our entire Nation, but being able to 
utilize essentially taxpayer funded off-the-shelf hardware that 
has worked so well in theater for homeland security is a very 
critical component.
    My area is going to be a pilot program on the northern tier 
for the CDINet. I think in the spring. Hopefully they are right 
now doing--this is sort of what they told us but we are waiting 
for a briefing as well, which would be 24/7 surveillance all 
the way along the St. Clair River from the Blue Water Bridge to 
Lake St. Clair. A number of different towers that they are 
talking about building or utilizing existing towers. Our area 
just recently got one of the Stone Garden grants. Really we 
look at it as a force multiplier for CBP for our local law 
enforcement, and we are blessed with--as everybody in the 
Nation is, but we are always parochial about our own emergency 
management teams and how fantastic and professional they are 
and how they are looking forward to partnering with your agency 
in every way that they possibly can.
    As you might imagine because of our proximity, we have 
regular meetings. On Friday I will be meeting with the three 
Canadian MPs to talk about the border thickening issues, et 
cetera. So I want to lay that out to you. We are obviously just 
so delighted to have you at the helm here and looking forward 
to working with you on all of these issues.
    But since I have 51 seconds left, let me ask you if you 
could, Secretary, to flesh out a bit some of your initial 
comments about northern border issues and security.
    Secretary Napolitano. Yes, and thank you. Your district 
does include some very busy areas for trade and commerce 
between our important neighbors to the north. It is 
interesting, when I issued a request for information about what 
we were doing on the northern border, that was immediately 
interpreted as thickening the border.
    Mrs. Miller. It is all they talk about.
    Secretary Napolitano. My view is we need to have a security 
strategy--we need have issues or protections at the northern 
border that make sense for that area, for that topography and 
the like, but fully take into account the balance that always 
must be struck between security and trade and relationships 
that are on-going.
    But part of what I am doing now is trying to get an 
analysis. What is up there? What is on the drawing board? So 
what are the pilots that are contemplated for the next 6 months 
to a year? Then I do plan myself to go to the border maybe when 
it is a little warmer.
    Mrs. Miller. Spring is on the way.
    Secretary Napolitano. Exactly. Because I think there is 
nothing better than seeing it with your eyes and then talking 
with local mayors, sheriffs, police chiefs, to get their sense, 
also our CBP and other employees who are stationed there, to 
what is going on there and what really works. For both of our 
borders our goal is a safe and secure border that allows us to 
protect our sovereignty interests as a Nation but also 
recognizes that we have key trade alliances and family 
relationships to the north and indeed to the south.
    Mrs. Miller. Thank you so much. We are delighted to have 
you here and look forward to working with you.
    Secretary Napolitano. Thank you.
    Chairman Thompson. We now recognize the gentleman from 
Texas for 5 minutes, Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman. Madam Secretary, it 
is a pleasure to be with you. First of all, I congratulate you 
and second of all, I would ask if you could have your staff 
whenever you all develop your strategic, your performance 
plans, your mission, your goals, your performance measures, I 
know I asked that when I first got on the committee some years 
ago, I never got it. I would appreciate if you could get us 
your performance and your strategic plans for the Department.
    No. 2, and I have a series of questions, one is ports of 
entry. We have done a good job in putting men and women in 
green, but we need men and women in blue. Not only ICE but the 
ports of entry, because the wait lines are pretty long, as you 
know.
    We added the $720 million in the stimulus package, a part 
going to you all, a part going to GSA. I would ask you all to 
streamline the process to get that done. Because 88 percent of 
all the goods coming to the United States come through land 
ports. We have done a good job putting money into the airports 
and the seaports, which we need to continue doing, but the land 
ports, 88 percent of all the goods are coming in. In my 
hometown of Laredo, which I am hoping that you will visit us 
soon, 40 percent of all the trade between United States and 
Mexico comes through the Port of Laredo. We get about 13,500 
trucks going north- and southbound, 1,200 railcars every day. 
This is just on a daily basis.
    I would ask you to move on those ports' funding as soon as 
possible to streamline the process on that. I would appreciate 
your help.
    The other thing I would ask you is--I asked the former 
Secretary and I never got the response, and I think even the 
Chairman asked him also. Could you give us, best case scenario, 
how many personnel you would need for customs officials to man 
all the ports north and south and what sort of infrastructure 
needs you need. Because we have been estimated about $4.9 
billion. We added $720 million, but if we could get those two 
responses, because we never got it from the other Secretary. I 
would ask you to provide that to us as soon as possible.
    Secretary Napolitano. Thank you. Yes, and if I might speak 
to the issue of the land ports of entry. Those ports are 
absolutely key. I was delighted that the Congress did include 
$720 million which will allow us to accelerate pre-identified 
projects to enlarge and modernize those land ports. Many of 
them have not been improved since the '70s and the amount of 
trade that goes back and forth, as you know, has exploded in 
the mean time.
    So what we are doing to streamline actually is we are 
putting together a joint GSA-Customs planning office for the 
improvements in those ports. So that instead of going 
sequentially, first Customs looks at it and says this is what 
this port needs and then it goes to GSA which puts its imprint 
on it and this goes back and forth. We actually have people in 
one place--the people that operate the port, with the people 
who have to do the contracting and the construction of the port 
improvements. I am hoping that we will see some streamlining by 
doing that.
    Then with respect to what our analysis is of manpower and 
building out for the outyears on those ports, we will be happy 
to get information to you. I will say this, however. Part of 
the manpower needs depends in part about how fast we improve 
the ports. Because as we--theoretically as we add technology to 
the ports, it may help us adjust downward our manpower needs. 
So there is going to be some flexibility there as well.
    Mr. Cuellar. A couple of quick questions. No. 1, whatever 
you can do to streamline the grants, those grants that go out, 
if we can streamline the paperwork and the time to get them 
down to our firefighters, I would ask you to do that. If you 
have any proposals to streamline the process, I would ask you 
to do that. One quick question and one border question.
    FEMA. Have you talked to--I know the question was asked 
about FEMA, but I believe Chairman Oberstar has filed or will 
be filing the legislation today. Could you give us what the 
administration's position is on this? Because maybe if we got 
some direction on this, this will prevent some of the 
legislation from being filed.
    Secretary Napolitano. The answer is no, I have not yet had 
the opportunity to speak with the President about this. So it 
would be premature for me to say what position they will take 
on that legislation.
    Mr. Cuellar. Last, I have 22 seconds. We, as you know, the 
fence in Texas has been--Mr. Chairman, I ask unanimous consent 
to enter into the record the document that I am distributing. I 
think Members should have gotten some photographs that 
reference the border fence project. I believe that has been 
given out to the Members. Staff has talked to both sides.
    Chairman Thompson. Without objection. I am not certain they 
have it but we will get it to them.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Cuellar. Madam Secretary, down there in Texas we were 
told--and this is the picture that was used for a fence in the 
south Rio Grande Valley. They said if we put a fence more like 
a levee, as a levee control, it would provide levee protection 
and this was the picture that was given to us, that Secretary 
Chertoff went down there and said this is what we are going to 
have.
    What we see now is actually this. There is a little 
difference between what was given to us. I believe in ``truth 
in fencing,'' if you want to use that. This is the southern 
part. In other words, we still have the levee part of it but 
instead of having this they put the fence on top of that. I 
sold it to folks down there, our Governor, our mayors down 
there, and I would ask you to look into it. I know we don't 
have much time. But if somebody is going to say this is what 
you are going to do, and then they provide you that and on top 
of that, there is a little difference on that.
    So I would ask you--I know that I am out of time but please 
look at that, sit down with your staff, and if they said it was 
in the fine print they should have told that to the people when 
they had the public hearings.
    Secretary Napolitano. Yes, I will do that. Just a question, 
is the airport landing map part of the fence? Is it actually on 
top of the structure or behind it?
    Mr. Cuellar. It is on top of this. I actually went to go 
see it myself. Pictures that we took when I was there. This is 
the top part. So we are looking from here that way. So the 
levee part is there, and then they added this. I can understand 
the response that Border Patrol is going to give, tactical 
reasons. I know all the buzz words. But I wish they would have 
told us. Because in other words there would have been a 
different type of opposition and they agreed--as you know, we 
agreed to this levee fence but they did not tell us that on top 
of this levee fence, the cement is on the other side, they 
added this huge, huge fence. It is 18 feet tall or so.
    Secretary Napolitano. Yes, I will look into that.
    Chairman Thompson. Thank you. The gentleman from Georgia, 
Mr. Broun.
    Mr. Broun. Thank you, Mr. Chairman. Madam Secretary, 
congratulations, and we are thankful for your coming here 
today. In your testimony you state that Government does nothing 
more fundamental than protecting its citizens, and I couldn't 
agree with you more on that. We have some very serious problems 
that we have either inadequately or failed to address and I am 
looking forward to working with you and the Department on a 
number of these issues, including counterintelligence, 
radicalization, cybersecurity, securing our borders, oversight 
of MBAT, reevaluating TSA's large aircraft security program, 
and a whole host of other issues.
    But first I would like you to know how disappointed I am 
with the DHS's lack of transparency and accountability in the 
MBAT site selection process. We are going to find out whether a 
truly objective merit-based decision was reached. Today, 
however, I would like to talk with you about 
counterintelligence and radicalization.
    DHS is not going to be a respected member of the 
intelligence community unless it takes counterintelligence 
seriously, and I know you have been very much involved in that 
in Arizona. DHS is too large of a target for foreign 
intelligence services and terrorist organizations to neglect a 
vigorous counterintelligence program. I would like your 
assurance that counterintelligence will be a priority for you 
and the Department. I would like to see a fully implemented and 
vigorous DHS counterintelligence program.
    Are you working with FBI and counterintelligence to improve 
your partnerships and coordinate your programs on a large 
scale? What can this committee do to help you expand these 
programs and protect your Department from foreign penetration 
and collection activities?
    Second, we have done a lot to prevent terrorist attacks and 
protect our homeland, but we are still vulnerable to home grown 
radicalization and violent Islamic extremism. Although not at 
the levels in Europe, we have seen radicalization in prisons, 
mosques, community centers, and even some schools.
    As a leader in protecting the homeland, what do you see as 
the Department's grand strategy in going forward and how will 
you coordinate with other agencies? What tactics will you use? 
Do you have any recommendations for our committee on ways that 
we can help prevent or address radicalization on U.S. soil?
    In asking those questions I just want to tell you that in 
my own district there is a community that I have calls about 
all the time, whether these people are becoming radicalized and 
trying to create a problem in Georgia where I live. I see this 
as a huge problem that we face as a Nation. I know there are 
many other areas like this of communes or centers where 
radicalization may or may not be occurring. So I am eager to 
work with you and the Department on that issue as well as the 
counterintelligence issue.
    Secretary Napolitano. Yes, thank you. Yes, 
counterintelligence is a priority. We will be doing some things 
moving forward I think in that area. I have already had very 
substantive meetings with, for example, Director Mueller of the 
FBI, Admiral Blair from the NDI and Mike Leiter from the 
Counterintelligence Center about how we mold our efforts 
together and make sure that not only are we coordinated, which 
is a word that is thrown around a lot, but that the 
coordination means that we are targeted and not overlapping but 
yet sharing amongst ourselves, and again with State and locals, 
what is going on.
    With respect to radicalization, I agree with you that this 
is an area where indeed we have some work to do. Again working 
with the Counterterrorism Center, the FBI we actually have a 
unit within the Department that I have tasked with looking at 
the process of radicalization and then how it could be 
interrupted and in what areas of the country would we best be 
focusing some of those efforts. While I would rather not share 
some of that in a public setting, it clearly is on my radar 
screen.
    Mr. Broun. Thank you so much. I encourage you to be very 
aggressive in this endeavor. I get a lot of calls in my 
district about concerns out there. I am sure other Members do 
also.
    Back to the intelligence and counterintelligence, I think 
my perspective is that we need to have a very strong not only 
intelligence community within the Department but a very 
aggressive counterintelligence community within the Department, 
and I for one want to work with you and for you and I am sure 
many Members of this Congress--of this committee do to make 
sure that those counterintelligence efforts are very 
aggressively sought out and promoted within the Department.
    So thank you so much. I appreciate it.
    Chairman Thompson. For the benefit of those present, it is 
the Chair's intention to continue the hearing. We have a Member 
who has already gone to vote and will come back. So we will try 
not to interrupt.
    We now have Mr. Carney scheduled for 5 minutes. Other 
individuals can go and come back if they wish. Mr. Carney for 5 
minutes.
    Mr. Carney. Thank you, Mr. Chairman. Madam Secretary, as 
you know I chair the Oversight Subcommittee, so all of this is 
of interest to me, soup to nuts. That is my purview.
    I have a question on the discussions you are having with 
the National Security Adviser on merger or somehow working in 
parallel in terms of the Homeland Security Committee as opposed 
to the National Security Committee. How are those talks coming? 
Are you coming to any conclusions? Any new ideas or 
arrangements?
    Secretary Napolitano. Yes, I spoke actually before the 
Inauguration about this analysis of the National Security 
Council, the Homeland Security Council, and what needs to be 
done. So what we are looking at is what functions are performed 
and really taking a fresh set of eyes at all with the goal of 
making sure that the President has the best advice for 
security, both internationally and domestically, and also in 
terms of response and recovery.
    That process is under way. We told the President that it 
would not be one of these 2-year study jobs, that we were 
moving with all deliberate speed to get some recommendations to 
him. We will be happy to let you and your staff know where we 
are headed.
    Mr. Carney. Please. It is our concern that the Homeland 
Security Committee and National Security don't trip over each 
other in doing these things. We want to make sure that there 
are efficiencies and streamlining, too.
    I am sure you are very aware of Project 28 down on the 
border. I visited there a couple of times last year and I was 
disappointed to see how progress wasn't made despite promises 
from the prior team.
    We want to kind of understand what you take as lessons 
learned from Project 28 and how you are going to change the 
result. You know, we are backed up in terms of what we are able 
to do in the SBInet because of this. Various sections, the 
Niajo section, for example, that is not up to speed and not 
running the way it was supposed to. It has been years now and 
millions of dollars. I would love to get your views on that, 
please.
    Secretary Napolitano. Yes, I am familiar with Project 28 
given that it was in Arizona. Also given that in my view, a 
border protection system requires boots on the ground and 
technology. That is key. If we are going to require technology, 
the technology has to work. It has to do what the vendors told 
us it would do.
    So I think an initial takeaway is what were the initial 
contract representations made as to what this system would do. 
I think a second takeaway is to make sure that in our bidding 
process and our competitive bidding process, we really from the 
get-go take into account the operational needs of the agents 
who actually have to do the apprehension and interdiction. I 
think that perhaps that was late to the table in terms of 
actually looking at what that technology needed to empower.
    Mr. Carney. You are exactly right. In fact, the very people 
whose lives depended on that technology working were not part 
of the process when it was being developed by contract, which 
is utterly ridiculous. So we will see you or your staff a 
number of times over the coming term. I look forward to being a 
partner with you and making sure things work well as are 
advertised and making sure this Nation stays safe and, I thank 
you for your time today.
    Secretary Napolitano. I look forward to working with you.
    Chairman Thompson. Thank you, Mr. Carney. What I would like 
to do is expand that a little bit given your local experience. 
To what extent did your office as Governor, to your knowledge, 
communicate with the Department during Project 28? Was this a 
stovepiped DHS project, to your knowledge, with little or no 
State and local participation?
    Secretary Napolitano. Mr. Chairman, I would have to go 
back. I know there was some correspondence back and forth. But 
I think it would be fair to say in terms of overall project 
design, contract requirements, time, you know kind of the 
length of the contract and so forth, that was a Federal job. So 
the State was not really part of the process.
    Chairman Thompson. I say that for a couple of reasons. In 
talking to some of the local law enforcement along the border, 
we were talking about towers being constructed where there was 
some towers in the area already built that could have been 
utilized and so we felt that the collaboration was essential 
for State and locals on anything along the border if we are to 
be successful. I think that is for going forward as well.
    But I do have a question that I want to get on the record, 
Madam Secretary. I understand that the DNI testified this 
morning that al Qaeda remains determined to conduct a 
spectacular attack in the homeland. Given the understanding of 
that statement, have you been fully briefed on the current 
threat picture? How is DHS coordinating with other agencies to 
meet and mitigate the challenge from al Qaeda?
    Secretary Napolitano. Yes, and, Mr. Chairman, if I might, 
let me just--we talked earlier with the committee about 
intelligence sharing among Federal agencies, but you know I 
start early each morning with a briefing that includes not just 
the Department of Homeland Security Intel Section but also the 
FBI and the CIA. So I get that full daily briefing and then I 
also receive the President's daily briefing. So from the get-go 
every morning we have that level of exchange at the Federal--at 
the very, very, very highest level.
    We know, and I know, that there are risks out there. There 
are people out there who quite frankly seek to harm the United 
States. The issue for us always is who are they prepared to do 
it, in what fashion, what are we doing to prevent, to 
interdict, and the like. It is not just al Qaeda, but it can be 
other groups as well.
    So it is incumbent upon us as the Department of Homeland 
Security to make sure that we are fully informed and doing what 
we can in a universe where it is impossible to put the entire 
United States under a bubble.
    Chairman Thompson. So you are comfortable with the 
information you are receiving and that entities responsible are 
in fact sharing and coordinating to your satisfaction?
    Secretary Napolitano. Yes.
    Chairman Thompson. Thank you very much. Ms. Harman will be 
here shortly so we can continue. I don't want to impose on you, 
I know you have an awful lot to do to keep us safe. So if I can 
say we will recess no more than 5 minutes, and we will have you 
complete by 12:45.
    Secretary Napolitano. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. The committee stands in 
recess.
    [Recess.]
    Ms. Harman [presiding.] The hearing will come to order, 
again. Our apologies to the witness for the interruption of 
votes, but we are doing the best we can.
    The Chair will now recognize Ms. Clarke from New York for 5 
minutes.
    Ms. Clarke. Thank you very much, Madam Chair.
    Madam Secretary, we find ourselves in a unique moment in 
American history. There are many difficult security challenges 
before us, but we have strong new leadership at the White 
House, here in Congress, and in you at the helm of the 
Department of Homeland Security.
    As the new Chair of the Subcommittee on Emerging Threats, 
Cybersecurity, Science, and Technology in the 111th Congress, I 
am encouraged that one of your first acts in office you issued 
an action directive on cybersecurity instructing specific 
offices to gather information, review existing strategies and 
programs, and to provide oral and written reports back to you 
by mid-February. I look forward to reviewing those reports 
about the authorities and responsibilities of DHS for the 
protection of the Government and private sector domains, the 
relationships with other Government agencies, especially the 
Departments of Defense, Treasury, and Energy and NSA, and the 
programs and time frames to achieve the Department's 
responsibilities and objectives. I believe that you are asking 
the right questions about DHS's role in the cybersecurity 
mission.
    I have a few questions about several issues that are near 
and dear to my heart which are critical in DHS's mission. I am 
from New York City, Brooklyn, New York, and so much of the 
quality of lives of the people of my town and my district 
relies on our success in meeting the challenges of your agency 
head on. Recently, the House unanimously passed H.R. 559, a 
bill I sponsored which requires the Secretary of Homeland 
Security to furnish the comprehensive cleared list to all DHS 
components and to other Federal and State and local and tribal 
authorities and others that use the terrorist watch list to 
resolve misidentifications.
    This we call the redress act, the fast redress act. Once 
the bill becomes law, what steps will you take to ensure that 
adequate and thorough passenger redress procedures are 
integrated Department-wide?
    Secretary Napolitano. Thank you. Obviously, people who are 
erroneously mistaken for someone on a watch list and the 
ability to get that corrected quickly is part of the on-going 
evolvement or evolution of the lists.
    But we will work with you on implementation. We have 
already began looking at some things that we can do in the 
interim. But I share your concern, and we want to make sure 
that that is implemented when it passes.
    Ms. Clarke. Wonderful. I think at this stage it has become 
an issue of civil liberties for Americans and certainly 
visitors who come to our Nation. It is important that we sort 
of evolve into a more proactive approach, because at a certain 
point the saturation of that list becomes really something that 
we can't use as an accurate tool to be able to address our main 
concern, which is ID'ing those terrorists as they move about. 
So thank you very much.
    The other issue is with regard to immigration. There is a 
squeeze play that is taking place in many communities and 
communities like mine, and this has to do with the backlog that 
takes place in terms of USCIS and the processing of individuals 
seeking to receive their citizenship. They fall into the 
nebulous area of being undocumented because they are in the 
process of moving from a permanent--legal permanent resident 
status to becoming citizens, and at the same time they are also 
vulnerable because, for whatever reason, there are all kinds of 
raids going on. Many of them are not in the workplace, as some 
of my colleagues may have experienced, but in the households in 
which individuals live.
    It is my hope that as you talk about the immigration system 
infrastructure and bureaucracy that we will get rid of this 
antiquated system that is not really serving the American 
people in our civil society in a way that it should. I was so 
happy to hear that you are looking at that system, because 
there are hard-working rank-and-file employees working for 
USCIS, but they don't have the tools available to them to do 
the processing in an expedient manner. It is costing a lot of 
individuals who are seeking to adjust their status hundreds, if 
not thousands, of dollars every time there is a problem there. 
So I am going to wrap up and ask if you would just address that 
issue.
    Thank you, Madam Chair.
    Secretary Napolitano. If someone is here, and they are a 
lawful permanent resident, I don't consider them undocumented. 
They are not naturalized citizens, but they are not 
undocumented.
    Second, CIS, you are right there are wonderful men and 
women who work there, and they are there because they want to 
help those who have come into our country legally and who seek 
to become and get the benefits of citizenship to get there.
    We have been involved and they have been involved on a very 
aggressive backlog reduction process. By June the average 
processing time will be below 5 months, which is 50 percent of 
what it has been. We are looking for other things as well that 
we can do administratively to facilitate the process and make 
it easier, more consumer friendly as it were, to help people 
who seek to become citizens and enjoy the benefits of 
citizenship to get there.
    Ms. Harman. Mr. Olson of Texas is now recognized for 5 
minutes.
    Mr. Olson. I thank the Chair.
    Madam Secretary, welcome. Thank you for coming today. I 
greatly appreciate your service to the home State of Arizona 
and our Nation.
    I have a particular question about the recovery from 
Hurricane Ike. In your written testimony you mentioned that you 
wished there was specific action directives in regards to 
recovery efforts of Hurricane Katrina and Rita, and yet made no 
reference to Hurricane Ike. Ike was the third most destructive 
hurricane ever to make landfall in the United States. Damages 
of Ike in the U.S. coastal and inland areas are estimated to be 
about $24 billion. Ninety-five percent of the constituents in 
my district lost their power for a significant amount of time, 
and about 112 Americans and counting lost their lives in this 
storm.
    As the recovery costs continue to rise, could you please 
discuss what the Department is doing to help those people who 
are affected by Hurricane Ike? Most importantly, can you ensure 
that those populations affected by Hurricane Ike receive the 
same attention in terms of recovery, funding and assistance 
that the victims of Hurricane Katrina and Rita received?
    Secretary Napolitano. Well, thank you, and I hope you don't 
take from the fact that I did an action directive on Katrina/
Rita to mean I was ignoring Ike. Katrina/Rita is over 3 years 
old. I was focusing on what needs to be done to complete or 
move through some of the pending recovery issues. But I have 
also spent some significant time looking at where we stand on 
Ike. Literally hundreds of millions of dollars actually have 
been sent from FEMA to the State of Texas. I need to understand 
where those stand in the State process in terms of distribution 
to the actual people in your district that need the help for 
their recovery from Ike.
    With regard to equivalent treatment between Katrina, Rita, 
and Ike and the communities there, I would be happy to meet 
with and have someone to meet with you and your staff about 
where that stands in terms of the measurement of damage and the 
flow of money, but my key concern, I think, is the one implicit 
in your question, which is how to we make sure that the flow of 
money is facilitated, and that claims that are issued are 
resolved expeditiously for the communities and the individuals 
who were involved in Ike.
    Mr. Olson. Yes, ma'am. Anything we can do to streamline the 
bureaucracy that is in the Department and get the assistance 
back to the people as quickly as possible. I appreciate your 
comments. We would be greatly appreciative down there. They are 
still working very, very hard to recover their lives.
    Changing course a little bit. I would just like to briefly 
talk about immigration and the situation on the border down 
there, particularly what is happening in Mexico. As some of my 
colleagues alluded to earlier, we have a serious problem 
happening in that country right now. The drug cartels are at 
war, for lack of a better term, with the Federal Government. As 
you mentioned earlier, there is a significant arms flow south 
out of our country in very advanced, very capable arms, 
including hand grenades, rocket-propelled grenades. You being a 
border Governor understand the great concerns that we have in 
the State of Texas.
    What is the Department doing? Is there a contingency plan 
if things continue to deteriorate in Mexico and we see a 
massive influx of immigrants running away from a situation down 
there? Do we have a plan to address that and make sure our 
country is just not overrun in a very short time period?
    Secretary Napolitano. Yes, Congressman. A few things. 
Secretary Chertoff had developed a contingency plan, and I am 
looking at that and evaluating that, making sure that we can 
provide resources to State and local law enforcement in those 
border areas should we see that kind of flow-over of the drug 
war in Mexico at that level into the United States.
    One of the things I am doing right now is making sure that 
we are actually physically talking with the sheriffs in those 
border counties. My experience is that the best intel sometimes 
in a border county is that local sheriff, and I am going to 
stay in regular touch with them to see what is happening on the 
ground in the border communities that may be related to the 
drug war in Mexico.
    Then, as I said earlier, I think we need to all recognize 
that within the country of Mexico, the President, the Federal 
Government are really engaged in a serious, serious effort 
against these drug cartels. It is having a big impact on a 
level of violence within Mexico, and it is something that 
deserves our immediate attention right now.
    Mr. Olson. I thank you. Mr. Cuellar is not here, my 
colleague; his brother is a sheriff. I assume he would share 
your opinion of the border sheriffs. I just want to extend my 
invitation as well with Congress, my fellow Texans here, we 
would love to have you come down, tour the Ike area and go down 
to the borders.
    Ms. Harman. Thank you, Mr. Olson.
    Madam Secretary, I understand you have to leave in 15 
minutes; is that correct?
    Secretary Napolitano. Well, you are the committee, but it 
would be helpful.
    Ms. Harman. Well, if we could extend that just a bit. There 
are seven people who have not asked questions, and we will 
confine the questions and the answers to a strict 5 minutes so 
that everyone gets a turn. Would that work for you?
    Secretary Napolitano. That would be fine.
    Ms. Harman. I appreciate that very much.
    Ms. Richardson, another California woman on the committee, 
is recognized for a strict 5 minutes.
    Ms. Richardson. Thank you, Madam Chairwoman.
    Madam Secretary, I was very encouraged when I read your 
hearing confirmation, your action directives. One of the things 
you talked about is the risk analysis, and the report says that 
you view determining the national priorities and taking 
judicious distribution of resources are a major element of the 
Department's mission. In fact, you said today, although we have 
many risks, we have to focus the broader impact, focus the 
analysis on risk that would result in an undue impact on this 
country.
    My concern is, and part of why we have independent bodies 
and legislative separate, is we are going to hear a lot of 
people. I heard discussions today of land ports and all that, 
and that is fine, but there is only one port complex in this 
country that is No. 1, and that is the port complex in Long 
Beach and Los Angeles. There is only one port complex that is 
No. 3 in the world, and that is the San Pedro complex. If we 
are going to regain the trust and integrity that our President 
talked about, we have got to see--in your, as you call it, 
judicious distribution of resources, there has got to be a 
bigger difference between 1 and 2 percent of a cargo of a port 
that represents 45 percent of this Nation's cargo.
    So my question to you is I like what I hear so far, but we 
really need that commitment that the view is not going to be 
that everything on the Christmas tree is of national 
significance. It might be important, it might be a risk, but it 
is not necessarily the No. 1.
    Secretary Napolitano. Well, as I said, there is risk 
everywhere, risks to life, mass casualties, always something to 
be taken into account; risk to trade, risk to basic 
infrastructure; risk to things like our gasoline supply system, 
our food supply chain and all the rest. But beyond that we have 
to be very--I will use the word ``judicious'' because that is 
what I wrote, but we really have to be very acute about risks 
that if they materialized would cause undue damages to lives, 
casualties, commerce and the like, and the ports. The port that 
you describe is a key critical port for our Nation. I look 
forward to perhaps coming out to tour the port, the port area 
with you so I can get a better scope of things, but clearly 
there are some things that require more attention than others.
    Ms. Richardson. We appreciate that.
    Very briefly, the background in that port complex alone, if 
you have a dirty bomb that comes in, you talk about losing 
3,000 people in 9/11, talk about half a million people in 
minutes? So when we talk about the things of the cargo, folks 
coming in, we have people who are coming in who are being 
smuggled in, and these are being identified weekly, monthly. So 
we appreciate your interest, and we look forward to you coming.
    The last part of my question has to do with 
interoperability. In your directives we as a Congress talked 
about the Office of Emergency Communications, which Congress 
felt was a focal point to be included in your Department. I can 
tell you right now we don't have local, State, and Federal 
Government that has a clear interoperable channel so that if a 
disaster happens, we can effectively communicate and 
effectively work together.
    You do talk about radio technology in your material, but 
talk about your commitment of the Office of Emergency and 
Communications with interoperability.
    Secretary Napolitano. Well, OEC obviously requires a real 
focus, and it is also a key issue with our relationships with 
State and locals. I think we need a fresh look, and that is 
interoperability among whom; is it the police officer and the 
fire department who are responding, is it their commanders, is 
it higher up? Because I think one of the problems has been this 
paradigm that if everybody isn't interoperable all the time, 
you don't have interoperability. Who needs to be talking with 
whom and radio, but we also need to be looking at computer 
interoperability or intersection, so other areas as well.
    So I intend to focus on this. This was a key frustration 
that I had as Governor. One of the things that I found was for 
emergency response situations, we had--for example, we used 
Homeland Security money to purchase vans that could be driven 
anywhere, and they were mobile communication vans, and they 
were a patch between different responders. I just saw one. I 
was in Kansas last week and saw some of those vans that were 
moved there, and I was in Kentucky and was moved there because 
Kentucky in its ice storms, they lost their telecommunication 
system. The vans were brought up and in hours were set up to 
provide that sort of coverage.
    So I think we need to really look at some of these other 
methodologies that are available and say, okay, let's define 
what we mean by interoperability, and what technologies we can 
use, and whether we can do and get functional interoperability 
more quickly than what we have been given so far.
    Ms. Richardson. Thank you, Madam Secretary. You are a 
welcome sight.
    Ms. Harman. Mr. McCaul of Texas, Ranking Member on the 
intelligence subcommittee, is recognized for 5 minutes.
    Mr. McCaul. Thank you, Madam Chairman.
    Madam Secretary, congratulations to you in your new 
position. I think you bring a wealth of experience to this job. 
I look forward to working with you.
    Being a former U.S. attorney, State attorney general, 
Governor of a border State, I feel like I have something in 
common with you. I was a Federal prosecutor and worked in the 
AG's office and worked in Texas in a border State, so I think 
you have an appreciation for a lot of the same issues that we 
have.
    I appreciate your comments about the intelligence eyes and 
ears on the ground being important, and that information coming 
back to the Federal Government is an important piece.
    Second, last year I was Ranking Member on the cybersecurity 
subcommittee. We issued a report, a recommendation to the 44th 
President Mr. Obama. Let me say the appointment of Melissa 
Hathaway as the Cyber Director was a great choice. We look 
forward to working with you and her on that issue as well. I 
hope you will give that report that CSIS produced at least a 
read.
    Two quick issues. Mexico. The Governor of my State just 
called today for 1,000 troops to be dispatched to the border. 
The violence has increased; over 5,000 deaths last year, more 
than Iraq and Afghanistan combined. It is a state of war. I 
congratulate, commend President Calderon for his efforts to 
bring the cartels to justice.
    I hope you will consider, along with the merit initiative, 
also a funding on our side of the border for increased Border 
Patrol, ICE and the sheriffs that you alluded to, who I think 
provide a vital role. If you would like to comment on that in 
your response, I would love to hear that.
    Last I would just like to mention Guantanamo. We had the 
first delegation down in Guantanamo since the Executive Order 
was signed to close the base. I know you were on the review 
committee. I want to give you my observations, and I hope you 
will take those to heart as you make this very difficult 
decision.
    We did go down there. What we saw was, I think, similar to 
what the Pentagon's report issued pursuant to the President's 
order, and that was no evidence of torture. They were in 
compliance with the Geneva Convention, and the facility itself 
is probably better than most Federal prisons I have seen in the 
United States.
    So having said that, we know in that facility there are 
some very dangerous people. In fact, the top al Qaeda 
leadership we know are down there, including Khalid Sheikh 
Mohammed. That gives me grave concern as we decide how to go 
forward with Guantanamo. I hope this administration will give 
careful consideration and exercise caution on the decision as 
to where to move these individuals. I am very concerned as a 
former prosecutor that some of these individuals could, in 
fact, get into--if they are moved into the United States, and 
they go through the Federal court system, the Federal Rules of 
Evidence would allow them to get released because of perhaps 
relying on intelligence information to prosecute or relying on 
confessions may not come into evidence, and then we would be 
stuck with a situation where some of the very dangerous actors 
would be released on to the streets into the United States. 
That is a result I would like to avoid. I know you share that 
concern, and I hope you take that into consideration as you 
weigh how to deal with that challenge.
    Secretary Napolitano. Well, yes, thank you, and pursuant to 
an Executive Order by the President, I am part of a review 
committee that is going case by case. As you recognized, there 
are some difficult decisions that need to be made with respect 
to the detainees in Guantanamo, and with respect to Governor 
Perry's call for troops, I look forward to speaking with him 
directly. I read about it as well in the clips.
    In terms of what he is anticipating, is he asking for a 
renewal of Operation Jump Start, for example? Are there 
specific places he would like to see those troops placed as a 
backup to civilian law enforcement? We always, with the balance 
we are striking, and we do not want to militarize the border, 
but what help does he think they can provide? So I look forward 
to talking to Governor Perry about that.
    Mr. McCaul. Thank you.
    Ms. Harman. Thank you very much.
    The Chair now recognizes Mrs. Kirkpatrick, a new Member 
from Arizona, for 5 minutes.
    Mrs. Kirkpatrick. Thank you, Madam Chairman, and welcome, 
Secretary.
    I know as Governor you made securing our border one of our 
top priorities, providing additional funding and even the help 
of the National Guard to address this issue. However, it seems 
like that has not been enough at the Federal level, and the 
situation at the border is actually getting worse. A recent 
report says that Arizona and other borders are seeing a record 
number of abductions, including Americans taken right out of 
their homes. Just last week several publications have reported 
battles using machine guns and grenades are being waged near 
the border, and that this may push north as well. We must do 
whatever we can to prevent this and minimize the threat as best 
we can. Now that you have the tools of the Federal Government 
at your disposal, how do you see your Department addressing 
this growing concern?
    Secretary Napolitano. Well, thank you, and again, it is a 
grave concern. It is at several levels. One is interaction with 
Mexican law enforcement, particularly the Federal Government of 
Mexico, and dealing--really addressing the fact that he has got 
a drug war on his hands, and it is a big one; second, looking 
Government-wide at what we can do to stop the southbound export 
of weaponry, particularly assault-type weapons and grenades 
being used in that drug war. The third is to stay in constant 
touch with local law enforcement, sheriffs and the like along 
that border, and should they identify gaps that they have or 
they see, to identify what we can do to help fill those gaps. 
Fourth is to have a contingency plan to deal with worst-case 
scenarios.
    Mrs. Kirkpatrick. Thank you, Secretary. I look forward to 
working with you on this committee.
    Ms. Harman. I thank the Members for taking less time than 
is allotted. That is appreciated.
    Mrs. Kirkpatrick. We are brief and concise.
    Ms. Harman. I appreciate that.
    The very patient Mr. Souder of Indiana is recognized for 5 
minutes.
    Mr. Souder. I thank you for your patience today and for 
dealing with all the committees in Congress. One of the biggest 
challenges that you have is the day-to-day operation of your 
agency and that doesn't necessarily square with the reason why 
your agency was created. The Coast Guard is trying to get 
tipped-over sailboats and protect fisheries. The immigration is 
a huge thing to the border control and to ICE. FEMA is running 
around dealing with tornadoes, sometimes floods in my district. 
Yet the reason FEMA is in your agency isn't because of 
tornadoes and floods; it is there in case we have a 
catastrophe, because only Homeland could coordinate something 
like.
    Coast Guard is there to interdict terrorists and narcotics 
and things related to terrorism. Border Patrol, and ICE, the 
same way. It is important that in what is perceived as a little 
bit of a back-pedaling on focus on terrorism, that doesn't turn 
into wholesale retreat and you are the only person. Even though 
my district is the No. 1 manufacturing district in the United 
States, each Silverado or Sierra pickup has 100 border 
crossings in Canada. That is the No. 1 responsibility of the 
Department of Commerce. You need to work with them, but at the 
table, if something happens like a 
9/11 incident or something else, they will turn to you and say, 
what happened?
    In our committee we need to make sure we back you up. That 
is the No. 1 reason the Homeland Security Department is to 
focus on terrorism in particular and not lose focus, even if 
everybody else in the whole country starts to lose focus, 
because it is our responsibility.
    A couple of related issues that I raised some concerns 
here, and, as you heard, I am Ranking Member on Border with 
Congresswoman Sanchez. I am concerned that counternarcotics is 
not as much in the administration plans or some of the 
committee plans. We had 20,000 to 30,000 a year die because of 
illegal narcotics in the United States, or 160,000 since 9/11. 
You have the bulk of the agents who deal with this, Border 
Patrol, Coast Guard, and ICE; that these things, and meeting 
with President Calderon last week, and talking with him and the 
Attorney General about the guns and the narcotics and the 
kidnappings and the problems in Phoenix as well, Mexicali and 
over in Texas, these things are very interrelated, and 
counternarcotics is heavily focused in your agency.
    Now, if you don't get enough time here to address my three 
questions, I would appreciate a written response of what your 
philosophy is toward: Are you committed to being even more 
aggressive in counternarcotics, especially since it is the No. 
1 border violence issue, No. 1 domestic violence issue, and is 
largely the same groups as are doing other financing, 
terrorism, kidnapping and any kind of smuggling, because these 
different groups of cartels are controlling the different 
sections of the border?
    Second question. You were supportive of the National Guard 
as Governor. You mentioned Operation Jump Start. We heard about 
Governor Perry's request. Do you support--because rumor is 
there is a hole here or there along the border, do you support 
using the National Guard along that border?
    Third, the REAL ID Act has been one of the most critical 
parts of the ability to do intel tracking. If you don't know 
who the person is, if you can't sort that basic thing out, it 
is impossible to get good identification of who they are 
hooking up with, who needs to be monitored for what risk level. 
You expressed some concerns about the REAL ID Act in the past, 
and I would be interested in how you see that moving forward. 
Thank you.
    Secretary Napolitano. Thank you. In terms of 
counternarcotics, dealing with these drug cartels as they are 
organized in Mexico is really the organized crime fight of the 
Southwestern United States. That is how I dealt with it as a 
prosecutor in the U.S. Attorney's Office, and as an attorney 
general and Governor. You have to go after the money. Have to 
interrupt that chain of money that goes in the millions of 
dollars back and forth with these cartels. You have got to go 
after the traffickers. You have to have the tools to work from 
the low level to the high level and try to interrupt and 
interdict their operations.
    We have a demand-side issue on the United States side. The 
drugs are coming in because of demand for illegal drugs. I look 
forward to working with ONDCP, among others, to see what we can 
do about that particular problem. It is a supply issue and is 
also a demand issue.
    With respect to the issue of terrorism, there is no one 
more conscious than I am about the reason for this Department, 
why it was stood up and what our fundamental responsibilities 
are. It is something that guides our decisions and actions 
every day.
    With respect to REAL ID, the problems with REAL ID were 
several-fold. One is it was stood up without adequate 
consultation with Governors who actually deal with the nuts and 
bolts of how you handle driver's licenses. So there were a lot 
of just implementation issues. Second, there was no money put 
behind it, and it was budgeted, and it is very expensive to do. 
So what I am doing is working now with a group of the National 
Governors Association to say what can we do and should we do 
now, with the cooperation and consultation of Governors, of 
both parties I might add, to convert REAL ID into something 
that actually can happen on the ground and can happen on a 
real-time basis.
    Ms. Harman. Thank you very much.
    I hate to rush you or our questioners, but I am trying to 
accommodate.
    Secretary Napolitano. I will try to answer.
    Ms. Harman. Three more people, starting with the very mild-
mannered Mr. Pascrell of New Jersey for 5 minutes.
    Mr. Pascrell. Good luck to you. You had two good people 
before you, two competent people. The problem is that they very 
seldom presented things within the urgency of the time, and I 
suspect that that was driven by an administration that was not 
committed to the things that this committee was committed to on 
both sides of the aisle.
    I am glad that you are supportive of a bottom-up 
intelligence, and I really support the U.K. model, which I 
think is important and critical, and rather than a top-down 
situation which we have experienced.
    We have a very serious problem on the southern border, and 
I believe, having been to Mexico with the Chairman and dealing 
with these matters, there is no oversight, there is no 
enforcement, there is no urgency, and there are very little 
resources. It is very interesting that we did have the 
beginning of resources 2 years ago, and they were cutoff when 
they started to intercept weapons going from the States down to 
Mexico.
    I want you to please think about that. I know we are not 
supposed to touch that issue on both sides of the aisle now, 
apparently we declared a recess, but people are getting killed, 
and it is affecting America. If we don't do something about 
that situation, then--I can picture someday that situation 
being equal to the murderers who are preparing themselves in 
Pakistan at the epicenter of terror.
    So I want to talk to you about first responders, very close 
to my heart, obviously very close to your heart. Every year the 
previous administration would submit a budget to the 
Department--for the Department of Homeland Security that would 
literally gut or try to zero-out critical programs that deliver 
Homeland Security grants to local and State governments, to our 
brave first responders. Year after year this committee on a 
bipartisan basis would reject those cuts and have indeed 
increased the budget allocations for these grants. I am talking 
about the State Homeland Security Grant program; the Community-
Oriented Police Services, COPS, program; the Staffing for 
Adequate Fire and Emergency Response, SAFER, Act; the grant 
program; the assistance to the firefighters grant program. I am 
very familiar with those, and I know you are, too. Every year 
the same situation, every year, without exception.
    So, Madam Secretary, with President's Obama's overview 
budget plan coming out tomorrow, the overview of the budget 
anyway, can you commit to this committee right now that this 
administration will not try to gut or eliminate these vital and 
successful, successful grant programs that go directly to our 
local communities and first responders, circumvent the 
bureaucracies and anybody trying to take off from the top? Can 
you commit to this committee about that today?
    Secretary Napolitano. You will find no one more supportive 
of those grants than I am, and I can commit to you that we are 
operating under that assumption. One of the things I want to do 
and I will be happy to work with you on, I think now, 
particularly on some of the first responder grants that were 
used, for example, to purchase equipment, we need to be looking 
at what we are doing to fund sustainability, replacement, 
repairs, proper training of people to operate equipment. In 
other words, all of these efforts need to be part and parcel of 
the web and weave what we do for our homeland security not just 
this year, but moving on forward. Sometimes I fear that grant 
programs are not written or designed with long-term 
sustainability in mind. So as now the 4-week Secretary of 
Homeland Security, I will share with you that one of the things 
I am looking at is what are we doing to make sure that we are 
not just providing for the beginning of something, but really 
for its long-term success.
    Mr. Pascrell. In completion, Madam Chair, I wanted to say 
this: Before we spend any money, increase personnel anyplace, 
that we do what I think is suggested before, and that is have 
concepts in place and policy in place so it makes sense. I 
think this is what has gotten us in problems in the past.
    Thank you so much, and good luck to you.
    Secretary Napolitano. Thank you.
    Ms. Harman. Thank you, Mr. Pascrell.
    Mr. Cao of Louisiana.
    Mr. Cao. First of all, I would like to thank you, Secretary 
Napolitano, for being here. I am from the Second District of 
Louisiana, which comprises mainly of New Orleans and part of 
the west bank, and as you know, the district was very much 
devastated by Hurricane Katrina, and the district remains 
pretty much devastated 3\1/2\ years after Katrina. So one of my 
main concerns, obviously, is the rebuilding of the district. We 
have delved into the issues of efficiency of FEMA and 
accountability at FEMA, so I am very much encouraged by your 
statement today about looking at the leadership and the 
transparency with respect to how FEMA operates.
    We have done some investigations lately with respect to the 
TRO offices down in New Orleans, and we found some very serious 
problems there, allegations of cronyism, allegations of 
nepotism, of ethics violations, of significant equal employment 
opportunity abuses, of sexual harassment. I believe all of 
these issues interfere with the rebuilding of the district. I 
would like to know whether or not you are going to implement a 
system to oversee some of these offices and to hold, if these 
allocations are true, people accountable for these allegations.
    Secretary Napolitano. Well, I can't speak to those specific 
allegations, because that is the first I have heard of some of 
those, but we will obviously follow up. But, yes, my goal is to 
have a process in place by which the Gulf Coast can continue 
its rebuilding efforts by which we facilitate the resolution of 
disputed claims and by which we take and use the opportunity to 
have a fresh set of eyes to look at some of the disputes that 
have clogged up the system, as it were, to see what we can do 
to expedite people being housed, small businesses being 
restarted, and people's lives being restored to the extent 
possible. I will be traveling there, as you know, next week 
with the Secretary of HUD in part so that we can not only 
exchange information, but see with our own eyes what needs 
further to be done.
    Mr. Cao. I would love to accompany you on your trip.
    I have one more question with respect to the Stafford Act. 
Post-Katrina we have learned that the Stafford Act does not 
adequately address the issue of devestations with respect to--
at the level of Katrina. Obviously maybe the Stafford Act might 
be adequate for smaller disasters, but at the level of Katrina, 
there are certain inadequacies and limitations to the Stafford 
Act. Do you have plans to review the Stafford Act and look at 
possible ways to amend the act in order to address disasters as 
large as Katrina?
    Secretary Napolitano. Once there is a new Administrator of 
FEMA, I think one of the things we would seek to do is not look 
at the Stafford Act, or not just look at the Stafford Act, but 
regulations, policies and procedures that have been layered up 
over time to carry out the Stafford Act. The goal obviously is 
to see what needs to happen so that--not just for the immediate 
emergency response, but really where the most complaints are 
now is in the long-term recovery area, and what needs to be 
done in terms of improving the process, the facilitation of 
long-term recovery for areas--it can be Texas, it can be 
Galveston, it can be the Gulf Coast--other areas that have been 
devastated by disaster.
    Mr. Cao. Thank you very much.
    Ms. Harman. Thank you very much.
    Mr. Himes of Connecticut for 5 minutes.
    Mr. Himes. Thank you very much for being with us today. A 
couple of quick questions for you. I am very interested--I come 
from a State that doesn't have a county government, and so I am 
very interested to hear you expand on your comments about 
intraoperability and communications. It is a very serious issue 
for my first responders, fire, police, et cetera. I appreciated 
what you said about being very precise about who is talking to 
whom and what we really mean when we are talking 
intraoperability.
    I wonder if you could provide a bit more detail on how you 
were thinking or how the Department is thinking about 
intraoperability as it affects first responders, particularly 
in the areas of the country that don't have county or other 
regional structures.
    Secretary Napolitano. That is an interesting point. I 
didn't recognize that Connecticut didn't have counties.
    Mr. Himes. We do have counties, but there is no county 
government.
    Secretary Napolitano. You know, we live in a wonderful 
country, lots of variations here. Rather than give a premature 
answer, let me just say that as we put forward or really begin 
looking at, relooking at intraoperability, I would be happy to 
keep you and the committee apprised of our efforts.
    Mr. Himes. Thank you. I appreciate that. It really is sort 
of particularly sharp when we don't have regional governmental 
structures as we don't in Connecticut. I promise I am coming in 
under 5 minutes.
    So my second question, it is my understanding you are 
reviewing the Department's efforts to implement the 100 percent 
maritime screening recommendations mandated by the implementing 
resolutions around the 9/11 Commission Act. Can you give us a 
sense of what you have learned so far and what you expect with 
respect to completing your review?
    Secretary Napolitano. Yes. As I already shared with the 
committee, I think the 2012 deadline for 100 percent screening 
is difficult, if not possible to attain given where we are in 
screening right now. There are many issues. For example, there 
are literally hundreds of agreements that would have to be 
reached with foreign countries to get to a 100 percent 
screening regimen.
    That being the case, what I am doing is really looking at 
what needs to happen, how fast can it happen, and what it is 
going to cost to happen, and what is the value added to our 
security if it happens. How do we protect the lives and the 
people of the United States? I cannot give you a timeline of 
when that review will be complete. What I can tell you, I know 
it is a key concern of this committee, so I have asked a number 
of people to get involved in that so we can move it right 
along.
    Mr. Himes. Thank you, I appreciate that. I thank you on 
behalf of the other people in my district for taking this job. 
It is an enormous challenge, and hats off.
    I yield the balance of my time.
    Ms. Harman. Thank you very much, Mr. Himes.
    Madam Secretary, let me point out on intraoperability the 
reason we are going through the DTV transition right now--some 
folks listening in may wonder why this is happening--is to free 
up analog spectrum, the 700 megahertz band, for a national 
intraoperable communications capability. As one from a State 
that has a lot of wildfires, I am not sure that that bridging 
technology you mentioned, which is the flatbed trucks with the 
ACU-1000 integrators, can get to the scene surrounding these 
fires in time given all the blockages. So we really do need, I 
believe, some additional bandwidth and some strategies beyond 
just the switching technology.
    We can pursue it later. I have abused the time of two final 
Members. So let me first recognize Mr. Lujan of New Mexico for 
5 minutes.
    Mr. Lujan. Thank you very much, Madam Chair.
    Madam Secretary, it is great to see you again here. I can 
tell you as a Governor who has a certain appreciation for my 
great State of New Mexico, it is great to have you serving in 
your capacity and appreciate your commitment to public service.
    Madam Secretary, I share the concerns of many of my 
colleagues with what is happening down in Mexico with the 
battles we are having with the drug cartels. I would ask you 
all to do not forget some of problems that we are also 
encountering in some of the boundaries of our sovereign nations 
around the country where they are seeing how they can exploit 
some of the laws to be able to traffic in those areas; and that 
we remember that when we are looking and we are bringing this, 
the support that we need, to the border, that we also include 
some of the leaders within our sovereign nations around the 
country as well.
    The passion that my friend and colleague Mr. Pascrell 
shares for our first responders as well, to remember the work 
that they truly do when we make the distinction between FEMA 
and what our first responders do, that we do have the 
commitment that they get the resources they need. They not only 
keep us safe, but they get home safely to their families after 
they put their lives on the line on a daily basis.
    I would like to shift to an area where I know that we have 
to pay some special attention as well with the multiple 
interdependent infrastructures that we depend on daily. A 
disruption of our transportation, energy, communication, 
health, or economic networks would threaten the stability of 
other networks around the country; of particularly notice, a 
vulnerability of the smart grid system transmission systems of 
the country communications and the cyber attacks that are seen 
on a daily basis.
    Los Alamos National Laboratories, Sandia National 
Laboratories in my home State have leveraged existing research 
and development activities to establish the National 
Infrastructure Simulation and Analysis Center. The NISAC 
utilizes simulation previously known, but unknown in some 
areas, but in a secure, scientific computing environment to 
discover previously unknown relationships to develop insights 
about possible infrastructure vulnerability. The center will 
also help policy makers like us to prepare for disasters or 
terrorist attacks, but would also help first responders gauge 
the extent of the damage as the incident was on-going.
    We heard today concerns about--concerns that we have with 
areas that are prone to natural disaster and where we can make 
sure that we have some technology that exists today to be able 
to fully deploy it. I was curious, Madam Secretary, if you 
could comment on your plan about protecting our electric grid 
from cyber attacks, what we will be doing in a specific area, 
and if your Department has considered how it plans to implement 
the NISAC program?
    Secretary Napolitano. Yes, thank you. New Mexico, of 
course, is the State I grew up in, so I have a lot of fondness 
for your State and your district.
    In terms of the protection of the grid, this goes to the 
larger question of protection of infrastructure, and we saw it 
in dramatic fashion 3 weeks ago in Kentucky where the ice storm 
took out the electric power for almost 50 percent of the 
population and the total communications network because and the 
towers all buckled under the ice. We did use the mobile trucks 
there, by the way. I wasn't suggesting they be an exclusive 
solution, but they are part and parcel of what we really need 
with the broadband.
    One of the things we are working on--and this is where we 
need greater connectivity with the private sector. They own 
these utilities. We need to work together on a protection plan. 
Where some of this computer modeling is helpful is not just in 
terms of protection, but in terms of consequence identification 
and management so that we can better prepare our first 
responders and so forth, because sometimes the consequences 
themselves are inordinately complicated and involved, many 
layers of the private sector and the public sector and the 
like. That is an area we will very much be pursuing. We will 
pursue it through the National Planning Office that you all 
have helped build in the Department.
    Mr. Lujan. Thank you. Madam Secretary, our time is short, 
and I look forward to hearing you later on this week on some 
other issues that we will have a chance to discuss. I know we 
have so much phenomenal research that is taking place in 
laboratories across the country, some of which is being tested 
in airports. You mentioned Albuquerque, where we have some 
technology which is currently on a trial run which is a 
scanning machine that adapts magnetic resonance imaging 
techniques to identify concealed liquids and substances. I want 
to encourage you that we take advantage of this research 
technology as we work to protect our Nation. Thank you.
    Ms. Harman. Thank you, Mr. Lujan. Just so Members are 
alerted, votes are coming up in 10 minutes, and we have one 
more questioner, Ms. Lofgren from California, one of four 
California women on this committee.
    Secretary Napolitano. Wow.
    Ms. Lofgren. Welcome, Madam Secretary. I come from Santa 
Clara County. You, I am sure, already know people in Santa 
Clara County are quite thrilled with your appointment. The 
University of Santa Clara is especially proud that you are 
where you are. I look forward to working with you on the many, 
many issues that the Department faces.
    I want to raise one issue today, and I don't expect that 
you will necessarily know the answer, because I just found out 
about it, and you may not know about it either. Although 
immigration policy and nonborder enforcement are primarily the 
jurisdiction of the Judiciary Committee, I want to raise it 
here today to avoid having another appearance by you or someone 
else.
    The Constitution and the Immigration Nationality Act, as 
you know, requires that the Government have a reasonable ground 
to suspect that a person is not in the United States legally 
before that person is detained, and there has been concern that 
that requirement has not always been adhered to in the past 
number of years. Yesterday--and I think this is the first time 
this has happened since the Obama administration--I am advised 
by reports as well as the Seattle Times that ICE agents did 
raid a small company in Bellingham, Washington. Seventy-five 
ICE agents in riot gear at 9 a.m. raided the plant and detained 
126 workers, most of them United States citizens, and held them 
for a number of hours.
    I am concerned about obviously we need to enforce our laws, 
no one disagrees with that, but there is concern that Americans 
have repeatedly in the past years been held in some cases for 
10 and 11 hours against their will, and it does not seem to 
comport with the requirements of the law or the Constitution. 
So if you have something to say on that now, I would welcome 
it. If you want to research it, I would certainly understand, 
but I would hope to get some information about that specific 
instance and what our efforts are going to be to make sure that 
as we enforce the law, we also live within the law.
    Secretary Napolitano. Yes. I was briefed about that action 
early this morning, and I did not know about it beforehand, so 
I have asked a number of questions about what was the predicate 
for this. Now, there are a lot of different allegations going 
around: Was it 70, 40 or 30; what they wearing? There were 
earlier allegations that helicopters were used. They were not. 
But I want to get to the bottom of this as well, so I have 
already issued those directives to ICE to get me some answers.
    Let me just close with this: In my view, we have to do 
workplace enforcement. It needs to be focused on employers who 
intentionally and knowingly exploit the illegal labor market. 
That has impacts on American workers, it has impacts on wage 
levels. It often has undue impacts on the illegal workers 
themselves. Our ICE efforts should be focused on those sorts of 
things. We should really have thought through the prosecutions 
that are going to result and the deportations that will result 
after any sort of work force action. That is the direction we 
seek to move.
    Ms. Lofgren. Let me mention quickly two other items--I know 
you have other obligations, and we have a vote coming up--and 
they really have to do with three things; No. 1, the national 
infrastructure protection. I will tell you now, you don't have 
to agree, the list is inadequate, and in order to adequately 
protect our infrastructure, we really need to have a map of 
what it is and also what vulnerabilities there are for 
cascading failures across that infrastructure. We don't have it 
and never had it.
    I am just hoping that as you move forward in this very 
important job, there are tremendous resources mentioned by Mr. 
Lujan in the national laboratories to assist, and Lawrence is 
one of them, as well as the lab in New Mexico which has them. I 
have talked with them and worked with them, and they are way 
ahead of what our Department is on some of this and are a 
wonderful resource. I wanted to mention that to you, as well as 
in the cybersecurity area where we have tremendous 
vulnerabilities, and we, in my judgment, are not nearly where 
we need to be.
    A final note, I am so concerned, and you mentioned it, 
about the arms flowing south into Mexico. We have met with 
members of the Mexican Congress, with the Attorney General of 
Mexico. I mean, they are at a point where the very existence of 
civil society and government at Mexico is at risk. I think as a 
priority for our Department--I mean, ICE has jurisdiction also 
over that. I can't imagine the refugee crisis that will be at 
our door if we don't do a more effective job of cutting off the 
flow of arms. So I look forward to working with you on that.
    Ms. Harman. Thank you very much, Ms. Lofgren.
    I would like to thank Secretary Napolitano for staying an 
extra half-hour to accommodate Member questions and Ms. Titus 
of Nevada for foregoing her questions in the interests of 
promptly wrapping up and anticipating the next vote.
    Let me observe, as one Member here said, ``She's a well-
trained lawyer, but she can speak to the general public.'' 
Those are usually inconsistent activities. As a lawyer myself, 
I would observe that. We appreciate the fact that you came 
ready to answer a range of questions and that you have a lot of 
other issues under review. This will be an on-going process.
    Sorry, Mr. Green, we are closing down the hearing.
    But if the committee has additional questions for you, we 
would ask you to respond expeditiously in writing to those 
questions. I assume that would be fine.
    Having no further business, the committee stands adjourned.
    [Whereupon, at 1:18 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions From Chairman Bennie G. Thompson of Mississippi for the 
 Honorable Janet Napolitano, Secretary, Department of Homeland Security
    Question 1. This committee has had many discussions with GAO about 
obstacles it faces when it attempts to meet with DHS employees and 
obtain files and records necessary to carry out its oversight mission. 
Will you examine the policies put in place by your predecessor and 
assure that GAO will be able to have the kind of access it needs?
    Answer. The Department of Homeland Security (DHS) is committed to 
creating openness in Government to ensure the public trust, and 
establish a system of transparency, public participation, and 
collaboration. In DHS' first quarter report to Congress, the Department 
provided a document to GAO within 20 days on average 79 percent of the 
time. For scheduling interviews within 7 days, DHS was 95 percent. The 
Department values its work with GAO and is committed to improving our 
timeliness and to operate in a transparent manner. The Department will 
continue to work toward improving our performance.
    Question 2. This committee has closely watched the procurement and 
contracting practices at the Department. Can you explain what you will 
do to increase transparency and accountability in the contractor 
selection process?
    Answer. The Department of Homeland Security (DHS) follows the 
requirements set forth in the Federal Acquisition Regulations (FAR) 
which ensures transparency and accountability in the contractor 
selection process to the maximum extent practicable without 
jeopardizing proprietary information. DHS uses Federal Business 
Opportunities extensively to disseminate Requests for Information and 
Draft Requests for Proposals (RFP). The Department solicits industry 
feedback holding Industry Day seminars and Pre-Proposal Conferences to 
ensure requirements are communicated early in the process and the 
criteria for evaluation are articulated clearly to all offerors. During 
the selection process, the Contracting Office ensures the evaluation 
and selection is conducted in accordance with the established 
procedures and follows the same evaluation criteria presented to the 
offerors in the RFP. As required by the FAR, both successful and 
unsuccessful offerors are afforded the opportunity for a debriefing on 
the strengths and weaknesses of their proposal against the evaluation 
criteria. Finally, in the event a protest is filed, DHS follows the 
applicable procedures outlined in the FAR to ensure a fair review of 
the procurement and selection process.
    Question 3. While the Department has met its small and 
disadvantaged business goals, reviews by this committee and others have 
found circumstances that call these numbers into question, such as 
large companies posing as small businesses and double-counting small 
disadvantaged businesses. While this is a Government-wide problem, have 
you considered actions at the Department that will not only create more 
opportunities for small, minority-, and women-owned businesses, but 
will provide more accurate numbers on the actual utilization of these 
companies?
    Answer. The Department of Homeland Security (DHS) is aware of the 
issue, and follows the Government-wide guidelines for small business 
contract reporting as outlined by the Small Business Administration 
(SBA) which is reflected in the Federal Procurement Data System (FPDS) 
small business goaling report. DHS will continue to work with SBA on 
accurate procurement data for all small business categories. The Office 
of the Chief Procurement Officer (OCPO) will conduct a special 
oversight review of FPDS data this fiscal year, including an 
examination of the small business data fields. Additionally, the Office 
of Small and Disadvantaged Business Utilization performs spot checks on 
FPDS data during the year. The OCPO will continue collaboration with 
the component contracting activities to identify opportunities for 
small, minority-, and women-owned businesses through acquisition 
planning, small business market research, and cooperation with the SBA.
    Question 4. In January OPM released the results for its 2008 
Federal Human Capital Survey. The survey showed that the Department is 
ranked among the ``most improved'' in Leadership and Knowledge 
Management, Results-Oriented Performance Culture, Talent Management, 
and Job Satisfaction. While these trends are generally heading in a 
positive direction, there is still much room for improvement. For 
example, a review of the Department's Equal Employment Opportunity data 
reveals a lack of minority representation in various civil service 
categories, especially the Senior Executive Service. What measures will 
you take to improve these numbers to achieve a work force that is more 
reflective of the American public?
    Answer. Last year, the Department of Homeland Security (DHS) 
established a high-level Diversity Council and issued a Department-wide 
Diversity Strategy. The Council is supported by a multi-component 
subcouncil, co-chaired by executives from the Department's Office for 
Civil Rights and Civil Liberties and the Office of the Chief Human 
Capital Officer.
    The Human Capital Strategic Plan for Fiscal Year 2009-2013 includes 
diversity as one of four human capital strategic goals. This goal 
identifies specific actions DHS plans to take to enhance the diversity 
of its work force, as well as accountability for diversity. To that 
end, all DHS executives' performance evaluations include a rating as 
``Diversity Advocates''. This is the third rating cycle for this 
competency, and last year DHS issued illustrative guidance on how to 
effectively rate performance in this area. DHS is currently in the 
process of identifying diversity initiatives, best practices, and 
challenges across the Department. Later this year, we plan to establish 
a DHS Diversity Advisory Forum composed of external stakeholders to 
advise the Department on our Diversity plans, initiatives, and efforts.
    As an example, the Office of the Chief Human Capital Officer, in 
collaboration with the established Councils, is working to identify 
ways to create career paths for DHS employees across Components. 
Through this effort, DHS can provide opportunities for employees to 
transition from one DHS Component to another, e.g., Transportation 
Security Officer (TSO) to Customs and Border Patrol Officer (CBPO).
    In the Senior Executive Service (SES), DHS' strategy is two-fold; 
recruiting a more diverse candidate pool of high performing 
individuals, and enhancing current leadership development programs. In 
the area of recruitment, DHS is pursuing partnerships with 
organizations such as the African American Executive Association, the 
National Association of Hispanic Federal Executives, and the Asian 
American Executive Network to augment recruitment efforts. In the area 
of leadership development, the Department is expanding executive 
``feeder'' programs such as the SES Candidate Development Program and 
the DHS Fellows Program.
    Question From the Honorable Peter A. DeFazio of Oregon for the 
 Honorable Janet Napolitano, Secretary, Department of Homeland Security
    Question. I am interested in your views on the TSA prohibited items 
list, the methodology used to determine what is prohibited, and whether 
you will initiate an inquiry into whether the prohibition on pocket 
utility tools from the passenger areas of commercial aircraft remains 
appropriate.
    Answer. With regard to methodology, the Transportation Security 
Administration (TSA) periodically reviews the Prohibited Items list 
based on the evolving aviation security environment. Improvements made 
regarding airline cockpit security and other countermeasures enacted 
since the 9/11 tragedy have provided opportunities to adjust the list 
of threat objects relevant to the current environment. TSA will 
continue to consider the Prohibited Items list when analyzing changes 
in the security risk and implementing improvements in the layers of 
security.
    Currently, TSA allows tools 7 inches or smaller on-board aircraft 
but has continued to prohibit knives of any length, including small 
knives contained in pocket utility tools. If a passenger has checked 
baggage, an always-available option is to place the pocket utility tool 
inside the checked baggage, where it is not prohibited. TSA continually 
works with our international partners to ensure that security rules and 
procedures are as consistent as possible. In that light, the 
International Civil Aviation Organization approved a revision to its 
guidelines for prohibited items that recommends allowing the carriage 
of small knives (blades shorter than 6 cm or 2.36 in.). While the 
United States is interested in a standardized approach to prohibited 
items with our partners around the world, any changes must be made with 
the full input of our security partners.
    TSA will continue to work with Congress, other Federal agencies, 
and airline flight crew organizations on this issue. TSA will keep 
Members of Congress and the traveling public informed of any changes to 
the Prohibited Items list.
 Questions From the Honorable Henry Cuellar of Texas for the Honorable 
      Janet Napolitano, Secretary, Department of Homeland Security
    Question 1a. Madame Secretary, it is noted that none of the action 
directives include the Office of Emergency Communication which Congress 
created to be the focal office responsible for emergency communications 
in the Post-Katrina Emergency Management Reform Act of 2006.
    Can we expect an action directive to address this vital issue?
    Answer. While not its primary focus, my action directive on State, 
local, Tribal, and territorial integration included interoperable 
emergency communications outreach efforts. Although I have not at this 
time issued an action directive focused specifically on comprehensive 
emergency communications efforts, as I stated during my testimony, I am 
taking a close look at interoperability, the role of the Office of 
Emergency Communications within the Department, and other key aspects 
of this critical issue.
    Question 1b. Do you have any plans to elevate or move the Office of 
Emergency Communication within the Department to reflect the 
Department's commitment to improving the emergency communications for 
the Nation's first responders?
    Answer. The Office of Emergency Communication is committed to 
fulfilling its statutory mandate to support and promote the ability of 
emergency response providers and relevant government officials to 
continue to communicate in the event of natural disasters, acts of 
terrorism, and other man-made disasters.
    Question 2a. Madame Secretary, nearly 8 years have passed since the 
tragic attacks of 9/11 and 3 years since the devastating storms of 
Hurricane Katrina. Despite efforts made by Congress, I remain very 
concerned by the various components at the Department that have 
indirect and direct influences on interoperability issues.
    Can you explain to the committee how you intend to streamline 
interoperable emergency communications issues at the Department and 
within the Federal Government?
    Answer. This question exemplifies why I initiated my Department-
wide Efficiency Review Initiative. As part of this review, the 
Department is examining the common mission space on emergency 
communications across a number of Department of Homeland Security (DHS) 
components. This review will include an assessment of how DHS can 
better implement Congress' intent for the Office of Emergency 
Communications (OEC) to coordinate improved interoperable emergency 
communications capabilities Nation-wide.
    OEC is committed to fulfilling its statutory mandate to support and 
promote the ability of emergency response providers and relevant 
Government officials to continue to communicate in the event of natural 
disasters, acts of terrorism, and other man-made disasters. The Office 
works closely with its DHS partners, including the National 
Communications System, the Federal Emergency Management Agency (FEMA), 
the Science and Technology Directorate, and the Office of Policy, as 
well as with partners across the Federal Government, to present a 
unified interoperable emergency communications policy. Through the 
National Emergency Communications Plan (NECP), released in July 2008, 
the Department has identified a clear strategic plan to improve 
emergency communications Nation-wide. The NECP lays out 92 specific 
milestones designed to achieve three overarching goals:
  <bullet> Goal 1.--By 2010, 90 percent of all high-risk urban areas 
        designated within the Urban Areas Security Initiative (UASI) 
        are able to demonstrate response-level emergency communications 
        within 1 hour for routine events involving multiple 
        jurisdictions and agencies.
  <bullet> Goal 2.--By 2011, 75 percent of non-UASI jurisdictions are 
        able to demonstrate response-level emergency communications 
        within 1 hour for routine events involving multiple 
        jurisdictions and agencies.
  <bullet> Goal 3.--By 2013, 75 percent of all jurisdictions are able 
        to demonstrate response-level emergency communications within 3 
        hours, in the event of a significant incident as outlined in 
        national planning scenarios.
    Additionally, I would like to highlight the Emergency 
Communications Preparedness Center (ECPC). Congressionally mandated by 
Title XVIII of the Homeland Security Act of 2002, as amended, this 
interagency group will be critical to increasing coordination and 
reducing duplication of effort by the 11 Federal departments and 
agencies that are members of the ECPC. The ECPC Charter is currently 
undergoing final leadership review prior to the Center's stand up.
    Question 2b. Can you detail for the committee your understanding of 
day-to-day and operational interoperable emergency communications 
means?
    Answer. Interoperability is defined in the National Emergency 
Communications Plan (NECP) as the ability of emergency responders to 
communicate as needed, on demand, and as authorized at all levels of 
government and across all disciplines. Responders need this capability 
for all levels of incidents, from day-to-day/routine incidents (e.g., 
Customs and Border Protection coordination with local law enforcement 
on an arrest at the border, and local police and emergency medical 
services personnel responding to a traffic accident) to significant 
natural or man-made incidents (e.g., Federal/State/local response to a 
major natural disaster or a terrorist incident). Although much work 
remains, through the NECP the Nation has made significant progress 
toward this capability.
    Question 2c. Can you explain your understanding of which component 
at the Department is in charge of interoperability when the first 
responder community needs technical assistance and guidance from the 
Federal Government?
    Answer. The Office of Emergency Communications (OEC) provides 
Nation-wide strategic planning and policy, coordination, and technical 
assistance across all levels of government. Additional Departmental 
components have responsibility for addressing specific aspects of the 
interoperability challenge, including:
  <bullet> Science and Technology Directorate, Office for 
        Interoperability and Compatibility.--Supports emergency 
        communications research, development, testing, evaluation and 
        standards.
  <bullet> National Communications System.--Ensures resilient, 
        continuous, and secure telecommunications for National 
        Security/Emergency Preparedness leadership.
  <bullet> Federal Emergency Management Agency.--Provides tactical and 
        operational support to temporarily restore communications when 
        commercial and private communications systems are impaired 
        during disasters.
    Question 2d. Can you reassure this committee that the Department 
will honor Congress' intent to elevate the importance of operability 
and interoperability both at DHS and throughout the Federal Government?
    Answer. Yes. I look forward to working with Congress on these key 
interoperable emergency communications policy issues, including the 
most effective means of meeting these challenges within the Department 
and with our Federal partners.
                 state, local, and tribal coordination
    Question 3a. Secretary Napolitano, as former Governor of Arizona 
you understand that all disasters are local. In fact, you stated during 
your Senate confirmation hearing that, ``the Federal Government can not 
do homeland security alone.''
    Can you explain your philosophy on how the Department intends to 
better integrate State, local, and tribal governments in preparing for, 
planning, and response to a catastrophic disaster along the Northern 
and Southern borders?
    Answer. As a former Governor of a Border State, I understand the 
vital role that State, local, Tribal, and territorial (SLTT) entities 
play in preparing for, responding to, and recovering from catastrophic 
disasters--both natural and manmade.
    Successfully integrating SLTT input into the policy process will be 
imperative for improving the cooperative and collaborative partnership 
between the Department and SLTTs. If the Federal Government needs to 
address a catastrophic incident, these partnerships will be essential.
    I issued multiple Action Directives to a number of Department 
entities specifically to gauge how Department programs and components 
gather SLTT input and determine the status of this effort. I am in the 
final stages of reviewing the information gathered in response to these 
Action Directives. Once I complete my review, I will determine the 
direction of the Department's efforts to ensure better integration of 
our State, local, Tribal and territorial partners.
    The Department is currently working on both a Southern and Northern 
Border Strategy. The DHS Office of Intelligence and Analysis (I&A) is 
assessing and analyzing the threat Mexican Drug Trafficking 
Organizations pose to the border. I&A is working closely with its 
sister agencies within the Intelligence Community (IC) and other 
Federal, State, local, and tribal partners to share the most current 
information and analysis. Customs and Border Protection Headquarters 
and field offices are coordinating with the IC and other Federal, 
State, local, and tribal partners, to maintain situational awareness 
along the U.S. Southwest Border.
    To that end, I have directed the Office of Operations and Planning 
(OPS) along with the Customs and Border Protection, Immigration and 
Customs Enforcement (ICE) and other components to revise the current 
Contingency Plan for the Southwest Border, which will result in key 
changes to its critical considerations, assumptions, mission statement, 
and essential tasks. OPS and the Components will work with the Office 
of Intergovernmental Programs and the Office of State and Local Law 
Enforcement (SLLE) to conduct outreach with the Department's critical 
State, local, and tribal stakeholders along the Southwest Border. In 
addition, I've sent the Assistant Secretary for SLLE, Ted Sexton, down 
to the border, to go through that plan and make sure we have their 
input. Our outreach will ensure that our State and local partners are 
fully engaged in Southwest Border plans.
    Question 3b. How do you intend for the Office of Emergency 
Communications to implement the Border Interoperability Demonstrations 
Projects, as authorized in Pub. L. 109-295?
    Answer. The Office of Emergency Communications (OEC) is working 
with Customs and Border Protection, the Department of Commerce, and the 
Federal Communications Commission to implement the Border 
Interoperability Demonstration Projects. OEC will conduct a competitive 
application process to select and enter into cooperative agreements 
with a minimum of six border communities to improve interoperable 
communications along the border.
    As a result of the Border Interoperability Demonstration Projects, 
selected communities will benefit from improved interoperability, and 
the approaches used will serve as repeatable models for other border 
communities to achieve greater interoperability with domestic and 
international agencies. OEC will document and share lessons learned, 
best practices, and guidance tools for establishing cross-border 
interoperability.
    Question 3c. What metrics do you plan to implement to assess the 
effectiveness of the homeland security grant dollars are funneled to 
States, local, and tribal governments?
    Answer. The metrics for building and assessing capabilities--
including a communications capability--are set forth by the National 
Preparedness Guidelines and accompanying Target Capabilities List 
(TCL). The 37 existing capabilities under the TCL cover prevention, 
protection, response, and recovery mission areas for all hazards. Each 
capability includes a definition and target outcome, a listing of the 
major capability activities, and a series of tasks and performance 
measures for each activity.
    Efforts are currently under way to update the TCL to be more 
measurable, risk-based, and user-friendly. The Federal Emergency 
Management Agency (FEMA) is working closely with the FEMA Disaster 
Operations Directorate, the Department of Homeland Security (DHS) 
Office of Emergency Communications, and the DHS Science and Technology 
Directorate to update the communications capability and measures in 
accordance with the metrics set forth in the National Emergency 
Communications Plan.
    The TCL is used to help synchronize the goals and management of the 
preparedness programs, including grant programs. For example, 
applicants under the Homeland Security Grant Program are required to 
indicate in their investment justifications how their requested 
projects will help achieve one or more of the capabilities. Applicants 
are also required to indicate how requested projects further one or 
more of the eight national priorities set forth in the National 
Preparedness Guidelines.
    The Cost-to-Capability Analysis Program is currently under 
development to gain a better understanding of how grant dollars are 
being spent by capability and to ascertain the return on investment of 
grant dollars toward capability goals. The Comprehensive Assessment 
System is also under development to provide a more holistic picture on 
the state of national preparedness by capability, to include the grant 
investment data supplied by the Cost-to-Capability Analysis program.
                            fema: in or out
    Question 4a. On February 11, 2009, you received a memo from the 
Department of Homeland Security's Inspector General that concluded that 
FEMA should remain at DHS. Specifically, Inspector General Skinner 
noted that ``removing FEMA from DHS at this point would cause 
considerable upheaval, to both FEMA and the department.'' At your 
confirmation hearing before the Senate Homeland Security and 
Governmental Affairs Committee and then again at the February 25 
hearing before the House Committee on Homeland Security you testified 
that you have not yet spoken to the President concerning whether FEMA 
will remain at the Department.
    When do you plan to meet with the President to specifically discuss 
FEMA's future within the Department? (Please provide a date.)
    Question 4b. What is your position on Chairman Obestar's bill (H.R. 
1174) to remove FEMA from the Department? Please detail in your 
response the impact of removing FEMA from the Department.
    Question 4c. Will the memo from the Inspector General provide some 
guidance on your recommendation to the President?
    Question 4d. What is your assessment of the action directives that 
you have received to date as it relates to FEMA's critical role within 
the Department?
    Question 4e. There are those who continue to argue that FEMA cannot 
respond to both acts of terrorism and natural disasters. Can you 
explain why FEMA, situated within the Department, strengthens DHS' 
capability to respond to any type of catastrophic incident?
    Answer. DHS officially began its operations in March 2003, when 22 
Federal agencies, including FEMA, were merged. Since this time, FEMA 
has been positioned as a vital component of our homeland security and 
emergency management infrastructure. The DHS mission is to prevent and 
deter terrorist attacks, and protect against and respond to threats and 
hazards to the Nation. Our Nation faces threats from both natural and 
man-made sources; therefore DHS takes an all-hazards approach to 
emergency management that allows us to respond effectively to all 
emergencies. FEMA is an integral part of the Department's all hazards 
response.
    I am currently in the process of reviewing the Inspector General's 
memorandum on FEMA and the FEMA-related action directive responses I 
have received to date. These sources will inform the discussion I have 
with the President on the status of FEMA.
 Questions From the Honorable Bill Pascrell, Jr. of New Jersey for the 
 Honorable Janet Napolitano, Secretary, Department of Homeland Security
    Question 1. As a member of both the Ways & Means Committee that 
handles trade and this committee which handles port security I have 
made it one of my top priorities to ensure that not only are our ports 
secure but that we do not do so at the price of strangling commerce--I 
firmly believe that is a balance we can achieve. To that end, I am 
concerned about the misclassification of goods coming into the United 
States. The need for importers to correctly classify their goods 
according to the Harmonized Commodity Description and Coding System is 
essential for revenue, regulatory and security compliance, yet the 
quality of commodity data submitted to Customs and Border Patrol (CBP) 
remains poor.
    According to the CBP, commodity code classification errors result 
in $1 billion a year in lost revenue due to duty underpayments. This is 
a significant amount--especially in light of our current economic and 
budgetary situation--but I fear that aside from the loss of revenue, 
the security implications of this are enormous. After all, we need to 
know precisely what is coming into the country--if we do not, we are 
simply putting ourselves at greater risk.
    Unfortunately, we have seen that CBP's resources devoted to 
monitoring compliance have declined. In 2007, CBP officers conducted 
approximately 68,000 post-entry compliance examinations, representing 
just 0.06 percent of the estimated 100 million import entry lines 
submitted per year.
    It seems to me that an issue of this magnitude cannot be resolved 
by simply increasing the numbers of CBP officers.
    Has the CBP looked into specialized technology designed to flag 
substandard reporting and Commodity Coding errors? My understanding is 
that such technology exists and is being used by other governments to 
great success. Why not us? The misclassification of goods coming into 
the United States is a serious problem, and I would like to know what 
CBP is doing to remedy this situation.
    Answer. Customs and Border Protection's (CBP) estimate of 
undercollections is about $400 million annually, with a trade 
compliance rate of about 98 percent, as estimated by our Entry Summary 
Compliance Measurement Program. This estimated undercollection 
represents about 1.09 percent of all duty and tax payments made to CBP. 
Many of these errors are due to misclassification, but this estimate 
also includes many errors related to anti-dumping and countervailing 
duties, as well as false claims for trade preference programs.
    CBP would like to clarify that it conducts hundreds of thousands of 
compliance reviews each year, in addition to employing many other tools 
and programs to address this estimated underpayment such as enforcement 
analysis and targeting, operations and responses to allegations, 
hundreds of audits on larger companies, partnerships with trusted 
importers, and mechanisms such as prior disclosure. These functions are 
performed by many ``revenue'' positions within CBP including 
International Trade Specialists, Regulatory Auditors, Account Managers, 
Import Specialists, and Entry Specialists. CBP applies risk principals 
to prioritize this work to direct limited resources to the highest risk 
areas. One of those principles includes the identification of trade 
issues that cause significant revenue loss. Currently, CBP concentrates 
on seven priority trade issues; one of which being revenue. The goal of 
the revenue priority trade issue (PTI) is to maximize collection 
efforts by ensuring strong controls over the revenue process and by 
focusing on material revenue risks. CBP's strategic approach to trade 
recognizes the sheer volume of millions of entries and the 100 million 
entry lines transmitted each year, but takes into account an annual 
estimated compliance rate of 98 percent for all import transactions. 
The balance between facilitating legitimate cargo and focusing 
enforcement on the areas of highest risk through a multilayered 
approach is the cornerstone of CBP's trade strategy.
    Question 2. Under the new ``10+2'' initiative, importers are 
required to submit an HS Code to Customs prior to export so that CBP's 
automated targeting systems can assess risk. The HS code may be a very 
good targeting element, but only if you can rely on its accuracy. What 
is Customs doing to insure that the HS codes that are being reported 
under 10+2 are accurate?
    Answer. The ``Importer Security Filing and Additional Carrier 
Requirements'' Interim Final Rule became effective on January 26, 2009. 
CBP is currently in a 1-year delayed enforcement mode in order to 
provide the trade sufficient time to adjust to the new requirements and 
in consideration of the business process changes that may be necessary 
to achieve full compliance. However, since the effective date, CBP has 
already received in excess of 200,000 Importer Security Filings (ISFs) 
containing more than 600,000 harmonized tariff schedule (HTS) codes.
    CBP chose to require the 6-digit HTS code as one of the security 
filing elements because it more accurately reflects the nature of the 
items that are being imported into the United States versus the data 
received under the customs manifest requirements. Additionally, the 
importing community is already legally required to provide the HTS code 
as part of the entry requirements.
    CBP has taken great care to ensure that the HTS codes provided as 
part of the ISF are accurate. When an ISF is submitted, CBP's automated 
system checks to see if an HTS code has been provided as part of the 
filing. If an HTS code has not been provided, the system will reject 
the filing. Additionally, CBP's system also checks to see if a provided 
HTS code is actually valid. If a provided HTS code is invalid, the 
system will reject the filing.
  <bullet> To date, less than 1 percent of the total ISF filings have 
        been rejected due to a missing or invalid HTS code.
    Also, the ISF Importers are required to update their ISF filings if 
more accurate information becomes available or there are changes to the 
information prior to vessel arrival in the United States.
  <bullet> To date, the HTS codes have been changed less than 1 percent 
        of the time.
    As CBP enters the full compliance mode after January 26, 2010, the 
trade community will have a very strong motivation to provide the 
correct HTS data as part of the ISF. The trade community is aware that 
CBP will be comparing the ISF data with the corresponding manifest and 
entry data for validation purposes. Data that clearly does not match 
will be flagged for further review, and any number of corrective 
actions can be taken to ensure future compliance.
    Question 3. Next year, the 2010 Olympics and Paralympics will be 
held in Vancouver, British Columbia. Given the Games' proximity to the 
United States, can you tell us what the Department of Homeland Security 
is doing to ensure safe travel and border transit for international 
visitors and the residents of the Pacific Northwest? Specifically, is 
the Department investing in coordination, training, and exercise 
efforts for emergency officials and first responders? Do communities 
and their first responders--both Federal and local--have sufficient 
interoperable communications equipment to effectively work with one 
another? How can we help prepare the Department, Washington State, and 
local community officials for the security requirements of this 
historic event?
    Answer. The Department of Homeland Security, U.S. Customs and 
Border Protection (CBP) has identified several land border ports of 
entry in the State of Washington which CBP believes will have the most 
direct impact related to the 2010 Winter Olympic/Paralympics Games. CBP 
expects to see an impact and increase in vehicular traffic at the ports 
of Blaine, Lynden, and Sumas. Additional workload increases are also 
anticipated at the CBP's Preclearance Ports of Vancouver and Victoria, 
British Columbia, Canada.
    CBP projects a 25 percent increase in cross-border traffic over 
typical summer volumes. Temporary duty (TDY) officers/agents will be 
deployed along the land border ports of entry and between the ports of 
entry identified above and at the Preclearance ports of Vancouver and 
Victoria. These resources will: Supplement existing resources; ensure 
that anticipated workload challenges and mission critical objectives 
are met; and, assist in mitigating excessive wait times.
    Specifically, CBP plans to temporarily assign staff and personnel 
to be deployed to support primary and secondary processing of vehicles 
entering the United States through specific ports of entry along the 
border in the State of Washington. CBP staff assigned to ports of entry 
will focus on increasing inbound Privately Owned Vehicle (POV) 
processing capacity and enhancing port of entry security.
    Additionally, CBP is planning to enhance its posture between ports 
of entry by utilizing Border Patrol Tactical (BORTAC) and Border Patrol 
Search Trauma and Rescue (BORSTAR) support for incident response 
capability and medical support. CBP will focus resources on enhanced 
border enforcement, intelligence and the Interagency Border 
Enforcement/Intelligence Team (IBET/IBIT).
    CBP plans to provide a flexible/responsive aviation law enforcement 
force during the games by the interdiction of low and slow flights of 
interest perceived as suspect. Additionally, it will provide aviation 
support to Federal, State, and local partners in tactical airlift, 
video downlink and maritime patrols. CBP will also provide a flexible/
responsive marine law enforcement force during the games with the 
interdiction of maritime suspects and/or non-compliant vessels if 
encountered. CBP will support other Federal, State, local and tribal 
partners in officer/prisoner transport, covert vessel support, 
surveillance and overt maritime patrols.
    As a key stakeholder, CBP continues to work closely with the 
Planning and Operations Workgroups within the Olympic Task Force 
Security Committee to help in the development of Standard Operating 
Procedures for a 2010 Olympic Coordination Center (OCC). Located at the 
CBP facility in Bellingham, Washington, the OCC will facilitate the 
coordination and synchronization of Federal, tribal, State, local, 
private sector and Canadian security partners and resources in an 
effort to provide a safe, secure Washington State and northern border 
region in conjunction with the 2009 World Police and Fire Games and the 
2010 Winter Olympics/Paralympics Games. DHS will be integrated into the 
overall USG intelligence and security construct on both sides of the 
border.
    CBP will use the National Incident Management System's (NIMS) 
Incident Command System (ICS) to enable effective incident management. 
The OCC will have a communications center that will be the gateway for 
phone and radio communication. A Communications Officer will route 
calls appropriately, monitor radio communication, and significant 
events.
    The OCC will be staffed and operational immediately prior to the 
opening ceremonies, through the closing ceremonies of the 2010 Winter 
Olympic/Paralympics Games in Vancouver. The OCC will coordinate the 
information-sharing, situational awareness, and activities of Federal 
agencies to support State and local agencies that may be impacted by 
the 2010 Winter Olympic/Paralympics Games. The opportunity to test 
interoperable communications and provide training on various protocols 
and procedures will be during the 2009 World Police and Fire Games 
schedule in Vancouver, Canada between July 31 and August 9, 2009.
    Due to the proximity of the 2009 World Police and Fire Games venues 
to the U.S. border, serious public safety and security issues may have 
an impact on the Pacific Northwest. It is anticipated that calls for 
service and emergency notifications will continue to be handled by 
established methods through established protocols unless the incident 
or event expands beyond regional geographic or political boundaries. 
When an Olympic-related event expands beyond CBP boundaries, the OCC 
will facilitate communications and resource acquisition in order to 
assist CBP in getting what is needed to manage the event or incident.
    CBP has participated in several operations-based exercises to date. 
Specifically, these exercises have given CBP an opportunity to evaluate 
proposed and current concepts, plans, and capabilities for responding 
to incidents near the Canadian border in Whatcom County, Washington 
during the 2010 Winter Olympic/Paralympics Games.
    Exercise Silver, a functional exercise to rehearse/practice plans 
and procedures was held at Camp Murray, Washington in February 2009. 
Exercise Silver tested and identified gaps in current capabilities and 
focused efforts on identifying and developing priority capabilities and 
tasks for the participating entities. The exercise provided an 
opportunity to measure and validate performance of capabilities and 
associated critical tasks in:
    (1) Planning;
    (2) Communications;
    (3) Intelligence and Information Sharing and Dissemination;
    (4) Information Gathering;
    (5) Incident Management;
    (6) Emergency Operations Center Management;
    (7) Weapons of Mass Destruction (WMD) and Hazardous Materials 
        Response; and,
    (8) Citizen Evacuation/Emergency Public Information and Warning.
    Additionally, CBP participated in a Canadian 2010 Olympic 
Preparation Exercise Series. The Canadian Government, through Public 
Safety Canada, requested the U.S. Government's assistance to ensure 
that exercises are realistic and have appropriate meaningful 
interaction with U.S. counterparts. The FEMA/National Exercise Division 
(NED) briefed the NEP Executive Steering Committee (ESC) on the 
Canadian request. The NEP ESC approved the establishment of an 
Interagency Working Group (IWG) to plan and organize U.S. exercise 
support for exercises.
    CBP's participation as a member of the Interagency Working Group 
(IWG) to support Canada's exercise was accomplished through a pool of 
Subject Matter Experts (SMEs). The SMEs were prepared to advise 
Canadian exercise participants through the Department of State on CBP 
capabilities and procedures for garnering assistance, and policies for 
employing resources. The primary mission of the SME pool provided 
exercise participants with timely and accurate information on, and 
awareness of, CBP support/coordination mechanisms, policies and 
procedures for garnering assistance, and reasonable expectations of CBP 
response timelines and logistical considerations. The secondary mission 
of the SME pool will be to discuss, coordinate, and document U.S. 
response mechanisms and capabilities for a variety of scenarios, some 
of which the Canadian exercise may not address. The IWG helped gain 
mutual understanding of capabilities and procedures that could be 
brought to bear in the event of a real-world incident.
    CBP has taken measures to assure communication connectivity with 
Federal, State, and local government agencies. CBP continues to develop 
an Integrated Federal Support Plan for the 2010 Winter Olympic/
Paralympics Games designed to ensure a detailed security and public 
safety concept of operations (CONOPS) is communicated with all 
stakeholders.
    A CBP Public Affairs Officer (PAO) will maintain contact with OCC 
staff. The PAO will coordinate with agency staff to ensure a 
coordinated flow of information.
    CBP will take steps to ensure passengers and cargo will be able to 
cross the U.S./Canadian border with minimal impact due to the 2009 
Police and Fire Games as well as the 2010 Winter Olympic/Paralympics 
Games. CBP will continue to assess and evaluate plans which clearly 
define roles and responsibilities to assure interoperability and 
address the inherent challenges while preparing for the Games.
    In addition, the DHS Science and Technology Directorate's Command, 
Control, and Interoperability (CCI) Division is preparing to loan 
prototype Multi-Band Radios (MBR) to the State of Washington and the 
Province of British Columbia in May/June 2009 for an initial testing 
and evaluation of the radios. The MBR enables emergency responders to 
communicate with partner agencies--regardless of the radio band. Also, 
CCI has initiated coordination with the Washington State 
Interoperability Executive Committee, the Pacific Northwest National 
Laboratory, northwest emergency responders and Canadian government 
agencies for potential technology pilots in support of security during 
the games.
    Question 4a. The Department's procurement and acquisition offices 
have long been understaffed--something not unique to DHS, but a fact of 
life across the Federal Government. What steps are you taking, or do 
you envision taking over the next 6 months, to improve the procurement 
processes at both the Department and its components?
    Answer. The Department of Homeland Security (DHS) continues 
improvements to the acquisition work force, improvements in managing 
its programs, and strengthening specific contracting functions. DHS 
will on-board approximately 50 additional interns to the Acquisition 
Professional Career Program (APCP) during fiscal year 2009 to bring the 
enrollment to 100 participants. Improvements in managing our programs 
focus on the implementation of Directive 102-01 (Acquisition 
Management). This Directive replaces Management Directive 1400, and 
provides an enterprise framework for consistent and efficient 
Departmental management, support, review and approval of DHS 
acquisitions as they progress through the development and deployment 
life cycle. By the end of fiscal year 2009, DHS will conduct more than 
fifteen Acquisition Review Boards for major programs in accordance with 
the new Directive. To administer this Directive, the Office of the 
Chief Procurement Officer (OCPO) has staffed the Acquisition Program 
Management Division (APMD) and the Cost Analysis Division (CAD) with 
experienced and highly regarded acquisition professionals from across 
the Government. During fiscal year 2009, there will be an increased 
emphasis on better planning of acquisitions to ensure DHS defines its 
needs and enters into sound business deals. In addition, the Department 
will continue emphasis on contract pricing, which includes providing 
training and expert consultation in analyzing contractor proposed costs 
and prices. In addition, the procurement oversight program will be 
expanded to include special reviews of key areas such as Time and 
Material (T&M) contracts and performance-based contracting. The 
findings of these reviews are anticipated to lead to recommendations 
that will yield savings through better and more efficient contracting 
processes.
    Question 4b. Are there any specific targeted efforts to bolster the 
professional program management ranks within DHS and its componenets?
    Answer. DHS is taking multiple steps to bolster the program 
management ranks within the Department and across components. At the 
entry level, the Acquisition Professional Career Program (APCP) is 
being expanded beyond a contracting focus in the fourth quarter of 
fiscal year 2009 to include technical disciplines. Approximately 25 
percent of the APCP billets allotted to the program will focus on the 
other acquisition career fields including program management, systems 
engineering, test and evaluation and logistics.
    In order to ensure that the acquisition career fields that comprise 
the program offices have the requisite knowledge, skills, and abilities 
to successfully execute the DHS mission, the Department is aggressively 
pursuing the expansion of the definition of the DHS acquisition work 
force and the development of professional certification programs for 
each additional career field. From the inception of the Department 
though fiscal year 2008, the DHS acquisition work force was defined as: 
contracting specialists, program managers, and contracting officers 
technical representatives. Beginning in fiscal year 2009, three 
additional career fields have been established, and efforts are 
underway to develop professional certification programs for the 
following fields: Test and Evaluation, Logistics, and Business Cost 
Estimating and Financial Management. DHS anticipates the launch of the 
Systems Engineering career field and certification program beginning in 
fiscal year 2010.
    A third area of focus is the enhancement of the centralized 
acquisition work force training program to target training to those 
specific competencies associated with the technical career fields. DHS 
is partnering with the Defense Acquisition University to customize 
currently validated certification training by incorporating DHS 
policies and processes. The centralized acquisition work force training 
program ensures consistency of training across all of DHS and ensures 
transferability of professional certifications with Defense 
counterparts as well as Civilian Agencies.
    The Department has also taken steps to increase the number of 
experienced Program Management staff in APMD. Once on-board, these 
additional experts will expand APMD's ability to provide assistance to 
DHS programs, in parallel with strongly supporting the Department's 
governance processes for major acquisitions.
    An additional effort that has been launched is the Coding of 
Acquisition Billets and Certification levels of individuals filling 
those positions. Knowing how many positions are in the acquisition work 
force and analyzing the skill sets of personnel occupying those billets 
is the first step in being able to effectively manage the acquisition 
work force. In partnership with the Office of the Chief Human Capital 
Officer, OCPO is testing the use of the existing National Finance 
Center database to code and track the acquisition work force and 
requisite training requirements.
    Question 5. Last summer the Department announced the opening of a 
new high-tech National Intellectual Property Rights Coordination 
Center, which includes ICE and CBP resources to counter the global 
threat of intellectual property rights violations. Unfortunately, we 
have not seen much attention generated by the center's activities. In 
addition, while thousands of new agents and officers have been added 
and allocated to ICE and CBP, none have been given IP-specific 
portfolios? Can we get a commitment that intellectual property 
protection--both physical counterfeiting and on-line piracy--will be a 
priority for the Department, ICE, and CBP? Will you consider 
designating agents and officers to specifically deal with intellectual 
property issues? What type of outreach can we expect to the private 
sector, especially those in industries most impacted by intellectual 
property violations?
    Answer. The Department of Homeland Security (DHS) is committed to 
protecting intellectual property rights (IPR) through both criminal and 
administrative enforcement actions. The National Intellectual Property 
Rights Coordination Center (IPR Center), led by U.S. Immigration and 
Customs Enforcement (ICE), focuses on criminal cases, while U.S. 
Customs and Border Protection (CBP), as the agency primarily 
responsible for U.S. border enforcement, maintains a robust 
administrative IPR enforcement program.
    CBP has a dual mission of improving security and facilitating 
legitimate trade and travel--which includes protecting America's 
businesses, consumers and national security from the harms of 
counterfeiting and piracy. IPR enforcement is a top trade enforcement 
priority for CBP. Both the number and value of DHS IPR seizures doubled 
in the last 5 years. In fiscal year 2008, DHS again achieved record-
breaking results with 14,992 IPR seizures totaling $272.7 million in 
domestic value, an increase of 38 percent by value from the previous 
year. CBP addressed more than 90 percent of these IPR violations 
through seizure and destruction of the infringing goods and issuance of 
penalties. CBP refers potential criminal cases to ICE and the IPR 
Center, and CBP staff at the IPR Center provides targeting (selection 
of shipments for inspection) support for criminal cases.
    Personnel throughout CBP work together in an integrated IPR 
enforcement process to protect American industries impacted by IPR 
violations. Within its Office of International Trade, CBP has dedicated 
international trade specialists in the IPR Policy and Programs Division 
and the IPR National Targeting and Analysis Group, as well as attorneys 
in the IPR and Restricted Merchandise Branch. This dedicated staff of 
IPR experts provides expertise and guidance on IPR enforcement to 
officers in ports of entry. Dedicating IPR expert personnel at each 
port of entry would limit CBP's flexibility to deploy resources and 
staff to respond to changing threats and priorities, and may also 
result in less IPR enforcement generally as individuals ports may focus 
only dedicated expert personnel to the task of IPR enforcement rather 
than utilizing all CBP officers trained to assist with enforcement 
efforts.
    Last year, CBP established an IPR subcommittee under the Commercial 
Operations Advisory Committee (COAC), which provides industries 
affected by IPR violations a forum for discussing IPR issues and 
providing advice and recommendations on IPR enforcement. CBP is in 
daily contact with rights owners regarding sharing of information to 
improve interdiction of counterfeit goods and training of officers to 
identify IPR infringing goods. CBP has created web-based tools, e-
Recordation and e-Allegations, to make it easier for the private sector 
to provide information on protected trademarks and copyrights and to 
report suspected violations to CBP. Since the launch of e-Allegations 
in June 2008, more than 150 allegations of suspected IPR violations 
have been reported to CBP. In addition, CBP recently placed a link on 
its web site to assist the private sector in requesting IPR speakers 
from CBP.
    The IPR Center, which was dedicated in July 2008, is a multi-agency 
partnership that brings together core investigatory components to 
combat intellectual property crime. Participating agencies include U.S. 
Immigration and Customs Enforcement (ICE) and U.S. Customs and Border 
Protection, with the Department of Commerce, Health and Human Services' 
Food and Drug Administration, the FBI and the U.S. Postal Inspection 
Service. The IPR Center has three units: Operations, Programs, and 
Outreach & Training (OUT). Current staffing consists of 37 ICE special 
agents, criminal research specialists, and related support staff 
augmented by six special agents and officers from ICE's partner 
agencies. In addition, although not a formal partner, the Department of 
Justice, through the Computer Crime and Intellectual Property Section, 
has provided substantial support to the IPR Center's development and 
currently is working with the IPR Center on a number of on-going 
investigations. ICE plans to increase staffing at the IPR Center by an 
additional 19 special agents and criminal research specialists. These 
added personnel will bring staffing to 56 designated special agents. 
The dedication of the IPR Center and the increase in staff is an 
acknowledgement by ICE that IPR crime is one of the major threats 
facing the United States and that it has been recognized as a priority 
for ICE.
    The IPR Center's OUT is extremely active with both the public and 
private sectors. Since July 2008, the OUT has, under the auspices of 
Operation Joint Venture (Joint Venture), engaged in partnerships with 
public and private sectors to combat the illegal importation and 
distribution of hazardous, substandard and counterfeit goods, as well 
as prevent the evasion of lawful duties. Through these partnerships, 
the IPR Center provides information and identifies leads and contacts 
to foster IPR Center enforcement initiatives, IPR and other commercial 
fraud investigations. Through Joint Venture, the OUT has achieved the 
following milestones related to outreach to the private sector:
  <bullet> OUT has conducted 172 outreach and training events.
  <bullet> In September 2008, OUT trained 24 domestic ICE agents to 
        serve as local Joint Venture points of contact and presenters. 
        These agents will serve as a force multiplier to augment the 
        OUT's staff in conducting the various events.
  <bullet> The OUT is publishing a quarterly newsletter, the IPR 
        Report, to highlight cases, trends, and events being conducted 
        by the IPR Center and its partner agencies, and will also 
        include articles submitted by industry and foreign law 
        enforcement counterparts.
  <bullet> The OUT has developed a new video being used at outreach and 
        training events to highlight the IPR Center, its initiatives, 
        and interactions with public and private sectors both domestic 
        and international.
  <bullet> The OUT is planning another session to train additional 
        Joint Venture points of contacts in both domestic and 
        international ICE offices. This training event will include a 
        day of interaction with private industry to update industry on 
        the status of the IPR Center and enable the industry 
        representatives to interact with the points of contact.
  <bullet> The OUT has initiated an advertising campaign, initially 
        targeting three industry sectors, to provide information and 
        contact information for the IPR Center to enable information 
        sharing and reporting of alleged infringements.

                          IPR CENTER STATISTICS
------------------------------------------------------------------------
                                                      Fiscal     Fiscal
                                                    Year 2007  Year 2008
------------------------------------------------------------------------
IPR/Commercial Fraud Cases Initiated..............      1,395      1,385
IPR/Commercial Fraud Arrests (TOTAL)..............        416        446
IPR/Commercial Fraud Indictments..................        241        189
IPR/Commercial Fraud Convictions..................        232        214
IPR/Commercial Fraud Seizures (by count)..........      1,128      1,290
Industry Presentations............................         95        130
Law Enforcement Training..........................        204        254
------------------------------------------------------------------------

    In its field offices, ICE does not assign agents to specific 
investigative program areas. Each Special Agent in Charge (SAC) 
allocates resources based on the threat within their area of 
responsibility. ICE agents target criminal violators in all ICE 
programmatic areas and strive to levy criminal charges whenever 
possible in order to send a strong message of deterrence.
    We note that within DHS, CBP is specifically responsible for 
enforcing IPR laws on tangible goods crossing U.S. borders while ICE 
enforces laws related to on-line piracy in addition to investigating 
criminal counterfeiting and piracy of tangible goods.
   Question From the Honorable James A. Himes of Connecticut for the 
 Honorable Janet Napolitano, Secretary, Department of Homeland Security
    Question. Madam Secretary, I am interested in your views on the 
TSA-prohibited items list and the methodology used to determine what is 
prohibited. Currently, TSA allows 7-inch tools, scissors with pointed 
metal blades up to 4 inches in length and knitting needles of all sizes 
but prohibits small pocket utility tools. Would you support ending the 
ban on small tools?
    Answer. With regard to methodology, the Transportation Security 
Administration (TSA) periodically reviews the Prohibited Items list 
based on the evolving aviation security environment. Improvements made 
regarding airline cockpit security and other countermeasures enacted 
since the 9/11 tragedy have provided opportunities to adjust the list 
of threat objects relevant to the current environment. TSA will 
continue to consider the Prohibited Items list when analyzing changes 
in the security risk and implementing improvements in the layers of 
security.
    Currently, TSA allows tools 7 inches or smaller on-board aircraft 
but has continued to prohibit knives of any length, including small 
knives contained in pocket utility tools. If a passenger has checked 
baggage, an always available option is to place the pocket utility tool 
inside the checked baggage, where it is not prohibited. TSA continually 
works with our international partners to ensure that security rules and 
procedures are as consistent as possible. In that light, the 
International Civil Aviation Organization approved a revision to its 
guidelines for prohibited items that recommends allowing the carriage 
of small knives (blades shorter than 6 cm or 2.36 in.). While the 
United States is interested in a standardized approach to prohibited 
items with our partners around the world, any changes must be made with 
the full input of our security partners.
    TSA will continue to work with Congress, other Federal agencies, 
and airline flight crew organizations on this issue. TSA will keep 
Members of Congress and the traveling public informed of any changes to 
the Prohibited Items list.
  Questions From the Honorable Lamar Smith of Texas for the Honorable 
      Janet Napolitano, Secretary, Department of Homeland Security
                          worksite enforcement
    Question 1a. I am extremely concerned about the perceptions that 
have been created in the aftermath of DHS's worksite enforcement 
operation in Washington State. The Hill quoted you as telling the 
Hispanic Caucus that you had ``grave concerns'' about the manner in 
which the action was carried out. The pro-amnesty advocacy group FIRM 
stated that ``the day after the raid, after thousands of calls into the 
White House and meetings on the Hill, Janet Napolitano called for an 
investigation into the raid . . . We yelled and the administration 
answered.''
    What sort of message does this send to ICE officers simply trying 
to do their job and enforce the immigration law?
    Question 1b. That their bosses in Washington will not support them 
for doing their jobs effectively?
    Answer. Since the formation of the agency in 2003, U.S. Immigration 
and Customs Enforcement (ICE) has developed a comprehensive work site 
enforcement strategy utilizing all the tools available to disrupt and 
deter those employers who make it their business practice to knowingly 
hire undocumented workers. This strategy has raised employer awareness 
to the importance of complying with the Nation's immigration laws and 
serves as an overall deterrence to illegal immigration.
    ICE continues to advance the multifaceted approach that prioritizes 
those employers connected the Nation's critical infrastructure. In 
these cases, ICE seeks to immediately remove unauthorized workers from 
having access to sensitive facilities and then address how the alien 
gained access to the facility through the investigation of the 
employer. The ICE strategy also focuses on egregious employers who 
knowingly hire undocumented workers as a business practice. 
Investigations of egregious employers may take weeks, months or years 
to complete and are complex in nature. Also, ICE has issued guidance to 
all field offices which revised the development of an administrative 
fine investigation and further emphasized its importance as a tool 
against egregious employers of unauthorized workers.
    Question 2a. Since the Washington State enforcement action, how 
many requests for authorization for other worksite enforcement actions 
have you received from the field?
    Question 2b. How many have you approved?
    Question 2c. Why should headquarters have to sign off on every 
operation?
    Question 2d. Isn't this micromanagement?
    Question 2e. Doesn't this send the message that headquarters is 
discouraging worksite enforcement?
    Question 2f. Don't you run the risk of creating the perception that 
political factors may be influencing law enforcement decisions?
    Answer. Worksite operations, like other law enforcement operations 
conducted by DHS components, are reported to my office. Additionally, 
ICE policy requires that each SAC office report any planned Worksite 
Enforcement (WSE) operation to ICE Headquarters (HQ) prior to the 
planned activity using an ICE reporting module. This report is a 
notification and not a request for approval. SAC offices are required 
to assess all planned WSE operations to determine if the operation's 
scale requires coordination at the ICE HQ level through the HQ WSE 
Unit. Some factors requiring HQ coordination include: WSE operations 
involving suspect employers who have multiple worksite locations 
through the United States; WSE operations involving employers involved 
in critical infrastructure, or who may produce items that affect 
national security or military readiness; and/or WSE operations 
involving worksites with significant economic impact to a geographical 
area.
    Question 3a. I applaud you for wanting to focus on employers who 
hire illegal immigrants. Keep in mind, however, that critics of 
worksite-enforcement operations often complain that complicit 
management officials are too often not arrested. These critics fail to 
understand that illegal workers have to be arrested first and 
interrogated for the Government to build up sufficient evidence against 
management officials to sustain their arrests and indictments. Usually, 
those who knowingly hire illegal workers are not charged until after 
the media frenzy over a worksite raid has faded. Many management 
officials have been criminally charged following up on enforcement 
operations.
    How do you plan on targeting employers if you first don't build 
evidence by arresting illegal workers?
    Question 3b. Are you proposing that ICE agents simply ignore the 
presence of illegal workers and allow them to continue to break the 
law?
    Answer. Investigations of egregious employers may take weeks, 
months, or years to complete, are complex in nature and often involve 
undercover activity, surveillance, witness/informant development, 
enforcement actions, record checks, and subpoena material to establish 
probable cause and consultation with the U.S. Attorney's Office (USAO) 
for plea negotiations and/or trial.
    In some cases, arrested unauthorized/illegal workers provide 
critical information after a worksite enforcement action that is later 
used to pursue criminal as well as civil charges against the employers. 
Investigative steps and techniques are coordinated with the Department 
of Justice to ensure sufficient evidence is developed to ensure the 
Government's burden of proof is met.
    Additionally, ICE agents make arrests and exercise prosecutorial 
discretion on custody conditions, on a case-by-case basis, when they 
encounter unauthorized workers to ensure that evidence from witnesses 
is obtained and preserved for trial.
    Question 4a. A prime example of the lack of priority given to 
enforcing the law against employing illegal immigrants is that the 
total hours worked by investigators on employer sanctions cases fell 
from almost 714,000 in 1997 to 135,000 in 2004, a drop of 81 percent.
    Has the time DHS puts into these cases since recovered to anywhere 
near the earlier levels?
    Question 4b. Will the administration's 2010 budget contain any 
increase in the number of ICE agents dedicated to worksite enforcement?
    Answer. Since 2004, the amount of investigative hours that ICE 
Office of Investigations has dedicated to enforcing the law against 
employing illegal immigrants has risen each year, with the hours 
totaling 746,642 in fiscal year 2008. The chart below shows the amount 
of hours performed and the percent increase for each fiscal year.
    Since the President's budget has not been released, it would be 
premature to comment on the 2010 budget proposal.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              border fence
    Question 5a. The ``Secure Fence Act'' required DHS to gain 
``operational control'' of the southwest U.S. border. As a means of 
gaining ``operation control,'' the bill required over 800 miles of 
fencing. The rise in border violence makes this fencing more important 
than ever to prevent unauthorized access to the United States. 
Completion of the border fence will help reduce illegal immigration, 
thus saving American jobs for U.S. citizens and legal workers, and will 
help prevent violent Mexican drug cartels from transporting drugs and 
violence across the border.
    How much pedestrian fencing is currently in place along the 
southwest U.S. border? What are the locations of that pedestrian 
fencing?
    Question 5b. How much vehicle fencing is in place along the 
southwest U.S. border? What are the locations of that vehicle fencing?
    Question 5c. What are your plans to complete the more than 800 
miles of southwest border fencing required by the ``Secure Fence Act?''
    Answer. As of March 6, 2009, DHS has completed 611 miles of fence 
along the southwest border (301 miles of vehicle fence and 310 miles of 
primary pedestrian fence). The border fencing is located in strategic 
locations along the southwest border from Imperial Beach, California 
through Brownsville, Texas. The pedestrian fence is located within 
Border Patrol Sectors San Diego, El Centro, Yuma, Tucson, El Paso, 
Marfa, Del Rio and Laredo and Rio Grande Valley. The vehicle fence is 
located within five Border Patrol Sectors (San Diego, El Centro, Yuma, 
Tucson and El Paso).
    Section 102 of the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996, as amended by the Secure Fence Act of 2006 
and the Consolidated Appropriations Act of 2008 requires DHS to 
construct--in the most expeditious manner possible--the infrastructure 
necessary to deter and prevent illegal entry on our southwest border, 
including pedestrian and vehicle fencing, roads, and technology. As 
amended, the Act mandates the completion of 700 total miles of fence. 
It also mandates that the Secretary identify priority areas ``where 
fencing would be the most practical and effective in deterring 
smugglers and aliens attempting to gain illegal entry into the United 
States.'' As of March 6, 2009, DHS has completed approximately 611 of 
the 661 miles of fence identified by the Border Patrol as priority 
areas. While fencing remains an important tool in achieving effective 
control, it is only one element of our overall border security strategy 
that incorporates the proper mix of technology personnel, and tactical 
infrastructure. Currently, there are no immediate funded plans to 
construct additional fencing.
    Question 6. Some persons and organizations along the border are 
philosophically opposed to a border fence. Should we give veto power 
over the placement and construction of a border fence serving the 
national interest to such local persons and organizations?
    Answer. The Department of Homeland Security's decisionmaking 
process pertaining to the placement and construction of border fence is 
directly linked to a comprehensive National Border Patrol Strategy that 
protects against and prevents terrorist attacks and other transnational 
crimes between the ports of entry. Border fence and related tactical 
infrastructure is one critical piece of this strategy that also 
requires the right complement of technology and personnel to achieve 
effective control of our Nation's borders.
    There are four main factors that DHS uses to determine fence 
location: (1) Initial Border Patrol operational assessments; (2) 
engineering assessments, which include the cost to construct; (3) 
environmental assessments; and (4) input from stakeholders. Initial 
operational assessments by Border Patrol identify locations where fence 
would provide the ``persistent impedance''--the continuous and constant 
ability to deter or delay illicit cross-border incursions--necessary to 
achieve effective control of the border. However, input from local 
communities and organizations are always considered during the planning 
process and accommodated when possible without jeopardizing operational 
integrity. These consultations with communities and stakeholders and 
the partnerships with State and local governments work toward 
minimizing the adverse impacts on the local communities. This type of 
input is critical in the fence placement decision process.
    To ensure threats and vulnerabilities are addressed, Border Patrol 
Sector Chiefs are best qualified to make informed decisions on fence 
deployment. Local persons and organizations do not have awareness of 
ever-changing law enforcement sensitive threat and vulnerability 
assessments necessary in resource deployment decisions. Based on the 
aforementioned, DHS cannot support giving veto power to external 
entities over the tactical deployment of border fence.
    Question 7. At a Homeland Security Committee hearing last year, 
Border Patrol Chief David Aguilar stated that he was ``absolutely not'' 
satisfied with the progress of virtual fence construction at the 
Project 28 site. The ``Secure Fence Act'' requires physical fencing, 
not virtual fencing. Given the enormous setbacks with the virtual 
fencing at the Project 28 site, isn't it a waste of American taxpayer 
dollars to continue to push for virtual fencing?
    Answer. Technology is an important component of border security, 
and is most certainly not a waste of American taxpayer dollars. 
Although some refer to technology as a ``virtual fence,'' technology 
does not have the persistent impedance capability of a real fence. It 
does, however, provide timely and accurate information that allows for 
more efficient determination for response requirements. Technology 
includes sensors, command and control systems, and communication 
resources, and is a powerful force multiplier with the capability to 
provide the situational awareness that is a precursor to effective 
control. Sensors can ``watch'' the border continuously, guided by 
appropriate command and control systems. These systems can also help 
sort the data coming from sensors in order to provide adequate time for 
responders to quickly access the most critical information. With 
accurate information to identify and classify illicit incursions, 
agents have many more options regarding how and when they will respond 
to the incursion. Improved communications capability also supports U.S. 
Customs and Border Protection's (CBP) response forces by ensuring 
agents can be properly directed and coordinated.
    Pursuant to Section 2(a) of the Secure Fence Act, Public Law 109-
367, 120 Stat. 2638 (October 26, 2006), the Department of Homeland 
Security (DHS) has worked to meet the requirement of providing 
``systematic surveillance of the international land and maritime 
borders of the United States through more effective use of personnel 
and technology, such as unmanned aerial vehicles, ground-based sensors, 
satellites, radar coverage, and cameras and physical infrastructure 
enhancements to prevent unlawful entry by aliens into the United States 
. . . ''. In accordance with this requirement, DHS has adopted a border 
security strategy that incorporates the effective mix of personnel, 
technology and tactical infrastructure to secure the Nation's borders. 
This approach recognizes that the most important border security assets 
are CBP's frontline personnel. To assist frontline CBP personnel with 
their border security mission, force multiplier tools, i.e. technology 
and infrastructure, are essential to improving the effectiveness and 
safety of these agents and officers.
    Question 8. So far, only 32 miles of double fencing have been built 
along the entire southern border. How many miles of double-layer 
fencing will DHS build along the border? Hasn't double-layer fencing 
been extremely effective at slowing down illegal border crossings in 
San Diego?
    Answer. Currently, DHS has no plans to erect additional double 
layer (secondary fence) along the border. Border Patrol continues to 
assess all threats and vulnerabilities at both the local and national 
levels. Secondary fence will continue to be an enforcement tool option 
in certain situations and operational environments; however, it is not 
operationally necessary--or effective--in other environments. San Diego 
Sector has experienced operational gains as a result of the deployment 
of tactical infrastructure, technology, and personnel. These are all 
components of an enforcement model that provides the U.S. Border Patrol 
with the capacity to detect, identify, classify, respond, and bring 
events to an acceptable law enforcement resolution.
                                e-verify
    Question 9a. On June 6, 2008, President Bush signed Executive Order 
12989, which directed Federal agencies to require that Federal 
contractors use E-Verify to ensure the employment eligibility of their 
employees. The final rule for implementation was published on November 
14, 2008 and was scheduled to take effect on January 15, 2009. Final 
implementation of Executive Order 12989 has subsequently been postponed 
until May 21, 2009.
    On and after May 21, 2009, will Federal contractors be required to 
use E-Verify to ensure the employment eligibility off their employees?
    Question 9b. Why did President Obama postpone the final 
implementation of the rule implementing Executive Order 12989?
    Question 9c. What, if any, changes are planned to the rule 
implementing Executive Order 12989?
    Answer. The regulations remain under review within the 
administration, but currently provide that they will become applicable 
to Federal contractors on May 21, 2009. The E-Verify program has 
invested significant resources in efforts to prepare for compliance 
with the rule.
    The administration wanted an adequate opportunity to review the 
rule before it became applicable to Federal contractors to ensure that 
the rule provisions are appropriate within the context of the new 
administration's procurement and immigration enforcement policies.
    The administration is currently reviewing the rule and will 
announce any changes to the rule once that review is completed.
    Question 10a. I am glad to see that the President's budget for 2010 
calls for dedicating $100 million for E-Verify.
    Does this signal that the new administration's commitment to the E-
Verify program?
    Question 10b. Will you ask the Senate Democrats to allow for a 
multi-year or permanent extension?
    Question 10c. How can employers engage in long-term planning if 
they do not know if E-Verify will exist a month from now?
    Answer. When I was Governor of Arizona, I signed into law a 
mandatory requirement for all employers to use E-Verify. Reducing 
unauthorized employment is crucial for controlling the problem of 
illicit migration. E-Verify holds real promise as a central element in 
effective immigration enforcement that combines border efforts with 
interior measures.
    On January 30, 2009 I issued an Action Directive on Immigration and 
Border Security that includes a request for an assessment of the E-
Verify program. I am currently reviewing that assessment.
    DHS supports reauthorization of the E-Verify program in its current 
state.
    With sufficient system improvements to guard against false 
negatives and false positives, to ensure an effective monitoring and 
compliance unit, to ensure effective outreach to the U.S. work force, 
and to address workplace rights and remedies for U.S. citizens and work 
authorized aliens, and to ensure that the Social Security 
Administration is funded and staffed to adequately process walk-ins who 
seek to correct tentative non-confirmations and to make necessary 
system upgrades, I would be open to proposals to require the use of E-
Verify by employers throughout the United States. I will work with 
agency leaders to ensure it meets those expectations as we work to 
build a reliable system ensuring that employers hire legal workers. 
Originally set to expire in 2001, E-Verify has been extended four 
times. Given its history, the fact that it is a free and easy-to-use 
system, and that an average of over 1,000 new employers sign up to use 
the system every week, it is probable that E-Verify will continue to 
exist and grow as demand for system use and capabilities increases.
    Question 11. What is the status of DHS's lawsuit against the State 
of Illinois for its statute prohibiting Illinois employers from using 
the basic pilot program?
    Answer. On March 12, 2009, the U.S. District Court for the Central 
District of Illinois granted the Federal Government's motion for 
summary judgment, declaring the Illinois statute invalid on the grounds 
that it violates the Supremacy Clause of the U.S. Constitution. The 
Court further issued a permanent injunction prohibiting the State of 
Illinois from enforcing its statute. The State of Illinois has 60 days 
to file an appeal.
                              data sharing
    Question 12. Does it frustrate you that the Social Security 
Administration and the Internal Revenue Service have information at 
their fingertips that could greatly assist DHS in enforcing our 
immigration laws and they don't, or claim that they can't, share it 
with you?
    Will you urge the administration to rewrite regulations as 
necessary to allow for the sharing of information?
    Answer.
  <bullet> The Social Security Administration has been sharing 
        information with DHS to support its immigration initiatives 
        through the Basic Pilot (E-Verify) program since the program's 
        inception, as mandated by the statute. DHS is currently working 
        with the Social Security Administration to improve this data 
        sharing initiative. We recognize that collaboration in data 
        sharing efforts could assist the Department in certain 
        immigration programs and other people screening purposes. 
        However, we must ensure that data sharing contains appropriate 
        privacy protections and redress procedures.
  <bullet> With respect to Internal Revenue Service (IRS) information, 
        USCIS would benefit from having access to certain IRS taxpayer 
        information when making immigration eligibility decisions, 
        e.g., determining whether a U.S. business sponsoring an 
        employment-based immigrant meets the requirements for financial 
        feasibility (ability to pay wages) or legitimacy (proof of 
        existence), or whether an employer registering for E-Verify is, 
        in fact, a legitimate entity. However, under Section 6103 of 
        the Internal Revenue Code, the IRS is not authorized to 
        disclose taxpayer information to USCIS absent consent from the 
        taxpayer to the IRS directly.
                    social security no-match letters
    Question 13a. On August 14, 2007, DHS published the final rule 
regarding a new process relating to Social Security no-match letters. 
The rule proposed, as a ``safe harbor'' for employers, steps to be 
taken when they receive a no-match letter from the Social Security 
Administration. The rule was to take effect on September 14, 2007, but 
litigation by the AFL-CIO and the ACLU stalled the rule's final 
implementation. In March 2008, DHS issued a supplemental rule 
addressing concerns raised by the Federal court.
    Is DHS still seeking to have the Federal court injunction against 
the regulations lifted, as was the prior administration?
    Question 13b. Does the administration plan to issue no-match 
letters to all employers with mismatches in order to alert them that 
they have submitted Social Security tax withholdings based on Social 
Security account numbers that do not match SSA records as to issued 
numbers and corresponding names? If so, when does this administration 
plan to start issuing such letters?
    Answer. Because the no-match rule is the subject of on-going 
litigation, I believe it is inappropriate to comment on it at this 
time.
              documentary requirements to board airplanes
    Question 14. The 9/11 Commission taught us that ``At many entry 
points to vulnerable facilities, including gates for boarding aircraft, 
sources of identification are the last opportunity to ensure that 
people are who they say they are and to check whether they are 
terrorists.'' Yet, DHS has not issued regulations setting forth 
documents acceptable for boarding airplanes, even though the 
Intelligence Reform and Terrorism Prevention Act required DHS to do by 
July 2005. When will DHS finally be issuing the regulations?
    Answer. Effective June 1, 2008, TSA began using a standardized list 
of acceptable identification for airline travel. At the checkpoint, 
adult passengers (18 and over) are required to show a U.S. Federal or 
State-issued photo ID (or certain forms of foreign government, tribal 
or Registered Traveler identification documents) that contains the 
following: name, date of birth, gender, expiration date and a tamper-
resistant feature. TSA established a Standard Operating Procedure for 
Transportation Security Officers (TSO) detailing the specific documents 
acceptable at TSA checkpoints for travelers seeking to enter the secure 
areas of the airport. TSA maintains a public list of acceptable 
documents on its web site (http://www.tsa.gov/travelers/airtravel/
acceptable_documents.shtm).
    The standardization of acceptable documents complements the layer 
of aviation security created when TSA assumed travel document checking 
responsibilities from airline contractors beginning in 2007. Specially 
trained TSOs are positioned in front of the checkpoint to check 
passengers' boarding passes and identification. They use black lights 
and magnifying loupes to examine security features and receive on-line, 
classroom and on-the-job training that teaches them how to recognize 
unique, fraud-prevention features embedded in Government-issued 
identification documents. The training also includes discerning 
behavioral cues and interview techniques that have proven successful in 
identifying passengers whose behavior warrants additional screening.
    Further, as of June 2008, TSA began denying entry into secure areas 
of airports to passengers who willfully refuse to provide 
identification. The change applies exclusively to individuals who 
simply refuse to provide any identification or assist TSOs in 
ascertaining their identity. It does not apply to passengers that may 
have misplaced, lost or otherwise do not have ID but are cooperative 
with officers. Cooperative passengers who cannot present an acceptable 
ID will have to provide information to the TSO in order to verify their 
identity. Passengers who are cleared through this process may also be 
subject to additional screening. TSA can deny entry in cases where it 
cannot verify the identity of a traveler.
 287(g) agreements and cooperation with state and local law enforcement
    Question 15. You only have at your disposal a few thousand ICE 
officers to enforce the immigration laws throughout our Nation. Doesn't 
the voluntary cooperation of State and local law enforcement officers 
in immigration enforcement serve as a valuable force multiplier for 
DHS?
    Answer. Yes, the voluntary cooperation and partnerships with State 
and local law enforcement agencies in 287(g) agreements allows for ICE 
to successfully use State and local officers as force multipliers in 
both detention facilities and task force settings.
    There is a growing interest of individual State and local entities 
in participating in the 287(g) program as well as congressional 
interest in assisting State and local communities in addressing border 
security and immigration enforcement issues.
    The first 287(g) agreement was signed in 2002, and as of October 
2008, participation in the 287(g) program had increased to 67 States 
and local agencies.
    Question 16. The 287(g) program was created by the Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996. If you 
look at the legislation, it provides that local law enforcement can 
enter into 287(g) agreements to assist in the ``investigation, 
apprehension, or detention of aliens in the United States.'' There is 
no statutory requirement that illegal immigrants be ``serious 
criminals'' before they can be picked up by local law enforcement, is 
there? Will you agree not to impose such an extra-legal requirement on 
local law enforcement and take this valuable and voluntary tool out of 
their hands?
    Answer. It is correct that there is no statutory requirement that 
illegal immigrants be ``serious criminals'' before they can be picked 
up by local law enforcement.
    Immigration and Customs Enforcement (ICE) values the assistance 
from 287(g) State and local partners regarding immigration enforcement; 
however ICE retains the discretion to set priorities in order to manage 
its limited resources and meet the agency's mission requirements. To 
ensure resources are managed effectively, ICE also requires its 
partnering Law Enforcement Agencies (LEAs) to also manage its resources 
dedicated to 287(g) authority under a Memorandum of Agreement (MOA) 
entered into between ICE and the State or local agency. To that end, 
the following list reflects the categories of aliens that are a 
priority for arrest and detention with the highest priority being Level 
1 criminal aliens. Resources should be prioritized to the following 
levels:
  <bullet> Level 1--Individuals who have been convicted of major drug 
        offenses and/or violent offenses such as murder, manslaughter, 
        rape, robbery, and kidnapping;
  <bullet> Level 2--Individuals who have been convicted of minor drug 
        offenses and/or mainly property offenses such as burglary, 
        larceny, fraud, and money laundering; and
  <bullet> Level 3--Individuals who have been convicted of other 
        offenses.
    Aliens who do not fall within these levels and are arrested by 
287(g) officers in the regular course of enforcing State or local law 
may be issued a Notice to Appear (NTA) before an immigration judge and 
released on their own recognizance or on bond if they are not 
determined to be a threat to safety and security of the community.
    Question 17. I received a letter from DHS stating that since the 
beginning of 2007, ICE had received 69 new applications from localities 
to enter into 287(g) agreements. Yet ICE only intended to sign 33 
memoranda of understanding because of limited funds. Does the 
administration's budget for 2010 include enough funding to allow DHS to 
enter into 287(g) agreements with all interested localities?
    Answer. Since the President's budget for 2010 has not been 
released, ICE is not in a position to comment on any 2010 budget 
request under consideration.
    The 287(g) program has received adequate funding to support the 
program to date. However, funding is not the only factor when 
considering a law enforcement agency's (LEA's) request for 
participation in the 287(g) program. ICE also must consider a number of 
other factors. First, a needs assessment must be completed. This 
assessment helps to identify which ICE program would be best suited to 
address the particular needs of an LEA.
    In December 2007, ICE created an Office of State and Local 
Coordination (OSLC), specifically to promote coordination and 
cooperation between ICE and our many State and local partners. With 
this new office, ICE hopes to develop stronger partnerships with State 
and local agencies through strategic discussions and efforts in order 
to maximize its mission of interior enforcement. As a result of the 
widespread interest in ICE's programs, particularly the 287(g) program, 
ICE has launched the Agreement of Cooperation in Communities to Enhance 
Safety and Security (ACCESS) program. ICE ACCESS provides the vehicle 
for both ICE and LEA to assess which ICE programs will provide the 
greatest overall benefit to both parties.
    The 287(g) program is not always the program best suited to meet 
the LEA's needs. In addition to the needs assessment, ICE must consider 
operational factors such as the proximity to an ICE office for 
oversight, supervision, and support, existing ICE infrastructure, 
available detention bed space, the type of criminal activity occurring 
in the LEA's area of responsibility, and the number of anticipated 
encounters with illegal immigrants. After evaluating the totality of 
those factors, a final determination is made.
                     deportation of fugitive aliens
    Question 18a. I am pleased to see that because of ICE's fugitive 
enforcement teams, the overall number of fugitive aliens has finally 
begun to decrease. However, it is still unacceptable that there are 
more than half a million alien fugitives who have been ordered deported 
by immigration judges.
    What is the purpose of even having immigration courts if so many 
deportation orders of the courts are flouted?
    Answer. U.S. Immigration and Customs Enforcement (ICE), Office of 
Detention and Removal Operations (DRO), established the first Fugitive 
Operations Team (FOT) in 2003 in an effort to reduce a fugitive alien 
backlog that had been growing by 10 percent annually. As the number of 
FOTs increased to 79 FOTs Nation-wide in fiscal year 2007, the agency 
was able to expand its efforts to locate, arrest, and remove ICE 
fugitive aliens from the United States. Consequently, the first overall 
reduction in the fugitive alien backlog occurred in fiscal year 2007. 
The backlog has continued to decrease each year. This decline reflects 
not only an elimination of old cases, but also includes efforts to 
remove individuals with newly issued deportation orders. ICE continues 
to explore strategies to reduce the fugitive population.
    Question 18b. The last administration's goal was to eliminate the 
backlog of fugitive aliens by 2012. Can you meet this goal?
    Answer. With the establishment of FOTs Nation-wide, the Nation's 
fugitive alien population declined for the first time in fiscal year 
2007 and has continued to decrease as reflected below:
  <bullet> At the end of fiscal year 2006, the fugitive alien backlog 
        was 632,726;
  <bullet> At the end of fiscal year 2007, the fugitive alien backlog 
        was 594,756;
  <bullet> At the end of fiscal year 2008, the fugitive alien backlog 
        was 557,762;
  <bullet> As of March 17, 2009, the fugitive backlog was 551,915.
    Whether the 2012 goal will be met depends on many factors such as 
the number of new fugitives added to the backlog in the coming years, 
any difficulties in locating such fugitives as well as the length of 
time it takes for a country to agree to accept the alien.
    Question 18c. Will you continue to seek the removal of all fugitive 
aliens with orders of deportation, not just those who have committed 
additional criminal offenses?
    Answer. Yes. It is ICE/DRO Policy that Fugitive Operation Teams 
prioritize cases according to the following standards: (I) Fugitives 
that pose a threat to national security; (II) Fugitives that pose a 
threat to the community; (III) Fugitives convicted of violent crimes; 
(IV) Fugitives with criminal records; and (V) Fugitives that are non-
criminals.
    The fugitive operation teams enforcement operations are planned 
according to these criteria.
    Question 18d. Will you continue to have ICE arrest, and not simply 
ignore, illegal immigrants with whom they come into contact while 
searching for fugitive aliens?
    Answer. During the course of targeted operations, FOTs often 
encounter other people in the presence of the ICE fugitive FOTs are 
attempting to arrest. When appropriate, ICE agents and officers engage 
these aliens in consensual encounters to determine alienage. If ICE 
takes an enforcement action against a non-fugitive alien, ICE officers 
exercise prosecutorial discretion on a case-by-case basis.
                       temporary protected status
    Question 19. It has become all too apparent that past 
administrations have used temporary protected status as a de facto 
amnesty for illegal immigrants from certain Central American countries. 
TPS status was granted to Honduran and Nicaraguan nationals at the end 
of 1998, following Hurricane Mitch. The last administration extended 
TPS numerous times, long after any temporary dislocations caused by the 
hurricane have long since ended. Will DHS under your leadership 
continue to abuse temporary protected status in this way?
    Answer. Temporary Protected Status (TPS) is a form of immigration 
relief that I have the discretion to apply only insofar as conditions 
in a country meet the statutory requirements delineated in the 
Immigration and Nationality Act under  244. I take very seriously 
Congress's intent, which is supported by the clear language of the 
statute, for TPS to serve as a temporary immigration status to protect 
nationals of designated foreign states in the United States who are 
unable to return to their home country in safety. In order to preserve 
the integrity of TPS as a viable form of temporary relief, the 
designation must only be granted or extended where appropriate.
                            sanctuary cities
    Question 20. On December 19, 2002, a 42-year-old mother of two was 
abducted and forced by her assailants into a hideout near some railroad 
tracks in Queens, New York. She was brutally raped before being rescued 
by a New York Police Department canine unit. The NYPD arrested five 
aliens in connection with that assault. Four of those aliens entered 
the United States illegally. Three of those four had extensive arrest 
histories in New York City. Despite the criminal histories of the 
aliens, however, the NYPD did not inform the INS about these aliens 
until after the December 19 attack. The only reason that the three 
illegal immigrants were in the United States, despite their extensive 
arrest histories, was because New York police officers had been barred 
by New York's ``sanctuary city'' policy from contacting the INS. Do you 
believe that sanctuary city policies have enhanced or reduced the 
safety of American citizens?
    Answer. It is important for Federal, State, and local governments 
to work together to facilitate effective immigration enforcement and to 
reinforce the rule of law. These are legitimate concerns for both 
jurisdictions. I look forward to working with the White House, other 
departments and agencies, the Department's senior leaders, Congress, 
local and State elected officials, and law enforcement officials to 
develop and implement an appropriate division of labor toward these 
ends, while promoting the exchange of information required to ensure 
that criminal aliens are prosecuted and removed from this country, and 
recognizing that immigration enforcement is a Federal responsibility.
    Question 21. The Illegal Immigration Reform and Immigration 
Enforcement Act of 1996 bars State and local officials from prohibiting 
any of their employees from sending to DHS information regarding the 
citizenship or immigration status of any individuals. Despite this ban, 
many ``sanctuary cities'' in fact prohibit their law enforcement 
agencies from providing the names of suspected illegal immigrants to 
DHS. Do you believe that these sanctuary cities should be allowed to 
violate Federal law?
    Would you consider denying funding to communities that violate the 
clear, unambiguous provisions of Federal law?
    Answer. Section 642(a) of the Illegal Immigration Reform and 
Immigration Enforcement Act of 1996, which is codified at 8 U.S.C.  
1373(a), prohibits a local Government from restricting any entity or 
official of that local government from communicating with DHS regarding 
the immigration status of any individual. I am advised by the DHS 
Office of the General Counsel that the Department does not have the 
legal authority to cut off all DHS funds to a city if the city violates 
Section 642(a) or if the Department otherwise disagrees with the city's 
policy on immigration.
  issuance of visas to nationals of countries that do not accept the 
                       return of their nationals
    Question 22. DHS cannot deport more than 100,000 deportable aliens, 
many of them criminals, because their countries refuse to take them 
back. Your own Inspector General acknowledges that this problem has 
created ``a mini-amnesty program'' and reports that ``thousands of 
criminal aliens with final orders are released because of the 
unwillingness of some countries to [accept back their nationals]''. The 
Immigration and Nationality Act requires the Secretary of State to stop 
issuing visas to all nationals of countries that you determine have 
refused or delayed the return of their deported nationals. Yet, 
previous Secretaries of Homeland Security have never carried out the 
responsibility under this provision. Do you plan to exercise your 
authority to enhance Americans' safety?
    Answer. Discontinuing the issuance of visas to any foreign country 
is a powerful tool with major foreign policy implications. Before 
considering discontinuance, I would consult extensively with the 
Secretary of State to determine whether there are other tools that 
could overcome repatriation problems more effectively.
                             border patrol
    Question 23. It has been alleged that Border Patrol agents are told 
by their superiors to cease making apprehensions after they have 
reached a daily quota. Is there any truth to these allegations?
    Answer. The United States Border Patrol does not operate under a 
quota, and there are no plans to do so in the future. No set number of 
apprehensions is mandated.
                     detention of dangerous aliens
    Question 24. The Supreme Court has ruled that under current law, 
aliens ordered removed cannot be detained for more than 6 months if for 
some reason they cannot be removed. Based on this decision, DHS has had 
no choice but to release back onto the streets many hundreds of 
criminal aliens. Jonathan Cohn, former Deputy Assistant Attorney 
General, has testified that ``the government is [now] required to 
release numerous rapists, child molesters, murderers, and other 
dangerous illegal aliens into our streets . . . [V]icious criminal 
aliens are now being set free within the United States.'' The House of 
Representatives twice passed legislation in the 109th Congress allowing 
for the continued detention of dangerous aliens and to keep them off 
the streets of our communities. Will you call for Congress to pass such 
legislation?
    Answer. On January 30, 2009, I issued an Action Directive on 
immigration and border security that requested a review of the 
Department's immigration detention policies. (Additionally, on February 
4, 2009, I announced the appointment of Dora Schriro as Special Advisor 
on Detention and Removal Operations at ICE.) DHS will be taking a 
comprehensive look at all aspects of detention policy, including the 
issue of detention of aliens with final orders of removal, to assess 
current conditions and devise and implement strategies that will bring 
about substantive improvements to the system.
                         affidavits of support
    Question 25. The Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996 requires that U.S. citizens or permanent 
residents sponsoring family members for immigrant visas sign legally 
binding affidavits of support enforceable against the sponsor for the 
cost of any means-tested public benefits provided to an alien. The Act 
mandates that ``the appropriate entity of the Federal Government . . . 
shall request reimbursement by the sponsor.'' Unfortunately, DHS has 
never set up a mechanism to ensure that American taxpayers are 
reimbursed. American taxpayers continue to be abused by sponsored 
aliens receiving unreimbursed public benefits. Will you set up the 
required mechanisms to ensure that sponsors are held to their 
commitments?
    Answer.
  <bullet> The Affidavit of Support, Form I-864, submitted by a 
        sponsoring U.S. citizen or lawful permanent resident, is a 
        requirement, in most cases, to establish eligibility for a 
        family-based immigrant visa. The sponsor must be able to 
        demonstrate that he or she has income of at least 125 percent 
        of the applicable Federal poverty guidelines. In the event that 
        the sponsor cannot meet such an income requirement, a joint 
        sponsor, who is a U.S. citizen or lawful permanent resident, 
        may also submit an affidavit of support. Section 213A of the 
        Immigration & Nationality Act requires that the affidavit of 
        support be a legally enforceable contract between the sponsor 
        and the foreign national. Also, the Act requires that the 
        affidavit of support be a legally enforceable contract between 
        the sponsor and any Federal or State agency that may provide 
        means-tested public benefits to the sponsored immigrant.
  <bullet> The affidavit of support is a legally binding contract, and 
        the sponsored immigrant and any public agencies dispensing 
        means-tested benefits to the immigrant may sue the sponsor for 
        failure to meet the obligations assumed under it. Forms I-864A 
        signed by household members are also legally enforceable 
        contracts, and sponsors can sue to enforce those contracts. 
        Upon notification that a sponsored alien has received 
        designated means-tested benefits, the Federal, State, or local 
        entity that has provided the public benefit shall request 
        reimbursement from the sponsor for an amount equal to the cost 
        of the benefit. If the sponsor does not respond to the request 
        in 45 days, the agency may sue the sponsor in a Federal or 
        State court. There is a 10-year limit on actions to obtain 
        reimbursement.
  <bullet> Since the statute already authorizes public agencies to sue 
        the alien's sponsor for reimbursement of means-tested benefits, 
        DHS does not see a need at this time to create additional 
        mechanisms for public agencies to obtain reimbursement.
                       immigration detention beds
    Question 26. It is well known that illegal immigrants who are not 
detained rarely show up for their deportation proceedings. The 
Department of Justice's Inspector General found that the INS was only 
able to remove 13 percent of nondetained aliens with final orders of 
removal, and only 6 percent of nondetained aliens from State sponsors 
of terrorism who had final removal orders. Your own agency admits that 
it will need over 33,000 detention beds just to detain and remove all 
criminal aliens incarcerated in State and local jails. Congress in the 
Intelligence Reform and Terrorism Prevention Act of 2004 authorized an 
increase in the number of immigration detention beds of 8,000 a year. 
The past administration never budgeted for anywhere near this number of 
additional detention beds.
    What increase in immigration detention beds will be in the 
President's 2010 budget?
    Answer. Since the President's budget has not been released, it 
would be premature to comment on a 2010 budget request.
    Question 27. The DHS Inspector General has reported that the lack 
of adequate detention space limits the effectiveness of the fugitive 
operations teams. In fact, ``a field office director reported ceasing 
fugitive operations for 6 weeks because of insufficient bed space and 
another manager reported slowing team operations for the same reason . 
. . Another supervisor indicated that a lack of adequate detention 
space is the team's biggest limitation.'' Isn't this another reason why 
all the detention beds authorized in the Intelligence Reform and 
Terrorism Prevention Act should be funded?
    Answer. Neither the Office of Detention and Removal Operations' 
(DRO) field offices nor the National Fugitive Operations Program (NFOP) 
have imposed a moratorium on fugitive enforcement activity. The 
individuals that are targeted for arrest by the Fugitive Operations 
Teams (FOTs) have been ordered removed and most are detained in ICE 
custody until their removal from the United States can be affected.
    Question 28. So-called ``alternatives to detention'' simply do not 
work. Do you know that even under the highly touted Intensive 
Supervision Appearance Program'', one-third of the ``supervised'' 
aliens who are ordered deported flout their deportation orders?
    Answer. Immigration and Customs Enforcement (ICE), Office of 
Detention and Removal Operations (DRO) created the Alternatives to 
Detention (ATD) Program in fiscal year 2002. The goal of the ATD 
program is to develop and implement programs to improve aliens' 
compliance with conditions of release, including their attendance at 
immigration hearings and compliance with final court orders. These 
programs have already shown tremendous promise in improving 
accountability for aliens in removal proceedings, while helping the 
agency to use detention space more efficiently for aliens who require 
detention.
    Currently, within the Intensive Supervision Appearance Program 
(ISAP) there is a maximum participant limit of 6,000. More than 5,700 
aliens are actively participating in this program as a condition of 
release from custody. Since inception, ISAP has served over 12,300 
participants.
                           expedited removal
    Question 29. The Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996 created the mechanism of ``expedited 
removal.'' Because of the success of expedited removal, our 
international airports are no longer being deluged with aliens without 
documents. The 1996 act provided the administration with the authority 
to utilize expedited removal in the case of any alien who had entered 
the United States illegally and had not been present here for 2 years. 
Until recently, the INS and DHS had never made use of this power. In 
the last 2 years, however, DHS has taken a tentative step toward using 
expedited removal along the southern border. Will you use the full 
authority given to you by Congress to use expedited removal against all 
aliens who have entered illegally and have been here less than 2 years?
    Answer. Expedited Removal (ER) is currently applied to aliens at 
ports of entry and aliens encountered within 100 miles of the border 
and within 14 days of their unlawful entry. Although Immigration and 
Nationality Act  235(b)(1)(A)(iii), 8 U.S.C.  1225(b)(1)(A)(iii) 
(1996) provides statutory authority for Nation-wide implementation of 
ER to all aliens encountered within 2 years of unlawful entry, the 
initial regulation applying ER in practice limited its scope to 
arriving aliens only, reserving the right to expand this application 
through the issuance of further regulations. 62 F.R.  10312 (March 6, 
1997). Two subsequent regulations were issued that expand the scope of 
ER; however, the full scope of statutory authority has not yet been 
implemented. DHS continues to examine the expansion of ER.
                  western hemisphere travel initiative
    Question 30. In 2003, the Immigration Subcommittee held a hearing 
that examined D.C. sniper John Muhammad's smuggling activities between 
the Caribbean and the United States. Muhammad was able to make his 
living by providing bogus American identification documents such as 
driver's licenses and birth certificates to aliens seeking to 
impersonate U.S. citizens and get through U.S. ports-of-entry. It is no 
wonder that the 9/11 Commission found that ``Americans should not be 
exempt from carrying biometric passports or otherwise enabling their 
identities to be securely verified when they enter the United States.'' 
Do you believe it is important that DHS implement the Western 
Hemisphere Travel Initiative by the June 2009 deadline so that these 
abuses can no longer take place?
    Answer. The Western Hemisphere Travel Initiative (WHTI) Land and 
Sea requirements will go into effect on June 1, 2009, the earliest day 
allowed by law. WHTI requires U.S. and Canadian citizens to present a 
single, secure document that denotes identity and citizenship.
    WHTI will strengthen border security by improving the ability to 
confirm identity and citizenship while facilitating border crossing for 
legitimate travelers. The 9/11 Commission noted that for terrorists, 
travel documents are as important as weapons. By requiring secure 
documents to enter the United States, the Department of Homeland 
Security will make it harder for people to use fraudulent credentials 
to cross our borders, and we will make it easier for our border 
officers to separate real documents from fake, enhancing our security 
and ultimately speeding up processing.
    WHTI increases traveler facilitation by requiring certain documents 
designed for land border include vicinity radio frequency 
identification (RFID) technology. RFID technology allows traveler 
information to be pre-positioned for the border officer and queried via 
law enforcement databases as a vehicle approaches primary inspection at 
land ports of entry. It also facilitates our ability to verify 
automatically many of the documents presented with their issuing 
agency. Border officers will be able to determine if the individual in 
front of them is the person depicted on the document, and if that that 
is the identity to whom the original document was issued.
    Vicinity RFID technology conforms with DHS's future vision of the 
border in a way that meets our national security needs, our economic 
imperatives, and the public's trust.
                              2010 census
    Question 31. It has been reported that the Census Bureau will ask 
DHS to suspend enforcement of the immigration laws in 2010 during the 
taking of the census. Does DHS have any plans to stop enforcing the 
immigration laws in 2010?
    Answer. DHS is aware of the enormous challenges faced by the Census 
Bureau, particularly in counting non-citizens, both documented and 
undocumented, residing in the United States. DHS plans to consult with 
the Census Bureau regarding the most appropriate ways in which the 
Department and the Bureau can cooperate to make the taking of the 2010 
census as efficient and accurate as possible.
                            citizenship usa
    Question 32. Citizenship USA was the Clinton Administration's 
politically motivated project to rush through the naturalization of 
hundreds of thousands of aliens in time to vote in the 1996 elections. 
This program led to a debacle in which about 180,000 aliens were 
naturalized without having undergone FBI criminal history records 
checks, resulting in the naturalization of an unknown number of people 
who had potentially disqualifying criminal records. Do you agree that 
DHS shouldn't respond to the current naturalization caseload backlog by 
repeating the sorry history of Citizenship USA?
    Answer.
  <bullet> In the summer of fiscal year 2007, there was a sudden surge 
        of naturalization applications. The fee increase that went into 
        effect in July 2007 was one cause of the surge, as some 
        applicants chose to file their applications and petitions 
        before the fee increase took effect. Filings of naturalization 
        applications more than doubled in June, and in July 
        naturalization filings were about eight times normal monthly 
        receipts.
  <bullet> USCIS developed a plan to deal with the surge of 
        applications within 2 years, by the middle of fiscal year 2010. 
        As a result, during fiscal year 2008 USCIS increased the 
        Adjudications Officer work force by 1,199; completed more than 
        1.17 million naturalization applications (up more than 50 
        percent from fiscal year 2007); and reduced naturalization 
        application processing times to 9-10 months, down from the 16-
        18 months projected after the surge of applications in late 
        fiscal year 2007. During fiscal year 2009, USCIS plans to 
        achieve a 5-month processing time for naturalization 
        applications (N-400's).
  <bullet> Throughout this process of reduction of processing times all 
        appropriate security checks have been and continue to be 
        performed on benefits applicants. Security checks will not be 
        compromised for the sake of expediency. Indeed, all required 
        security checks noted below must be completed before a 
        naturalization applicant is scheduled for an interview.
    <bullet> The Interagency Border Inspection System (IBIS) Name 
            Check--IBIS combines information from multiple agencies, 
            databases and system interfaces to compile data relating to 
            national security risks, public safety issues and other law 
            enforcement concerns.
    <bullet> FBI Fingerprint Check--The FBI fingerprint check provides 
            information relating to criminal background within the 
            United States. Generally, the FBI forwards responses to 
            USCIS within 24-48 hours. If there is a record match, the 
            FBI forwards an electronic copy of the criminal history to 
            USCIS. In cases involving arrests or charges without 
            disposition, USCIS requires the applicant to provide court-
            certified evidence of the disposition. Even expunged or 
            vacated convictions must be reported for immigration 
            purposes.
    <bullet> FBI Name Check--The records consulted in the FBI name 
            check process consist of administrative, criminal, 
            personnel and other files compiled by law enforcement. Even 
            after FBI has provided an initial response to USCIS 
            concerning a match, the name check is not complete until 
            full information is obtained and eligibility issues arising 
            from it are resolved.
                                real id
    Question 33a. The ``REAL ID Act'' requires that in order for a 
State's drivers' licenses and identification cards to be used for any 
Federal Government ``official purpose,'' the cards must comply with the 
standards set forth in REAL ID. Those standards are designed to prevent 
fraudulent use of the card including its use for identity theft and to 
establish false identities.
    Final compliance regulations were issued on January 11, 2008. The 
final rule allows a State to be considered REAL ID compliant if, by May 
11, 2008, the State has: (1) Requested and obtained an extension of the 
compliance date from DHS; or (2) have been determined by DHS to be in 
compliance with the REAL ID Act and the final rule.
    How many States are currently in compliance with REAL ID? Please 
list those States.
    Question 33b. How many, and which, States have indicated their 
intention to comply with REAL ID?
    Question 33c. How many, and which, States have indicated their 
intention not to comply with REAL ID? What steps is the administration 
taking to ensure that the States that have not yet indicated plans to 
comply with REAL ID will comply?
    Answer. All U.S. States and Territories have been granted an 
extension until December 31, 2009, to meet the material compliance 
requirements of the REAL ID Regulation. Forty-eight jurisdictions 
sought and received grant funding to assist their efforts to improve 
their driver's licenses consistent with REAL ID requirements in fiscal 
year 2008.
    The REAL ID ACT is not a mandatory program; it is a voluntary 
program. As we have not yet reached the material or full compliance 
deadlines and every State has been granted an extension, it is 
difficult to quantify the number of States that will be compliant with 
the REAL ID ACT by the required compliance deadlines.
    Department of Homeland Security staff are in regular contact with 
numerous States that have publicly stated they are near materially 
compliant or are working to become materially compliant by December 31, 
2009. A number of States have passed laws prohibiting compliance with 
the REAL ID Act. Some States have enacted laws authorizing compliance.
    The goal, however, is improvement of the security of driver 
licenses and identifications. To the end, DHS has provided $140 million 
in grant funding to assist State efforts to improve the integrity and 
security of their processes consistent with REAL ID requirements. Also, 
DHS allows States to use up to 20 percent of its State Homeland 
Security Grant Program funds for REAL ID. Further, Congress provided 
$50 million in fiscal year 2009 funding to build an information sharing 
hub that will be operated by the States and assist them in meeting the 
verification requirements of the Act. Specifically, this ``hub'' will 
allow a State to share data with other States as well as verify 
information against Federal databases.
    Question 34. I know that as Governor of Arizona, you were concerned 
about the cost to States of implementing REAL ID. Will DHS's 2010 
budget include funds to help States with the costs of compliance?
    Answer. For fiscal year 2008 and 2009 the Department of Homeland 
Security (DHS) is providing $140 million in grant funding to assist 
States' effort to improve the integrity and security of their driver's 
license and identification card processes to become consistent with 
REAL ID requirements. An additional $50 million in fiscal year 2009 
funding will go toward the development of an information sharing hub 
that will be operated by the States and help them meet the verification 
requirements of the Act. Specifically, this ``hub'' will allow a State 
to share data with other States as well as verify information against 
Federal databases.
    In fiscal year 2008, DHS informed States they could use up to 20 
percent of State Homeland Security Grant Program funds to implement 
REAL ID requirements. The fiscal year 2010 budget is being refined 
within the administration.
    Question 35. What statutory changes, if any, do you plan to seek 
for REAL ID? Do you have any intentions of modifying REAL ID to allow 
States to issue regular drivers' licenses to illegal immigrants?
    Answer. The National Governors Association (NGA) established a 
working group in which the Department of Homeland Security is 
participating to make legislative recommendations for a workable path 
forward.
    There is nothing in the REAL ID Act that prohibits a State from 
issuing non-REAL ID compliant driver's licenses to illegal immigrants. 
The lawful presence provision only applies to driver's licenses issued 
in compliance with the REAL ID Act and does not infringe on a States' 
right to issue driver's licenses to individuals they determine to be 
qualified.
                         ``catch and release''
    Question 36. One of the most important achievements of DHS over the 
past few years has been the elimination of the practice of catch and 
release of non-Mexicans picked up at the southern border. Can you 
assure me that catch and release will not resume?
    Answer. DHS has implemented a number of programs to reduce the flow 
of undocumented aliens into the United States.
    Since the implementation of the Secure Border Initiative (SBI) in 
November 2005, U.S. Immigration and Customs Enforcement (ICE) has 
effectively ended ``catch and release'' for all nationalities along the 
southern (U.S./Mexico) and northern (U.S./Canada) borders. This was 
accomplished by increasing efficiencies within the immigration removal 
process by:
  <bullet> Rapidly expanding detention facility capacity;
  <bullet> Modifying a U.S. District Court injunction from the 1980's 
        so that Expedited Removal could be fully implemented at the 
        border;
  <bullet> Reducing the time required to remove aliens; and,
  <bullet> Increasing use of DRO air transportation provided via ICE 
        leases, charters, and the Justice Prisoner and Alien 
        Transportation System (JPATS).
    Efforts to maximize detention capacity have included working 
closely with the Department of State and foreign governments to 
streamline ICE repatriation efforts. ICE has made technological 
advances, such as Video Teleconferencing (VTC) and the Electronic 
Travel Document (eTD) program, available to foreign governments to 
facilitate their issuance of travel document used in the removal 
process, further increasing the efficiency of this process while 
minimizing the length of stay in detention.
    Additionally, ICE has created the Detention Operations Coordination 
Center (DOCC). The DOCC transfers detainees from field office 
jurisdictions with detention capacity shortages to jurisdictions with 
surplus capacity, thus ensuring that aliens subject to removal 
proceedings are not released solely due to lack of bed space.
    ICE has added significant resources in support of the Criminal 
Alien Program (CAP) and the National Fugitive Operations Program 
(NFOP). The CAP, a cooperative effort with the Executive Office for 
Immigration Review (EOIR), within the Department of Justice, and 
participating Federal and State correctional agencies, ensures that all 
aliens serving criminal sentences are processed for removal prior to 
their release from Federal, State and local custody. This greatly 
decreases the detention time criminal aliens are in ICE custody. 
Important to the success of the CAP is EIOR's ability to complete 
immigration proceedings for criminal aliens while they are still 
serving their sentences in prison for criminal convictions. The NFOP 
implements interior enforcement initiatives that apply an organized and 
methodical approach to the identification, location and arrest of ICE 
fugitive aliens.
    In addition to these efforts Border Patrol has reported that 
increased enforcement resources have resulted in a decrease in 
apprehensions of almost 20 percent. This administration has resources 
to continue these programs that are in place today and does not foresee 
the return of ``catch and release''.
                                us-visit
    Question 37. How can we possibly solve the illegal immigration 
problem when there is no system in place to track whether or not people 
who enter the country on visas ever leave the country when those visas 
expire?
    Answer. The Department of Homeland Security (DHS) respectfully 
disagrees that there is no system in place to track people who enter 
the United States on visas but whose visas have expired before they 
leave the country (referred to as overstays). DHS has invested 
significantly in the recording and matching of biographic exit 
information (which covers all aliens departing by air and sea), as well 
as the analysis and determination based on those records of individuals 
who have overstayed the terms of their admission.
Biographic Exit
    DHS' US-VISIT program electronically receives biographic 
information on individuals who have departed the United States from air 
and sea carrier manifests. This information is matched to entry records 
and changes to immigration status in the Arrival Departure Information 
System (ADIS). After analysis, US-VISIT shares information on alien 
overstays with the Department of State (DOS), U.S. Customs and Border 
Protection (CBP), U.S. Citizenship and Immigration Services, and U.S. 
Immigration and Customs Enforcement (ICE) for further action concerning 
visa renewals, future admissibility into the United States, and 
interior enforcement.
    In fiscal year 2008, US-VISIT provided overstay information to DHS 
components and DOS that assisted:
  <bullet> ICE agents in the apprehension of 715 immigration violators 
        (individuals who overstayed the terms of their admission);
  <bullet> CBP officers in the interception of 891 immigration 
        violators attempting to re-enter the country at ports of entry; 
        and,
  <bullet> DOS officials in denying visas to 550 visa applicants at 
        U.S. consulates.
    ADIS data are also used to support national security and Federal 
law enforcement agencies for criminal investigations, as well as DOS 
visa-validation studies and visa revocations.
    DHS is also making strides toward implementation of biometric exit. 
DHS published a notice of proposed rulemaking on April 24, 2008, for 
the implementation of air/sea biometric exit. Pursuant to the direction 
provided in the fiscal year 2009 Appropriations Act, DHS will be 
conducting additional air pilots later this year. In addition, DHS also 
published regulations last year describing an upcoming land border 
biometric exit pilot for H2 visa holders. The information from these 
pilots will be used to inform the administration's decisions for how 
best to proceed toward implementation. We look forward to working with 
the committee on this important issue.
    Question 38. Will your 2010 budget include funds for the 
implementation of exit procedures at land ports of entry?
    Answer. The fiscal year 2010 budget is still being finalized by the 
administration. As soon as the President's fiscal year 2010 budget is 
released and provided to Congress, we will be happy to brief you and 
your staff on the DHS request.
                         bomb prevention office
    Question 39. In February 2009, the House passed H.R. 549, the 
National Bombing Prevention Act of 2009. The Act establishes an Office 
for Bombing Prevention (OBP) at DHS and gives it responsibility to 
combat and respond to terrorist explosive attacks in the United States. 
The Department of Justice had expressed concerns about a previous 
version of this bill because the responsibilities and efforts of OBP 
would appear to overlap with and duplicate the work of the Bureau of 
Alcohol, Tobacco, Firearms, and Explosives and the Federal Bureau of 
Investigation in this area. If this bill passes the Senate and becomes 
law, what steps will DHS take to ensure there is no duplication of 
Federal efforts to combat and prevent the terrorist explosive attacks 
and to minimize inter-agency jurisdictional disputes?
    Answer. Homeland Security Presidential Directive 19 (HSPD-19) 
establishes that it is the policy of the U.S. Government to ``counter 
the threat of terrorist explosive attacks aggressively by coordinating 
Federal, State, local, territorial, and Tribal government efforts and 
collaborating with the owners and operators of critical infrastructure 
and key resources to deter, prevent, detect, protect against, and 
respond to explosive attacks . . . ''. HSPD-19 directs that Federal 
efforts to combat terrorist use of explosives are the responsibility of 
multiple agencies, while the Directive and its subsequent 
Implementation Plan lay out the individual responsibilities of those 
agencies to prevent duplication and inter-agency jurisdictional 
disputes.
    The Office for Bombing Prevention (OBP) is part of the Department 
of Homeland Security's Office of Infrastructure Protection within the 
National Protection and Programs Directorate, and its primary focus 
area is the protection of the Nation's critical infrastructure and key 
resources from terrorist explosive attacks. This critical 
infrastructure protection mission is unique to DHS. OBP has three 
avenues of effort: coordination of DHS and certain national efforts; 
gap analysis of counter-explosives capabilities; and information 
sharing with State and local responders, and the private sector. OBP 
works as the national coordinator at DHS to help ensure that there is 
no duplication or inter-agency disputes. OBP staff includes senior 
detailees from both the Federal Bureau of Investigation (FBI) and the 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) to assist in 
daily coordination of DHS and DOJ activities.
                      ammonium nitrate regulations
    Question 40. In December 2008, the Department of Homeland Security 
announced new plans to regulate the selling and purchasing of Ammonium 
Nitrate (AN), which can be used as an explosive. Under current Federal 
law, the Department of Justice is authorized to regulate commerce and 
investigate unlawful activities involving explosives--a duty the 
Attorney General has delegated to the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives (ATF). Pursuant to that authority, ATF 
regulates and inspects approximately 12,000 explosives licensees and 
permittees, including those entities that use AN as explosives. 
Considering the role that ATF already plays in regulating AN, what step 
will DHS take to ensure that its new AN regulations will not result in 
redundant Federal inspection activities, unnecessary expense to the 
taxpayer, and additional burdens to the explosives industry? What steps 
will DHS take to ensure that its new authority is actually useful in 
preventing AN from falling into the wrong hands through theft, 
diversion, or lawful means at every stage of the supply chain?
    Answer. Section 563 of the 2008 Consolidated Appropriations Act 
(``Section 563''), Congress requires the Department of Homeland 
Security to ``regulate the sale and transfer of ammonium nitrate (AN) 
by an AN facility . . . to prevent the misappropriation or use of AN in 
an act of terrorism.'' To design regulations that effectively 
accomplish Section 563's mission, the Department has established an AN 
Task Force to evaluate the various potential approaches to 
accomplishing the activities required by Section 563, such as 
registration and screening of buyers and sellers of AN, and seller 
verification of identity and authorization to purchase of prospective 
buyers of AN.
    To help gather information necessary to properly evaluate the pros 
and cons of the various potential approaches, the AN Task Force will 
continue to work with Federal and private-sector security partners and 
will engage State and local groups as well. To date, the AN Task Force 
has conferred with members of the Department's Office of Bombing 
Prevention and the Department's Screening Coordination Office; an 
explosives expert from the Federal Bureau of Investigation; the U.S. 
Department of Agriculture; and the Bureau of Alcohol, Tobacco, Firearms 
and Explosives (ATF). In the near future the AN Task Force also plans 
to engage representatives from numerous State and local agriculture and 
homeland security offices, and representatives from industry 
associations representing the agricultural and explosives communities.
    The AN Task Force is making a particularly concerted effort to 
coordinate with ATF in light of ATF's regulatory authority to ensure 
that the Department's regulations are complementary to, and not 
redundant with, ATF regulations. Specifically, the Department is 
working to learn more about specific aspects of ATF's explosives 
regulatory program (such as inspection protocols, reporting 
requirements, mixture rules, and recordkeeping requirements). This 
consultation and analysis will inform the Department's decisionmaking 
process as the regulations are developed, and will prevent redundant 
activities and minimize the burden of any new regulations on the 
explosives industry.
    Question From the Honorable Gus M. Bilirakis of Florida for the 
 Honorable Janet Napolitano, Secretary, Department of Homeland Security
    Question 1a. In your Senate testimony prior to your confirmation, 
you noted that there is a balance that needs to be struck between the 
security implications of the Visa Waiver Program and its potential 
public diplomacy benefits.
    Would you please elaborate on that statement and share with us your 
view of whether, on balance, you believe VWP helps or hinders our 
Nation's security efforts?
    Question 1b. Do you plan to pursue efforts by the previous 
administration to expand the number of participating countries?
    Answer. The modernized VWP supports U.S. security and law 
enforcement interests, deepens bilateral cooperation, strengthens the 
U.S. economy, and contributes to a safer international travel 
environment for our citizens and those of our VWP allies. The security 
and law enforcement implications of permitting foreign nationals from 
selected countries to travel to the United States visa-free remain 
paramount, but DHS properly takes into account both public diplomacy 
efforts and the overall bilateral relationship with a member or 
aspirant country when making VWP decisions.
    The information-sharing agreements required by the 9/11 Act, in 
particular, provide U.S. Government personnel with new tools to secure 
our borders and help prevent terrorist and criminal activities in the 
United States and in VWP partner nations. Additionally, the Electronic 
System for Travel Authorization, required of all VWP travelers as of 
January 12, 2009, allows for screening of passengers on an individual 
basis prior to travel to the United States. DHS is committed to 
ensuring that VWP members meet these enhanced security standards.
    DHS and the Department of State (DOS) work closely together to 
communicate and explain VWP initiatives and requirements to ensure that 
our foreign partners are well informed. DHS, in consultation with DOS, 
will continue to work with valued allies not currently in the program 
to determine whether VWP admission is possible in the future. Any 
decision to expand the program further would be taken after a careful 
and comprehensive analysis of U.S. interests and that country's ability 
to meet the statutory requirements for membership. There are issues 
specific to each country interested in being included in the Visa 
Waiver Program, including security and policy considerations, that must 
be addressed on a case-by-case, bilateral basis.
 Questions From the Honorable Steve Austria of Ohio for the Honorable 
      Janet Napolitano, Secretary, Department of Homeland Security
    Question 1. In your testimony, you mentioned your directive for an 
assessment of DHS's critical role in cybersecurity. The interests of 
DOD and DHS are closely tied when it comes to cybersecurity and each 
are conducting their own measures in fighting this threat. In some 
instances, their jurisdictions in dealing with cyber threats overlap; 
what are your thoughts on how we ensure that we have effective 
coordination and don't allow this overlap to cause a very serious 
threat to fall between the cracks?
    Answer. The Department of Homeland Security (DHS) agrees that its 
interests are closely tied to those of the Department of Defense (DOD) 
when it comes to cybersecurity. DHS's National Cyber Security Division 
(NCSD) focuses on cybersecurity with respect to non-national security 
system sectors of the Federal Government, as well as critical 
infrastructure and key resources (CIKR) sector networks. In pursuit of 
its mission, NCSD works with Federal departments and agencies, State 
and local governments, the private sector, academia, and international 
partners. DOD is responsible for securing its own networks and the 
Federal Government's classified and national security networks. As the 
Defense Industrial Base's (DIB) Sector-Specific Agency under the 
National Infrastructure Protection Plan (NIPP) partnership framework, 
DOD is also responsible for working with DIB private-sector partners on 
cybersecurity and physical security matters.
    In executing their cybersecurity missions, DHS and DOD encounter 
common threats and vulnerabilities to public- and private-sector 
critical information infrastructure. In addition, both Departments are 
cognizant of the interdependencies among the CIKR sectors upon which 
government and private-sector operations are dependent. DHS and DOD 
continue to enhance their relationships and continue efforts to 
maintain sufficient coordination mechanisms designed not only to 
preclude missing cyber threats and vulnerabilities but also to mutually 
support and enhance the cybersecurity of Federal departments and 
agencies, State and local governments, the private sector, and 
international partners.
    Several cybersecurity policy planning and coordination mechanisms 
are used by DHS and DOD to improve the protection and preparedness of 
Federal Government and CIKR sector networks. DHS and DOD also 
coordinate on operational matters, such as threat and vulnerability 
information sharing, cyber incident response, and the dissemination of 
mitigation strategies.
    From an operations perspective, NCSD's United States Computer 
Emergency Readiness Team (US-CERT) has programs and processes in place 
to facilitate communications with departments and agencies, including 
DOD (e.g., Government Forum for Incident Responders and Security Teams, 
weekly Federal coordination calls, and the National Cyber Alert 
System). US-CERT leverages information and lessons learned to assist 
agencies in better understanding the current impact of the threat 
against the Federal Government networks on a classified level. The 
Joint Agency Cyber Knowledge Exchange (JACKE) Program promotes sharing 
and dissemination of knowledge across the entire Federal cybersecurity 
community. The JACKE Program provides a biweekly interactive forum for 
US-CERT to share classified threat analysis updates and serves as a 
venue for participating agencies to share cyber activity detected 
within their internal networks.
    Additionally, US-CERT continues to work closely with other DHS and 
Federal Operations Centers. DOD maintains a network of computer 
emergency response centers, which operate at all times and are 
coordinated by the Joint Task Force-Global Network Operations (JTF-GNO) 
to identify, mitigate, and respond as necessary to cyber attacks. DOD's 
U.S. Strategic Command, the National Security Agency/Central Security 
Service Threat Operations Center (NTOC), and JTF-GNO also provide 
continuous intelligence analysis of cyber threats. In addition, the Law 
Enforcement/Counter Intelligence Center, located at JTF-GNO, 
consolidates DOD's law enforcement and counterintelligence 
organizations with respect to cyber incidents. US-CERT works closely 
with the Defense Cyber Crime Center, NSA, and JTF-GNO through routine 
interaction and a liaison exchange program. Moreover, US-CERT 
participates weekly in a telecommunications check with JTF-GNO to 
ensure that secure communication mechanisms are operational.
    Question 2. In December 2008, the Commission on the Prevention of 
Weapons of Mass Destruction Proliferation and Terrorism released its 
report, World at Risk. The Commission determined that unless decisive 
and urgent action is taken by the world community, terrorists will 
perpetrate an attack with a weapon of mass destruction somewhere in the 
world by 2013, and the Commission believes this attack will most likely 
be with a biological weapon. The Commission said that addressing 
bioterrorism must become a higher priority for the Department and that 
prevention must also be coupled with a robust system for public health 
preparedness and response. Do you agree with the Commission's 
assessment and how would you recommend the Department move forward in 
addressing bioterrorism?
    Answer. DHS agrees with many of the WMD Commission's 
recommendations to address the threat of bioterrorism, and the 
Department intends to move forward on three main priorities: (1) 
Biosecurity: reviewing and updating existing Biosecurity and 
Bioterrorism prevention measures; (2) Biodefense Readiness: preparing 
the Nation to respond effectively to a potential attack or incident, 
especially through engineering advances in early warning capability; 
and (3) Biothreat Understanding: pursuing the best understanding of the 
threat as it stands today as new science, intelligence, or technology 
emerge.
    1. Biosecurity.--The WMD Commission's charge was limited to 
``prevention''. DHS is an active participant in the Working Groups 
established by the Executive Order 13486 on Strengthening Laboratory 
Biosecurity in the United States.
  <bullet> DHS entered into a Memorandum of Understanding with the 
        Centers for Disease Control and Prevention, in HHS, and the 
        Animal and Plant Health Inspection Service, in USDA, to share 
        select agent information that has enabled DHS to begin site 
        vulnerability assessments at select agent registered entities 
        across the country, and DHS will make recommendations for 
        improving security at these facilities.
    2. Biodefense Readiness.--DHS will move forward in addressing 
bioterrorism by focusing on the most effective efforts to save lives by 
improving early detection, providing accurate warning and rapid 
response.
  <bullet> DHS Office of Health Affairs (OHA) operates biodetection 
        technology in over 30 cities with zero false positives to date 
        through its BioWatch program. In addition, the DHS Science and 
        Technology Directorate (S&T) has been funding research to 
        engineer faster, better, and cheaper next-generation 
        biodetection systems that are fully automated. DHS biodetection 
        systems must be rigorously tested and have the full support and 
        confidence of our partners in the public health community. This 
        is being addressed by OHA and S&T in collaboration with our 
        Federal partners.
  <bullet> DHS and the Department of Health and Human Services (HHS) 
        have an effective working relationship to build a robust public 
        health preparedness and response system. DHS also has a robust 
        relationship with the Department of Agriculture (USDA) to 
        coordinate against food and plant and agriculture terrorist 
        threats. DHS Federal Emergency Management Agency (FEMA) will 
        continue to work closely with the State and local responder 
        community to understand their needs and capabilities. DHS also 
        solicits input from Homeland Security Advisors and the private 
        sector. The Department needs to pursue a resilient multi-
        sectoral response to bioterrorism, as an entire city or region 
        may be impacted in the event of an attack. Law enforcement, 
        transportation, utilities, emergency management, and many other 
        sectors of society are essential partners in addition to the 
        public health community.
  <bullet> The public also must be a full partner in our efforts. While 
        there have been lessons learned for what to do in case of 
        hurricanes, floods, or earthquakes, most Americans have no 
        experience or education on how to protect themselves and their 
        families against a bioterrorist attack. DHS will continue to 
        increase resiliency within the civilian population. Working 
        with HHS, DHS will ensure the general public is educated, 
        informed, and empowered with clear and understandable guidance.
    3. Biothreat Understanding.--DHS will advance the field of 
biodefense understanding.
  <bullet> DHS is establishing a risk-based tiering of bioterror 
        threats, and fills the scientific knowledge gaps about specific 
        vulnerabilities we face today.
  <bullet> DHS is exploring options to address new biothreats, such as 
        a synthetic DNA that could be ordered on-line but misused to 
        build a controlled pathogen.
  <bullet> DHS is advancing the field of microbial forensics to assist 
        in criminal investigations for possible attribution.
    Question 3. In your testimony, you mention the need for DHS to 
evaluate its role in building capacity for a ``health care surge,'' 
including DHS's supporting role in coordinating response to such an 
incident, and how the Department's preparedness and public 
communications efforts could better facilitate existing health care 
surge capacities.
    In my district, Wright State University, in close cooperation with 
Wright Patterson Air Force Base, is developing a self-sustaining, all-
hazard, actual conditions training environment for civilian and 
military first responders and first providers (nurses, doctors, other 
medical personnel). Its focus is to develop a Disaster Resilient 
Healthcare Community based on the four themes of planning, preparation, 
response, and recovery.
    What are your thoughts on such a project and what are your plans at 
DHS to ensure our communities are capable of dealing with a health care 
surge caused by an attack that involves chemical, biological, 
radiological, and/or nuclear (CBRN) weapons?
    Answer. I appreciate the efforts of Wright State University and our 
Nation's many other educational and training facilities that provide 
our first responders and health care providers with the skills they 
need to prepare for, respond to, mitigate the effects of, and recover 
from all hazards. Wright State University should be commended on its 
proactive approach to fostering an environment of resilience in the 
health care sector. The availability of such training opportunities is 
a critical element in the ability of our communities to deal with the 
health and medical consequences of a CBRN event.
    As you know, HHS is the Federal lead for public health emergencies, 
including medical surge capacity after an emergency working with our 
Federal partners. DHS has a number of activities underway to help build 
medical surge capacity at the regional, State, and local levels. DHS is 
one of the six Federal department signatories to the Federal Education 
and Training Interagency Group (FETIG). This group, formed under the 
direction from HSPD-21, is directed to provide guidance to the National 
Center for Disaster Medicine and Public Health which will be housed at 
the Uniformed Services University of Health Sciences. The group is 
chartered to provide guidance for standardization of training and 
education for first responders. Ultimately, it will engage the public 
sector, private sector and academia to develop suggested guidance by 
which curricula can be developed and training centers accredited.
    The DHS Office of Health Affairs (OHA) is working with the 
Community and Regional Resilience Initiative (CARRI) Program to promote 
the concept of community resiliency to meet the challenges of any 
health and medical stressor. The CARRI project is a regional program 
that has national implications to promote resilience in both human and 
physical resources to meet the challenges of health care surge.
    OHA is also leading an interagency effort to develop a 
Clearinghouse of Medical and Public Health Preparedness Allocation, 
Skill Development, and Standards (CoMPASS). CoMPASS is a database that 
will make it easier to find Federal health and medical training and 
exercise opportunities, grant funding, and standards through an easy-
to-use web-based portal. The data will be aligned by national 
priorities, target capabilities, and agency-specific preparedness 
missions. This will allow medical and public health communities the 
ability to locate training and funding opportunities, then connect 
instantly to the host site.
    OHA has been working to convene a meeting with a number of health 
care entities, including Wright State University, that have 
demonstrated similar successes as Wright State in order to assemble a 
consortium of health care systems focused on providing hands-on 
training and education to foster health care resiliency. This effort 
will lead the way for a regional health and medical training approach 
that builds upon successes like Wright State University by promoting 
such activities through various grants and training opportunities for 
all levels of government.
    Finally, DHS has a number of facilities and resources that focus 
full-time on providing training opportunities to our communities' first 
responders. These include the U.S. Fire Academy, Emergency Management 
Institute, the Center for Domestic Preparedness, and the Noble Training 
Center, which all have programs aimed at promoting resiliency of the 
health care community.
    Question 4. There are approximately 70 miles of planned fencing 
along the southern border yet to be completed. What are your intentions 
on finishing this span of fencing? Additionally, constructing the fence 
is important, but it is equally critical that DHS have plans in place 
to address maintenance just like with any infrastructure or technology 
project. How will this be taken care of to ensure that the significant 
investment made to deploy this physical infrastructure will not be lost 
in the coming years due to lack of a maintenance strategy?
    Answer. As of March 6, 2009, there are approximately 50 miles 
remaining of the 661 miles of priority areas identified by the Border 
Patrol to be constructed along the southwest border. Of the 50 miles, 
34 are currently under construction, 13 miles in Rio Grande Valley are 
under contract and awaiting real estate clearance and 3 miles in the 
Tucson Sector are awaiting formal NEPA documentation required by the 
Tohono O'Odham Nation. Current plans are to complete these fence 
projects by October 2009.
    U.S. Customs and Border Protection (CBP) currently has interim 
maintenance contracts in place to provide tactical infrastructure (TI) 
operations and maintenance (O&M) coverage until a long-term 
Comprehensive TI Maintenance and Repair (CTIMR) contract is awarded. 
The interim contracts are managed by the U.S. Army Corps of Engineers 
utilizing their multiple award task order contracts. The long-term 
CTIMR contract is scheduled to be awarded in the first quarter of 
calendar year 2010. These contracts will cover maintenance and repair 
for fence and gates, roads and bridges, drainage structures and grates, 
lighting and electrical systems, and vegetation and debris removal 
within the seven Border Patrol sectors.

                                 <all>

</pre></body></html>
